<html>
<title> - CONCEPTS FOR THE NEXT WATER RESOURCES DEVELOPMENT ACT: PROMOTING RESILIENCY OF OUR NATION'S WATER RESOURCES INFRASTRUCTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


   CONCEPTS FOR THE NEXT WATER RESOURCES DEVELOPMENT ACT: PROMOTING 
       RESILIENCY OF OUR NATION'S WATER RESOURCES INFRASTRUCTURE

=======================================================================

                                (116-44)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           NOVEMBER 19, 2019
                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
41-989 PDF                 WASHINGTON : 2020   





             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     Vacancy


            Subcommittee on Water Resources and Environment

 GRACE F. NAPOLITANO, California, 
               Chair
BRUCE WESTERMAN, Arkansas            DEBBIE MUCARSEL-POWELL, Florida, 
DANIEL WEBSTER, Florida              Vice Chair
THOMAS MASSIE, Kentucky              EDDIE BERNICE JOHNSON, Texas
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
BRIAN BABIN, Texas                   JARED HUFFMAN, California
GARRET GRAVES, Louisiana             ALAN S. LOWENTHAL, California
DAVID ROUZER, North Carolina         SALUD O. CARBAJAL, California
MIKE BOST, Illinois                  ADRIANO ESPAILLAT, New York
RANDY K. WEBER, Sr., Texas           LIZZIE FLETCHER, Texas
DOUG LaMALFA, California             ABBY FINKENAUER, Iowa
BRIAN J. MAST, Florida               ANTONIO DELGADO, New York
GARY J. PALMER, Alabama              CHRIS PAPPAS, New Hampshire
JENNIFFER GONZALEZ-COLON,            ANGIE CRAIG, Minnesota
  Puerto Rico                        HARLEY ROUDA, California
SAM GRAVES, Missouri (Ex Officio)    FREDERICA S. WILSON, Florida
                                     STEPHEN F. LYNCH, Massachusetts
                                     TOM MALINOWSKI, New Jersey
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Bruce Westerman, a Representative in Congress from the State 
  of Arkansas, and Ranking Member, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     3
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     6
    Prepared statement...........................................     6
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................   101

                               WITNESSES

Gerald E. Galloway, P.E., Ph.D., Brigadier General, U.S. Army 
  (Ret.), Acting Director, Center for Disaster Resilience, A. 
  James Clark School of Engineering, University of Maryland:

    Oral statement...............................................     8
    Prepared statement...........................................     9
Ann C. Phillips, Rear Admiral, U.S. Navy (Ret.), Special 
  Assistant to the Governor for Coastal Adaptation and 
  Protection, Commonwealth of Virginia:

    Oral statement...............................................    13
    Prepared statement...........................................    15
Ricardo S. Pineda, P.E., C.F.M., Chair, Association of State 
  Floodplain Managers, Supervising Water Resources Engineer, 
  California Department of Water Resources, Division of Flood 
  Management, on behalf of the Association of State Floodplain 
  Managers:

    Oral statement...............................................    23
    Prepared statement...........................................    25
Louis A. Gritzo, Ph.D., Vice President of Research, FM Global:

    Oral statement...............................................    39
    Prepared statement...........................................    40
Melissa Samet, Senior Water Resources Counsel, National Wildlife 
  Federation:

    Oral statement...............................................    44
    Prepared statement...........................................    46
Julie A. Ufner, President, National Waterways Conference:

    Oral statement...............................................    59
    Prepared statement...........................................    60

                       SUBMISSIONS FOR THE RECORD

Letter of November 18, 2019, from Sean O'Neill, Senior Vice 
  President, Government Affairs, Portland Cement Association, 
  Submitted for the Record by Hon. Grace F. Napolitano...........   102

                                APPENDIX

Question from Hon. Garret Graves to Gerald E. Galloway, P.E., 
  Ph.D., Brigadier General, U.S. Army (Ret.), Acting Director, 
  Center for Disaster Resilience, A. James Clark School of 
  Engineering, University of Maryland............................   103
Questions from Hon. Garret Graves to Ann C. Phillips, Rear 
  Admiral, U.S. Navy (Ret.), Special Assistant to the Governor 
  for Coastal Adaptation and Protection, Commonwealth of Virginia   103
Questions from Hon. Grace F. Napolitano to Ricardo S. Pineda, 
  P.E., C.F.M., Chair, Association of State Floodplain Managers, 
  Supervising Water Resources Engineer, California Department of 
  Water Resources, Division of Flood Management, on behalf of the 
  Association of State Floodplain Managers.......................   105
Question from Hon. Garret Graves to Ricardo S. Pineda, P.E., 
  C.F.M., Chair, Association of State Floodplain Managers, 
  Supervising Water Resources Engineer, California Department of 
  Water Resources, Division of Flood Management, on behalf of the 
  Association of State Floodplain Managers.......................   109
Question from Hon. Garret Graves to Louis A. Gritzo, Ph.D., Vice 
  President of Research, FM Global...............................   109
Question from Hon. Garret Graves to Melissa Samet, Senior Water 
  Resources Counsel, National Wildlife Federation................   110
Questions from Hon. Bruce Westerman to Julie A. Ufner, President, 
  National Waterways Conference..................................   111
Question from Hon. Garret Graves to Julie A. Ufner, President, 
  National Waterways Conference..................................   113

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           November 15, 2019

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Water Resources and 
Environment
    FROM:  LStaff, Subcommittee on Water Resources and 
Environment
    RE:      LSubcommittee Hearing on ``Concepts for the Next 
Water Resources Development Act: Promoting Resiliency of our 
Nation's Water Resources Infrastructure''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Water Resources and Environment will 
meet on Tuesday, November 19, 2019, at 10:00 a.m. in Room 2167, 
Rayburn House Office Building, to receive testimony related to 
the role of resiliency in the construction, and operation and 
maintenance of projects carried out by the U.S. Army Corps of 
Engineers (Corps). This hearing will be one of several related 
to the formulation of a new water resources development act 
(WRDA) for 2020.

                               BACKGROUND

U.S. ARMY CORPS OF ENGINEERS: STATE OF THE INFRASTRUCTURE

    The Committee on Transportation and Infrastructure has 
jurisdiction over the Corps' Civil Works program. The Corps is 
the Federal government's largest water resources development 
and management agency and is comprised of 38 district offices 
within eight divisions. The Corps operates more than 700 dams; 
has constructed 14,500 miles of levees; and maintains more than 
1,000 coastal, Great Lakes, and inland harbors, as well as 
12,000 miles of inland waterways.\1\
---------------------------------------------------------------------------
    \1\ https://www.crs.gov/Reports/R45185#fn1.
---------------------------------------------------------------------------
    Navigation was the earliest Civil Works mission, when 
Congress authorized the Corps to improve safety on the Ohio and 
Mississippi Rivers in 1824. Since then, the Corps' primary 
missions have evolved and expanded to include flood damage 
reduction along rivers, lakes, and the coastlines, and projects 
to restore and protect the environment. Along with these 
missions, the Corps is the largest generator of hydropower in 
the Nation, provides water storage opportunities to cities and 
industry, regulates development in navigable waters, provides 
disaster response and recovery during emergencies, and manages 
a recreation program. To date, the Corps manages nearly 1,500 
water resources projects.

ROLE OF RESILIENCY IN CORPS PLANNING AND OPERATIONS

    Most of the Corps' facilities and infrastructure was 
constructed in the early to mid-1900s. As a result, 
approximately 95 percent of the dams managed by the Corps are 
more than 30 years old, and half have reached or exceeded their 
50-year project lives.\2\ The Corps' ability to manage its 
portfolio of aging infrastructure is coupled with the need to 
balance multiple authorized purposes and increased demands on 
the infrastructure. The Corps' infrastructure also faces new 
challenges in the frequency in which extreme weather events are 
occurring. How the Corps factors the frequency of extreme 
weather events and the role of resiliency in the operation, 
maintenance, and construction of its facilities is crucial both 
to the sustainability of the infrastructure as well as the 
Corps' ongoing responsibility to meet the authorized purposes 
of Corps projects.
---------------------------------------------------------------------------
    \2\ See https://www.nap.edu/read/13508/chapter/3.
---------------------------------------------------------------------------
    In 2014, the Corps issued its USACE Climate Preparedness 
and Resilience Policy Statement, which declared that ``it is 
the policy of USACE to integrate climate change preparedness 
and resilience planning and actions in all activities for the 
purpose of enhancing the resilience of our built and natural 
water-resource infrastructure and the effectiveness of our 
military support mission, and to reduce the potential 
vulnerabilities of that infrastructure and those missions to 
the effects of climate change and variability.'' \3\ In 2016, 
the Corps further defined ``resiliency'' in its Resiliency 
Initiative Roadmap as ``the concept to convey a holistic 
approach to addressing threats and uncertainty from acute 
hazards such as more frequent and/or stronger natural 
disasters, man-made threats, changing conditions from 
population shifts and climate change.'' \4\ In this Roadmap, 
the Corps approaches resilience with four key actions: 
``prepare, absorb, recover, and adapt.'' \5\
---------------------------------------------------------------------------
    \3\ See https://www.usace.army.mil/corpsclimate/
Climate_Preparedness_and_Resilience/.
    \4\ https://www.publications.usace.army.mil/Portals/76/
Publications/EngineerPamphlets/EP_1100-1-2.pdf?ver=2017-11-02-082317-
943.
    \5\ See Id.
---------------------------------------------------------------------------

RECENT REPORTS, TRENDS, AND EXAMPLES OF EXTREME WEATHER EVENTS:

    In 1990, Congress enacted the Global Change Research Act 
which requires Federal agencies to report to the President and 
the Congress (at least every 4 years) on ``the findings of the 
Global Change Research Program and the scientific uncertainties 
associated with those findings,'' the ``effects of global 
change on the natural environment, agriculture, energy 
production and use, land and water resources, transportation, 
human health and welfare, human social systems, and biological 
diversity,'' as well as ``current trends in global change, both 
human-induced and natural, and project major trends for the 
subsequent 25 to 100 years.'' \6\
---------------------------------------------------------------------------
    \6\ See Pub. L. 101-606.
---------------------------------------------------------------------------
    Four of these reports, called National Climate Assessments, 
have been issued pursuant to the Global Change Research Act--
the most recent of which was issued in 2018 \7\ (and slightly 
revised in 2019 \8\). This report highlights recent trends with 
extreme weather events in the United States, including 
prolonged periods of excessively high temperatures, heavy 
precipitation, and in some regions, severe floods and 
droughts.\9\ In addition, this ``Fourth National Climate 
Assessment'' highlighted how the intensity, frequency, and 
duration of Atlantic hurricane activity has substantially 
increased since the 1980s, including the number of strongest 
(Category 4 and 5) storms during this period.\10\
---------------------------------------------------------------------------
    \7\See https://nca2018.globalchange.gov/downloads/
NCA4_2018_FullReport.pdf.
    \8\ See https://nca2018.globalchange.gov/downloads/
NCA4_Errata_09October2019.pdf.
    \9\ See https://nca2014.globalchange.gov/highlights/report-
findings/extreme-weather.
    \10\ See id.
---------------------------------------------------------------------------
    More recently, according to the National Oceanic and 
Atmospheric Administration (NOAA), the first eight months 
(January to August) of 2019 were the wettest on record for the 
nation.\11\ Most of the precipitation fell within the Missouri, 
Mississippi, and Arkansas Rivers watershed, when a March 2019 
``bomb cyclone'' rain event in the Midwest resulted in massive 
flooding in the Missouri River Basin. At least 32 levee systems 
were overtopped or completely under water and, at last count, 
the Corps had discovered 114 breach sites in these systems.\12\ 
While the flooding subsided, plains snowmelt added more water 
to the system. In April 2019, the Corps deployed six vessels in 
the Southwest Pass at the mouth of the Mississippi River to 
expedite dredging in the Gulf of Mexico in preparation for the 
additional water flow.
---------------------------------------------------------------------------
    \11\ https://www.noaa.gov/news/january-through-august-was-wettest-
on-record-for-us.
    \12\ https://www.epw.senate.gov/public/_cache/files/3/3/3340ee0b-
51ad-40d4-8a06-ea79491dde63/F631CE8BBCD6E3B31B0DB99C44DD65CD.u.s.-army-
corps-testimony-04.17.2019.pdf.
---------------------------------------------------------------------------
    The extreme hydrologic events during the first eight months 
of 2019 continued at record-breaking levels as the water flowed 
downstream. For example, the December 2018 to August 2019 
period is now the longest known flood of record for the Lower 
Mississippi River. In addition, the Corps has had to utilize 
the Bonnet Carre Spillway in Louisiana to relieve flooding 
impacts on the Lower Mississippi basin. The Corps' recent use 
of the Spillway is notable for several reasons. First, its most 
recent opening in May 2019 is only the 13th time the spillway 
has been used since its construction in the 1930s. Second, its 
use in 2018 and 2019 marks the first time the spillway has been 
used in consecutive years, as well as the first time the 
spillway has had more than one opening in a single year (Feb-
April and May-July 2019).\13\ The Mississippi River in Baton 
Rouge had a record of 211 days above flood stage for most of 
2019, easily breaking the previous record set by the Great 
Flood of 1927 (of 135 days).\14\
---------------------------------------------------------------------------
    \13\ https://www.mvn.usace.army.mil/Missions/Mississippi-River-
Flood-Control/Bonnet-Carre-Spillway-Overview/Spillway-Operation-
Information/.
    \14\ https://www.weather.gov/lix/ms_flood_history.
---------------------------------------------------------------------------

STAKEHOLDER PERSPECTIVE: ARMY CORPS AND RESILIENT INFRASTRUCTURE

    As noted above, the Corps has constructed and continues to 
operate and maintain critical flood control, navigation, and 
environmental restoration projects throughout the Nation. 
However, several notable climatic events, such as the hurricane 
seasons of 2005 (Katrina and Rita), 2012 (Superstorm Sandy), 
and 2017 (Harvey, Irma, and Maria), and the Midwest flooding of 
2018 and 2019, have highlighted the challenges of continuously 
operating Corps projects at their authorized purpose when faced 
with extreme weather events.
    This hearing is intended to examine how concepts of 
resilience are incorporated in the planning, design, 
construction, and operation and maintenance of existing 
projects, and how the Corps' existing infrastructure is managed 
both to address authorized purposes as well as meet potential 
future extreme hydrologic conditions.

                               WITNESSES

    <bullet> LGerald E. Galloway, PE, PhD, Brigadier General 
(US Army-Retired), Glenn L. Martin Institute Professor of 
Engineering, University of Maryland
    <bullet> LAnn Phillips, Rear Admiral (US Navy-Retired), 
Special Assistant to the Governor for Coastal Adaptation and 
Protection, Commonwealth of Virginia
    <bullet> LRicardo S. Pineda, PE, CFM, Chair, Association of 
State Floodplain Managers, Supervising Engineer Water 
Resources, California Department of Water Resources Division of 
Flood Management, on behalf of the Association of State 
Floodplain Managers
    <bullet> LLouis Gritzo, Ph.D, Vice President, FM Global 
Research Manager
    <bullet> LMelissa Samet, Senior Water Resources Counsel, 
National Wildlife Federation
    <bullet> LJulie Ufner, President, National Waterways 
Conference

 
   CONCEPTS FOR THE NEXT WATER RESOURCES DEVELOPMENT ACT: PROMOTING 
       RESILIENCY OF OUR NATION'S WATER RESOURCES INFRASTRUCTURE

                              ----------                              


                       TUESDAY, NOVEMBER 19, 2019

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
             Committee on Transportation and Infrastructure
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 2167, Rayburn, Hon. Grace F. Napolitano (Chairwoman of the 
subcommittee) presiding.
    Present: Representatives Napolitano, DeFazio, Mucarsel-
Powell, Johnson of Texas, Garamendi, Huffman, Lowenthal, 
Carbajal, Espaillat, Fletcher, Finkenauer, Delgado, Craig, 
Rouda, Wilson, Lynch, Malinowski; Westerman, Massie, Woodall, 
Babin, Graves of Louisiana, Bost, Weber, LaMalfa, Mast, Palmer, 
and Gonzalez-Colon.
    Mrs. Napolitano. Good morning everybody. This meeting is 
called to order.
    And today's hearing focuses on the role of resiliency in 
assessing the U.S. Army Corps of Engineers infrastructure. Let 
me begin by asking unanimous consent that committee members not 
on the subcommittee be permitted to sit with the subcommittee 
at today's hearing to ask questions. No objection? So ordered.
    I also ask unanimous consent that the Chair be authorized 
to declare a recess during today's hearing. And without 
objection, so ordered.
    The Corps has defined resiliency as a holistic approach to 
addressing threats and uncertainty from acute hazards. These 
hazards include more frequent and stronger natural disasters, 
man-made threats, changing conditions from population shifts 
and climate change, good old climate change. The Corps is the 
largest water manager in the Nation, so it is important for us 
to understand how the Corps manages its inventory of projects 
in light of a changing climate, including how it builds 
resiliency into its decisionmaking. This will be a critical 
discussion in the formation of a new Water Resources 
Development Act, WRDA. We must also keep in mind the funding 
increases caused by disasters.
    I am already having a discussion of aging infrastructure, 
changing hydrological conditions, and how we can better respond 
to these changes in my district in southern California and 
throughout the Nation. We have several Corps facilities, 
including Whittier Narrows Dam. It is part of the Los Angeles 
County Drainage Area Flood Control System, which collects the 
runoff from the upstream watershed of the San Gabriel River and 
controls downstream releases to millions of people. Like many 
Corps facilities, it is over 50 years old--62 to be exact. It 
is classified by the Corps as a Dam Safety Action 
Classification 1, the highest classification, because of its 
potential risk to downstream populations should it fail.
    I am working closely with the Corps to ensure the dam 
safety work is started and completed, after nearly 15 years 
working on it at the Whittier Narrows, to protect our 
communities from the threats of today and the future threats of 
climate change. We are also pushing for another important 
reason, and that is the ability to use Whittier Narrows and 
other water infrastructure like the Prado Dam to meet the 
future water needs of the community. We cannot do this if they 
fall apart or are in danger of failure.
    In southern California, over half of our water supply is 
imported from the Bay Delta or the Colorado River. We 
experience frequent droughts. So we want to be able to utilize 
existing infrastructure and operate them in a way that meets 
existing authorized purposes, but also consider other needs 
like groundwater recharge and water supply. An example of this 
is with Prado Dam as a potential pilot project for the 
forecast-informed reservoir operations. This project helped to 
conserve 12,000 acre-feet of water in Lake Mendocino earlier 
this year by relying on better forecasting to help guide 
operations.
    And we recognize that what resiliency means for California 
will be different than what it means for the Midwest or the 
eastern seaboard. However, because the Corps projects have a 
real impact on everyday lives and livelihood of American 
families and on our local, regional, and national economy, it 
is important that the Corps consider resiliency as part of its 
mission every day.
    So I thank the witnesses for being here today and look 
forward to hearing your testimony.
    [Mrs. Napolitano's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Grace F. Napolitano, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
                    Water Resources and Environment
    The Corps has defined resiliency as ``a holistic approach to 
addressing threats and uncertainty from acute hazards.'' These hazards 
include more frequent and stronger natural disasters, man-made threats, 
changing conditions from population shifts, and climate change.
    The Corps is the largest water manager in the nation; so it is 
important for us to understand how the Corps manages its inventory of 
projects in light of a changing climate, including how it builds 
resiliency into its decision making. This will be a critical discussion 
in the formulation of a new water resources development act.
    I am already having this discussion of aging infrastructure, 
changing hydrologic conditions, and how we can better respond to these 
changes in my district in Southern California.
    We have several Corps facilities, including the Whittier Narrows 
Dam. It is part of the Los Angeles County Drainage Area flood control 
system, which collects runoff from the upstream watershed of the San 
Gabriel River, and controls releases downstream.
    Like many Corps facilities, it is over 50 years old--62 to be 
exact. It is classified by the Corps as a Dam Safety Action 
Classification-1--the highest classification, because of the potential 
risks to downstream populations should it fail. I am working closely 
with the Corps to ensure that the Dam Safety work is started and 
completed at Whittier Narrows to protect our communities from the 
threats of today, and the future threats of climate change.
    We are also pushing for this work for another important reason, the 
ability to utilize Whittier Narrows, and other water infrastructure, 
like Prado Dam, to meet the future needs in the community. We cannot do 
this if they are falling apart.
    In Southern California, over half of our water supply is imported 
from the Bay Delta or the Colorado River. We experience frequent 
droughts. We want to be able to utilize existing infrastructure and 
operate them in a way that meets existing authorized purposes, but also 
considers other needs, like groundwater recharge and water supply.
    An example of this is with Prado Dam as a potential pilot project 
for the Forecast Informed Reservoir Operations. This project helped to 
conserve 12,000 acre-feet of water at Lake Mendocino earlier this year 
by relying on better forecasting to help guide operations.
    I recognize that what resiliency means for California will be 
different than what it means for the Midwest, or the Eastern seaboard. 
However, because Corps projects have a real impact on the everyday 
lives and livelihoods of American families, and on our local, regional, 
and national economy, it is important that Corps considers resiliency 
as part of its mission every day.
    Thank you to our witnesses for being here today. I look forward to 
hearing your testimony.

    Mrs. Napolitano. And at this time, I am pleased to yield to 
my colleague, ranking member of our subcommittee, my good 
friend Mr. Westerman, for any thoughts he may have.
    Mr. Westerman. Thank you, Chairwoman Napolitano. And I want 
to thank all of today's witnesses and especially Ms. Ufner in 
particular, who I understand just recently took over for the 
National Waterways Conference. And I would also like to take a 
moment to thank Amy Larson, the outgoing president of the 
conference, for her many years of work on behalf of inland 
navigation, flood control and water supply. Those are interests 
that are important and critical to constituents in my home 
State and all around the country.
    The Army Corps of Engineers is the Nation's largest owner 
of water resource projects, as the chairwoman said, and they 
manage more than 1,500 projects. This includes being the 
largest generator of hydropower in the Nation, providing water 
storage opportunities to cities and industry, regulating 
continued operation and development of navigable waters, and 
providing disaster response and recovery during emergencies, 
among other issues. All told, these missions protect our 
citizens and ensure that our local and national economies 
thrive. Therefore, it is imperative to the millions of 
Americans who rely on these projects that we ensure they are 
operating well into the future and serving the purposes for 
which they were developed.
    But as we know, the state of our water resource 
infrastructure is very poor. Most of the infrastructure was 
built many, many decades in the past and has not been 
adequately maintained. One of the most oft-cited statistics in 
this subcommittee, the American Society of Civil Engineers has 
given water infrastructure a D-plus grade.
    I know how important this infrastructure is. Earlier this 
summer, hundreds of homes in my home State of Arkansas were 
affected by the flooding. Bridges were closed and barge traffic 
was stopped. At one point, this was costing my home State over 
$20 million in economic losses every day.
    Over the past several appropriations cycles, including 
supplemental emergency funding bills, the Corps Civil Works 
program has never been flusher with funding, well over $15 
billion in the last 2 fiscal years alone. We need to 
expeditiously turn this funding around in order to rebuild and 
improve our water resources infrastructure. But any 
conversation about resiliency planning for the future is moot 
if we cannot get any of these critical water resources 
infrastructure projects completed and delivered effectively and 
efficiently. The simple fact of the matter is that a project 
cannot be resilient unless and until it is built.
    While I do look forward to today's discussion on resiliency 
planning, I want to strongly emphasize that a conversation 
about resiliency and planning for the future means nothing if 
the Corps is not completing projects currently on the books, 
including the Corps' emergency response and repair obligations. 
So I hope at a future hearing we can discuss in greater detail 
ways to make the agency more efficient and effective in 
completing projects. We must ensure that the Corps is truly 
fulfilling obligations after disasters hit and get communities 
back on their feet while being good stewards of scarce taxpayer 
dollars.
    With all that said, I will say that I was pleasantly 
surprised last week to get an update from the Little Rock Corps 
office that they were making progress fixing a levee and 
restoring a pumping station way ahead of their initial proposed 
schedule. This should be the rule and not the exception. And I 
want to say thank you to Colonel Noe and the folks on his staff 
who are actually getting the job done and making progress.
    I believe that we need to continue to work to reduce 
project vulnerabilities from future flood and storm events. In 
doing so, I believe in a few guiding principles. Non-Federal 
sponsors and the Army Corps need to have equal seats at the 
table and act as partners. Requirements should not be imposed 
on sponsors without their buy-in. Resilience is not a one-size-
fits-all framework. It must be considerate of the local 
geography and climate and the local industry and economy. What 
works in California does not work in Arkansas. And we must be 
proactive with regards to our aging infrastructure.
    Over the past 6 years, the committee has passed three 
WRDAs, authorizing approximately $56 billion worth of projects 
that proactively address ecosystem restoration initiatives, 
flood risk reduction efforts and hurricane and storm risk 
reduction projects and policies to help ensure a more resilient 
Nation. Similarly, the most recent WRDA included in the 
America's Water Infrastructure Act in 2018 authorized seven 
studies for flood risk reduction, authorized and modified 
several projects for construction of ecosystem restoration and 
storm damage reduction and flood risk management projects. They 
required a study on urban flooding and a report on storm 
mitigation projects in areas where significant risks for future 
extreme weather events are likely; required a report on North 
Atlantic coastal resiliency with considerations to current, 
near- and long-term predicted sea levels and storm strengths; 
and promoted natural and nature-based features in water 
resource project development, among many other provisions.
    I look forward to hearing the perspectives and suggestions 
from our witnesses here today, as we look to inform our next 
WRDA bill.
    [Mr. Westerman's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Bruce Westerman, a Representative in 
 Congress from the State of Arkansas, and Ranking Member, Subcommittee 
                   on Water Resources and Environment
    Thank you, Chairwoman Napolitano. I want to thank all of today's 
witnesses, and Ms. Ufner in particular, who I understand just recently 
took over the National Waterways Conference. I'd also like to take a 
moment to thank Amy Larsen, outgoing president of the Conference, for 
her many years of work on behalf of inland navigation, flood control, 
and water supply interests--all of which are critical to constituents 
in my home state.
    The Army Corps of Engineers is the Nation's largest owner of water 
resources projects--managing more than 1,500 projects. This includes 
being the largest generator of hydropower in the Nation, providing 
water storage opportunities to cities and industry, regulating 
continued operation and development in navigable waters, and providing 
disaster response and recovery during emergencies, among others.
    All told, these missions protect our citizens and ensure that our 
local and national economies thrive. Therefore, it is imperative to the 
millions of Americans who rely on these projects that we ensure they 
are operating well into the future and serving the purposes for which 
they were developed.
    But as we know, the state of our water resources infrastructure is 
very poor. Most of this infrastructure was built many, many decades in 
the past and has not been adequately maintained. In one of the most 
oft-cited statistics in this subcommittee, the American Society of 
Civil Engineers has given water infrastructure a D+.
    I know how important this infrastructure is. Earlier this summer, 
hundreds of homes in my home state of Arkansas were affected by the 
flooding, bridges were closed, and barge traffic was stopped. At one 
point this was costing my home state over $20 million in economic 
losses every day.
    Over the past several appropriations cycles, including supplemental 
emergency funding bills, the Corps Civil Works program has never been 
flusher with funding--well over $15 billion in the last two fiscal 
years alone. We need to expeditiously turn this funding around in order 
to rebuild and improve our water resources infrastructure.
    But any conversation about resiliency planning for the future is 
moot if we can't get any of these critical water resources 
infrastructure projects completed and delivered effectively and 
efficiently. The simple fact of the matter is that a project can't be 
resilient, unless and until it's built.
    While I do look forward to today's discussion on resiliency 
planning, I want to strongly emphasize that a conversation about 
resiliency and planning for the future means nothing if the Corps is 
not completing projects currently on the books, including the Corps' 
emergency response and repair obligations. So, I hope at a future 
hearing we can discuss, in greater detail, ways to make the agency more 
efficient and effective in completing projects.
    We must ensure that the Corps is truly fulfilling its obligations 
after disasters hit, and to get communities back on their feet, while 
being good stewards of scarce taxpayers' dollars.
    That being said, I believe that we need to continue to work to 
reduce project vulnerabilities from future flood and storm events. In 
doing so, I believe in a few guiding principles. Non-federal sponsors 
and the Army Corps need to have equal seats at the table and act as 
partners--requirements should not be imposed on sponsors without their 
buy-in. Resilience is not a one-size-fits-all framework; it must be 
considerate of the local geography and climate, and the local industry 
and economy. What works in California doesn't work in Arkansas. And we 
must be proactive with regards to our aging infrastructure.
    Over the past six years, the Committee has passed three WRDAs--
authorizing approximately $56 billion worth of projects--that 
proactively address ecosystem restoration initiatives, flood risk 
reduction efforts, and hurricane and storm risk reduction projects and 
policies to help ensure a more resilient Nation.
    Similarly, the most recent WRDA, included in the America's Water 
Infrastructure Act in 2018 authorized 7 studies for flood risk 
reduction; authorized and modified several projects for construction of 
ecosystem restoration, storm damage reduction, and flood risk 
management projects; required a study on urban flooding and a report on 
flood and storm mitigation projects in areas where significant risk for 
future extreme weather events are likely; required a report on North 
Atlantic coastal resiliency with considerations to current, near, and 
long-term predicted sea levels and storm strengths; and promoted 
natural and nature-based features in water resources project 
development, among many other provisions.
    I look forward to hearing the perspectives and suggestions from our 
witnesses here today as we look to inform our next WRDA bill.

    Mr. Westerman. Thank you, Madam Chair, and I yield back.
    Mrs. Napolitano. Thank you, Mr. Westerman.
    The Chair now recognizes Mr. DeFazio.
    Mr. DeFazio. Thanks, Madam Chair. Again, thank you for 
holding this hearing as we work toward reauthorizing the Water 
Resources Development Act next year.
    This is a perspective that we have not spent a lot of time 
looking at. And I certainly share the gentleman's concerns 
about the efficiency in delivering projects and, you know, it 
seems that the Corps' capabilities of doing that vary by 
district around the country. So we will get into those issues, 
I assure him, when we get to authorization.
    But we also have to look at whether or not there are some 
who do not believe in climate change. But we are having an 
awful lot of severe weather events. The three largest rainfall 
events on record in the U.S. happened in the last 3 years. The 
Lower Mississippi River set the record for longest known flood 
from December 2018 to August 2019. Hurricanes and extreme 
hydrologic events are no longer an exception, they are becoming 
the norm. And it is very expensive, if you just want to look at 
it from a hard fiscal point of view. Seventy-five percent of 
the disasters are related to floods, and flood losses have 
averaged $8 billion a year. So this is something we need to 
deal with and get ahead of as much as possible.
    Structures are not the only answer. Yes, structures need to 
have integrity and also, you know, a lot of the Corps' 
infrastructure is aging. Locks are failing on the inland 
waterways. We have dams that are questionable for flood 
control. So we have to be looking at the structures we already 
have, their integrity.
    But then as we look at future issues, the question is 
whether you want to use a structure, or you want to try and 
mitigate by using more natural systems. And we will hear 
something about that here today. So it is something that the 
committee has not spent a lot of time on, and I am pleased that 
it is the focus of today's hearing. But we will deal with the 
regular nuts and bolts of the Corps at future hearings.
    Thank you, Madam Chair.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Today's hearing deals with the resiliency of our water 
infrastructure. Want to see the impacts of climate change? Look no 
further than water. You can see this through sea level rise, glacier 
melt, and extreme weather events through droughts, hurricanes, and 
record rainfall. The three largest rainfall events on record in the 
U.S. have occurred in the last three years. The Lower Mississippi River 
set the record for longest known flood from December 2018 to August 
2019. We've dealt with hurricanes Katrina, Florence, Matthew, Irma, and 
Maria at a staggering pace.
    Even if you don't believe that this is a result of climate change, 
we can at least agree that these extreme hydrologic events are no 
longer the exception and are now becoming the norm. Let's look at it 
from a fiscal perspective: more than 75 percent of declared Federal 
disasters are related to floods, and annual flood losses average almost 
$8 billion with over 90 fatalities per year. In 2019 alone, we have had 
10 weather and climate disaster events with losses exceeding $1 billion 
each across the United States. This includes 3 flooding events, 5 
severe storm events, and 2 tropical cyclone events.
    The Corps plays a crucial role in managing for these risks as the 
largest water manager in the Nation. Investing in resiliency not only 
helps to protect our communities but also helps reduce future spending 
on disasters. We need to better prepare our communities to understand 
the risks associated with extreme weather events. How we work with 
academia through research and innovation is also key.
    It is imperative that we support initiatives that work toward 
reducing carbon emissions, combating rising sea levels, investing in 
renewable energy, and building resilient infrastructure. I am 
considering ways to do this across all areas of our jurisdiction. 
Whether its reducing carbon emissions across all modes of 
transportation or reducing greenhouse gas emissions from pipelines and 
wastewater systems--we must do more.
    As this committee discusses moving forward on a Water Resources 
Development Act in the next year, ensuring that our communities are 
dealing with and managing risk associated with extreme hydrologic 
events is important and must be part of the discussion.
    Thank you.

    Mrs. Napolitano. Thank you, Mr. DeFazio.
    We will now proceed to hear from the witnesses who will 
testify. I thank all of you for being here, and welcome.
    On the panel, we have Dr. Gerald E. Galloway, brigadier 
general, U.S. Army, retired, Glenn L. Martin Institute 
professor of engineering at the University of Maryland. 
Welcome.
    Ann Phillips, rear admiral, U.S. Navy, retired, special 
assistant to the Governor for coastal adaptation and 
protection, Commonwealth of Virginia. Welcome.
    Ricardo Pineda, P.E., C.F.M., supervising water resources 
engineer, California Department of Water Resources, Division of 
Flood Management, on behalf of the Association of State 
Floodplain Managers. Welcome, sir.
    Dr. Louis Gritzo, vice president of research, FM Global, 
welcome.
    Melissa Samet, senior water resources counsel, National 
Wildlife Federation. Welcome, ma'am.
    And Julie Ufner, president, National Waterways Conference. 
Welcome, ma'am.
    And without objection, your prepared statements will be 
entered into the record. And all witnesses are asked to limit 
their remarks to 5 minutes.
    And Dr. Galloway, you may proceed.

    TESTIMONY OF GERALD E. GALLOWAY, P.E., Ph.D., BRIGADIER 
GENERAL, U.S. ARMY (RET.), ACTING DIRECTOR, CENTER FOR DISASTER 
RESILIENCE, A. JAMES CLARK SCHOOL OF ENGINEERING, UNIVERSITY OF 
  MARYLAND; ANN C. PHILLIPS, REAR ADMIRAL, U.S. NAVY (RET.), 
 SPECIAL ASSISTANT TO THE GOVERNOR FOR COASTAL ADAPTATION AND 
PROTECTION, COMMONWEALTH OF VIRGINIA; RICARDO S. PINEDA, P.E., 
   C.F.M., CHAIR, ASSOCIATION OF STATE FLOODPLAIN MANAGERS, 
SUPERVISING WATER RESOURCES ENGINEER, CALIFORNIA DEPARTMENT OF 
WATER RESOURCES, DIVISION OF FLOOD MANAGEMENT, ON BEHALF OF THE 
  ASSOCIATION OF STATE FLOODPLAIN MANAGERS; LOUIS A. GRITZO, 
 Ph.D., VICE PRESIDENT OF RESEARCH, FM GLOBAL; MELISSA SAMET, 
 SENIOR WATER RESOURCES COUNSEL, NATIONAL WILDLIFE FEDERATION; 
  AND JULIE A. UFNER, PRESIDENT, NATIONAL WATERWAYS CONFERENCE

    General Galloway. Thank you very much, Madam Chairman. 
Chairwoman Napolitano, Chairman DeFazio, Ranking Member 
Westerman, members of the committee, it is a distinct pleasure 
for me to be here today for this very timely hearing.
    I am professor of engineering and I am also acting director 
of the Center for Disaster Resilience at the Clark School of 
Engineering at the University of Maryland. I came to Maryland 
from a 38-year career in the Army and 8 years' service in the 
Federal Government, most of which has been associated with 
water resources management.
    In 1993 and 1994, I was privileged to work in the White 
House to lead an interagency study of the causes of the great 
Mississippi River flood of 1993, and to make recommendations to 
the President concerning the Nation's flood plain management. 
And more recently, I have had an opportunity as a member of the 
National Academy of Engineering to participate in two studies 
defining the importance of using resilience principles to 
better deal with growing natural disasters.
    Resilience in the water world requires an ability to 
identify the growing risks that face us, to plan and prepare to 
deal with these risks, absorb the impact of a major hazard 
event without collapse, take a hit and still stand on your 
feet, and then come back better after the event because you 
have prepared before the disaster for this. It is a new 
approach to dealing with these kinds of disasters.
    Since 1936, millions of Americans have been protected from 
the disastrous consequences of floods by projects authorized 
and funded by this Congress, yet we are seeing flood losses 
continuing to increase.
    Today, we face a turning point as the combination of 
pressure for development, deteriorating infrastructure reaching 
the end of its usable life, failure to complete flood damage 
reduction projects that are waiting in line, and changes in 
climate and weather place major challenges in front of us. You 
do not have to look more than at the 2019 Midwest floods and 
the Hurricanes Harvey, Irma and Maria in 2017 to provide a 
glimpse at the vivid proof of the power of nature.
    We also face a long-ignored and growing challenge of our 
flooding in urban areas, where considerable losses occur on a 
repetitive basis as a result of our inability of outdated and 
undersized drainage systems to handle the increasing number of 
heavy precipitation events that we are seeing, as opposed to 
just the riverine events. In 2006, as many of you know, 
Constitution Avenue in Washington was under 3 feet of water. 
And in 2014, Metro Detroit suffered a major rainfall event that 
cost $1.8 billion, not from rivers but from the rainfall. Much 
of this is caught in the gap between flood and stormwater 
management and exacerbates an already inequitable treatment in 
providing flood risk reduction in low-income areas in these 
urban and rural communities.
    There is a great opportunity ahead to incorporate 
resilience principles to modernize and make more flexible the 
development of water resource infrastructure and its associated 
management. From 1936 on, Congress has worked hard to do the 
right thing. Now is the time to replace 20th-century approaches 
with 21st-century resilience principles.
    Building resilience to flooding will require recognition 
that all projects will not be able to be fully funded at the 
level of protection or service desired. You just cannot build 
to the supreme heights that many people would like to have. And 
as a result, planning for emergency measures and the 
possibility of flooding beyond the project design must be 
included in projects, and funding for that planning must be 
provided as the project is designed. It is going to take an 
extra effort in planning.
    We must see coordination across all levels of Government in 
project development, not just in organizational silos. This 
will require breaking down barriers among agencies and their 
programs to maximize project effectiveness. Just as you all are 
doing with the WRDA 2018 review, Federal regulations on where 
USACE can carry on flood projects, the 800 cubic feet/second 
rule that came up, it is very important that we do let the 
agencies work together. Congress must remove its restrictions 
on USACE use of the more modern and broader-based principles, 
requirements, and guidelines for project justification. These 
restrictions on use of PR&G do not make sense anymore, restrict 
full consideration of social and environmental flood risk 
reduction benefits and limit project innovation, and fail the 
economically less fortunate.
    Reports are made on flood disasters as they occur, but 
little is done to implement most of these recommendations found 
in the reports. Disaster preparation and resilience requires 
consideration of lessons learned as they are presented.
    Lastly, resilience cannot be obtained if there is no 
funding. And this is something you all are well aware of. It is 
a challenge everywhere we go, that smaller communities cannot 
handle this.
    This is a great opportunity ahead and I look forward to 
helping in any way that I can. Thank you.
    [Mr. Galloway's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Gerald E. Galloway, P.E., Ph.D., Brigadier 
    General, U.S. Army (Ret.), Acting Director, Center for Disaster 
    Resilience, A. James Clark School of Engineering, University of 
                                Maryland
    Chairperson Napolitano, Ranking Member Westerman, Members of the 
Committee. It is a distinct privilege to participate in this important 
and timely hearing and I want to thank the Committee for the 
opportunity. I am Gerald E. Galloway, a Glenn L. Martin Institute 
Professor of Engineering and Acting Director, Center for Disaster 
Resilience at the A. James Clark School of Engineering, University of 
Maryland, where I teach and do research in water resources and natural 
disaster management. I came to that position following a 38-year career 
in the US Army and eight years service in the federal government, most 
of which was associated with water resources management. I served for 
three years as District Engineer for the Corps of Engineers in 
Vicksburg, MS and later, for seven years as a member of the Mississippi 
River Commission. From 2009-2018 I served as a member of the Governor 
of Louisiana's Advisory Commission on Coastal Protection, Restoration 
and Conservation and from 2016 to date as a member of the Maryland 
Coast Smart Council. I am currently a member of the Advisory Board of 
the Center of Climate and Security, and Vice Chair of the CNA Military 
Advisory Board dealing with climate change and national security. In 
1993 and 1994, I was privileged to be assigned to the White House to 
lead an interagency study, Sharing the Challenge, of the causes of the 
Great Mississippi River Flood of 1993 and to make recommendations to 
the President concerning the nation's floodplain management program.\1\ 
More recently, I have had the opportunity as a member of the National 
Academy of Engineering to participate in two studies defining and 
discussing the importance of building resilience in our nation as a 
means of reducing the impacts of natural and anthropogenic disasters.
---------------------------------------------------------------------------
    \1\ Interagency Floodplain Management Review Committee, Executive 
Office of the President. 1994. Sharing the Challenge: Floodplain 
Management into the 21st Century. Washington, GPO. (available at http:/
/www.floods.org/Publications/free.asp)
---------------------------------------------------------------------------
    Our nation has been dealing with natural disasters over its entire 
history. As technology changes we see more opportunities for 
anthropogenic disasters. Over the last several decades we have 
witnessed an increase in the severity and length of water related 
disasters and while they affect all aspects of water resources 
infrastructure--water supply, navigation, hydropower, environmental 
sustainability, etc., in the interest of time, I will limit my 
testimony to discussing the challenges we face in dealing with flood 
risk and how the 21st century is and will be requiring the nation to 
rely heavily on resilience to deal with these increasing challenges.
    In 1936, the US Congress passed a flood control act, launching the 
federal government into a major effort to reduce flood losses that were 
occurring throughout the United States. Even though millions of 
Americans have been protected from the disastrous consequences of 
floods by projects authorized and funded by the Congress, flood damages 
continue to increase. As we approached the present century, we began to 
face a turning point as the combination of pressure for development, 
frequently in unsuitable locations, deteriorating infrastructure, 
failure to complete planned flood damage reduction efforts, and changes 
in climate and weather threatened to place major challenges in front of 
us. During the last decade of the 20th century major floods in the 
United States and abroad caused nations around the world to move from 
flood control to managing flood risk and recognizing that we must be 
prepared to deal with these uncertain futures--to be resilient to what 
comes. It is time to consider new concepts that will promote our 
resilience in the managing our water resources infrastructure in 
general and of our flood risks in particular.
                               The Future
    Driving our future will be:

    <bullet>  Significant changes in how the weather and climate are 
affecting our nation and the world. 2020 will not look like 1936 
weather-wise. The areas subject to flooding are increasing as sea level 
rises and storm events grow in intensity and length. The 2020 Midwest 
Floods, Hurricanes Harvey, Irma, and Maria in 2017 and the Detroit 
Flood in 2014 provided vivid proof of the power of nature and how it is 
changing.
    <bullet>  Population growth and development in risk areas. Many 
communities and states are not controlling development in high risk 
areas when it is occurring and many people who move into such areas are 
unaware of the risks they face
    <bullet>  Deteriorating infrastructure. Much of the infrastructure 
in which we have invested is reaching the end of its usable life and we 
are not maintaining or updating it as needed. Many projects can no 
longer deal with the flood threats they face today. Some of this 
infrastructure was built under federal programs but much is the result 
of decades of local construction and operation. In many areas there is 
no comprehensive management of the complex system of dams, levees and 
other structures that protect a watershed's residents and their 
economy, Thousands of miles of levees do not meet national standards.
    <bullet>  Growth in billion-dollar disasters. Although there have 
been increases in the number of floods, the value of property in high 
risk areas has also increased.
    <bullet>  Inequitable treatment in providing flood risk reduction 
to low-income communities This is most obvious in low-income areas 
across the nation and results from the criteria we use to develop and 
approve projects and programs.
    <bullet>  The growing challenge of flooding in urban areas where 
considerable losses occur on a repetitive basis as a result of an 
inability of outdated and undersized systems to handle the increasing 
number of heavy precipitation events as opposed to riverine flood 
events. In 2006, Constitution Avenue in Washington, DC, was under three 
feet of water from rainfall flooding the Federal Triangle. In 2014, the 
Detroit, Michigan metro area suffered a major rainfall event that 
caused over $1.8 Billion in damages.\2\
---------------------------------------------------------------------------
    \2\ In 2018 and 2019, the University of Maryland and the Texas A&M 
University, NASEM, the Association of State Floodplain Managers, and 
the National Association of Flood and Stormwater Management Agencies 
prepared reports identifying the growing threat of urban flooding.
---------------------------------------------------------------------------
                        Resilience as an Answer
    If we accept that we do face future significant flood threats and 
do realize that we will not have the resources to address all flood 
risks with structural projects, we must turn to resilience to help us 
face reality. In 2009, nine federal agencies came to the National 
Research Council of the National Academies of Science, Engineering and 
Medicine (NASEM) and asked the NASEM to examine how attention to 
resilience might assist in the reduction of the impacts of natural 
disasters. In 2012, an Academy committee issued a report that defined 
resilience as:

        ``The ability to prepare and plan for, absorb, recover from or 
        more successfully adapt to actual or potential adverse 
        events.'' \3\
---------------------------------------------------------------------------
    \3\ Disaster Resilience: A National Imperative. Washington: 
National Academy Press. 2012

    Similar definitions began to shape programs of the government, 
business and non-governmental organizations. Resilience requires, in 
its preparation and planning phase, that those facing these disasters 
adequately identify the hazards with which they might have to address 
and develop the plans that they would have to make to deal with them. 
As you will hear this morning from other panelists, the integration of 
resilience into the day-to-day operations of government agencies at the 
state and local level, businesses, and even non-governmental 
organizations continues to grow.
    Becoming resilient requires communities and those practicing 
resilience in such areas as building infrastructure to follow a path 
that leads to full consideration of what is necessary to be able to 
recover from a disaster. It all begins with identifying the risks that 
must be faced. You cannot be prepared to deal with a potential disaster 
if you don't know what it might be. in looking at risks, the tendency 
is to take the easiest path and deal with the ``get by'' approach. This 
just doesn't work. Risk must be defined in its complete terms and 
across the spectrum of consequences. In the flood world, all too often, 
risk consideration is limited to what flood was last seen, rather than 
the flood that could be most devastating. True resilience also requires 
consideration of the impact of a flood on all elements of the community 
as the interdependence of communities' health, social welfare, 
environment, governance and economy are all closely tied to the total 
well-being of the community.
    The community must also develop a strategy for dealing with its 
risk as it seeks to mitigate the consequence of a hazard event. It 
frequently becomes obvious that a desired solution to deal with the 
potential risk, e.g. no losses, cannot be accommodated with the 
resources available to the community. The strategy must consider how to 
handle a more severe event. Plans must be developed to deal with a 
variety of conditions and clear decisions must be made on what is to be 
implemented. Even if the ultimate plan cannot be funded, communities 
must plan for what happens under those circumstance--e.g. the new levee 
is not complete or is overtopped. How will the community survive? How 
can steps taken ahead of time dampen these consequences to allow the 
community to bounce back.
    All the above actions require close cooperation and coordination 
within the affected communities and the state and federal agencies that 
are assisting them. This mean everybody must be at the table as they 
develop their strategies and parochial turf issues must be avoided.
  Promoting Resiliency of Our Nation's Water Resources Infrastructure
    Bringing the concepts of resilience into the 21st-century 
management our nation's water resources infrastructure will require 
implementation of new ways of doing business.
    Resilience requires:

    <bullet>  Considerably greater cooperation and coordination among 
federal agencies, among federal, state, tribal and local entities, and 
ultimately, considerably more refined all-hands effort in dealing with 
specific problems. In a 1989 report, the western governors identified 
some major causes of conflict and frustration with current federal 
water policies, ``A principal characteristic of federal water policy is 
that policies are made in an ad hoc, decentralized manner. No agency of 
the executive branch or committee of Congress is responsible for 
keeping an eye on the ``big picture.''

       The late Chairman of this Committee, Congressman Jim Oberstar, 
in 2009, indicated that ``the efforts of Federal agencies can overlap 
and at times conflict, and currently, there is no body within the 
Executive branch to provide substantive coordination or, if necessary, 
resolution of disagreements among agencies to ensure needed 
collaboration.'' He indicated that at that time, ``the diverse water 
resources challenges throughout the United States are often studied, 
planned, and managed in individual ``silos,'' independently of other 
water areas and projects. Generally, this has resulted in local and 
narrowly focused project objectives with little consideration of the 
broader watersheds that surround these projects.'' \4\
---------------------------------------------------------------------------
    \4\ Honorable James L. 0berstar, Remarks before the USACE 
Conference, ``Collaborating for A Sustainable Water Resources Future'' 
August 27, 2009
---------------------------------------------------------------------------
    <bullet>  Having program goals and objectives that reflect the 
needs of all sectors of the community. Chairman Oberstar also saw a 
need to have a ``National--not a Federal--vision'' on how to meet 
current water resource needs and how to address future water resource 
needs and challenges.
    <bullet>  Carrying out effective and inclusive planning at all 
levels. Every community should have a resilience plan that is developed 
in coordination with its partners--other government and all segments of 
its population, but such planning requires funding and there is little 
to be had.
                           What Can Be Done?
    If resilience is to be feasible, problems must be confronted and 
solved and not ignored. Following the Great 1993 Mississippi Flood 
considerable attention initially was placed on acting on the 
recommendations of the ``Sharing the Challenge'' report, including 
management of levees at all levels, development of a comprehensive plan 
for flood management, improving coordination of federal and state 
coordination, etc. However, after three years, in the face of limited 
support in the Congress, the Administration halted its efforts. In 2005 
FEMA produced a report indicating that likely most non-federal levees 
did not meet standards. The 2009, National Report on Levee Safety, 
initiated following levee failures during Hurricane Katrina, reported a 
similar condition in the nation's levees.\5\ Because of major flood 
losses resulting from levee failures or overtopping during the 2008 
Midwest floods. The Senate EPW Committee directed the Assistant 
Secretary of the Army to prepare a report indicating the status of 
implementation of the recommendations of the ``Sharing the Challenge 
report. Although the submittal indicated that considerable work still 
needed to be done no action was taken. Following the 2011 Midwest 
flood, the Committee asked again for a report and following the 
submittal no action was taken. Analysis of the levee failures in the 
2019 Midwest flooding will likely result in a replication of previous 
analyses and reports. Owners and operators of non-federal levees lack 
the resources to deal with the aged and unsatisfactory levees, and the 
arguments that exist over federal or state or local responsibilities 
make it difficult to come up with a satisfactory solution as to where 
to find resources to fill funding vacuums.
---------------------------------------------------------------------------
    \5\ National Committee on Levee Safety (NCLS). 2009. Draft Report 
to Congress on Recommendations for a National Levee Safety Program. 
Washington: US Army Corps of Engineers. Available at http://
www.iwr.usace.army.mil/ncls/docs/NCLS-Recommendation-
Report_012009_DRAFT.pdf
---------------------------------------------------------------------------
    Policies that create boundaries along agencies or between agencies 
or hinder cooperative efforts and deprive those in need the assistance 
they require make little sense. Action taken by Congress, in the 2018 
WRDA, required review of a provision in the law that limits USACE's 
authority to deal with flood situations in urban areas where the flow 
is under 800 cubic feet/second. Removing this restriction could open 
problem solutions to multiple agencies and create cooperative ventures.
    Continuing reliance primarily on economic justification of projects 
makes it difficult for those in rural and low-income areas to justify 
projects that would give them considerable social and conceivably 
health benefits. The recent NASEM studies of affordability of flood 
insurance gives a very clear picture of the differential level of flood 
protection under various economic situations and strong reason to 
consider all factors in project justification. Congressional 
restrictions on USACE use of more modern and broader based guidelines 
for project justification do not make sense and restrict full 
consideration of the flood risk reduction needs of the less fortunate.
                             In Conclusion
    There is a great opportunity ahead to incorporate resilience 
principles in the development of water resources infrastructure. From 
1936 on Congress has worked hard to do the right thing. As we move in 
the 21st-century, now is the time to do it.

    Mrs. Napolitano. Thank you, Dr. Galloway.
    Ms. Phillips, you are recognized for 5 minutes.
    Admiral Phillips. Thank you, Madam Chairwoman. Chairwoman 
Napolitano, Chairman DeFazio, Ranking Member Westerman, members 
of the subcommittee, thank you for the opportunity to testify 
to you all today on this very important topic.
    My name is Ann Phillips. I serve as the special assistant 
to the Governor of Virginia for coastal adaptation and 
protection. I am a retired surface warfare officer. I drove and 
commanded ships for the United States Navy for 31 years, 
retiring in 2014 as a rear admiral and commander of 
Expeditionary Strike Group 2. Since then, I have been involved 
in multiple efforts to highlight the impacts of climate change 
on national security and now focus on preparing Virginia's 
coastal infrastructure for the impact of sea level rise and 
recurrent flooding.
    Climate change has a significant impact on coastal 
communities and Federal infrastructure in Virginia today. We 
deal with water where we did not plan for it to be and that 
impedes the expected pattern of our lives, commerce, and 
national security in some form with increasing frequency.
    This committee can help by aligning Corps planning 
standards, feasibility studies, benefit-cost analysis processes 
and by prioritizing environmental restoration and flood control 
projects over or separately from navigation projects and 
reducing the flood control project backlog to prioritize the 
expanding needs of coastal States dealing with rising waters 
and recurrent flooding.
    In Virginia, we have over 10,000 miles of tidally 
influenced shoreline, the eighth longest in the country as 
defined NOAA, ranked just behind Texas. We have experienced 
over 18 inches of relative sea level rise in 100 years and 
expect to see that again by midcentury. Duration, severity, and 
impacts of flooding have all increased substantially. We are 
not simply preparing; we are already living with water.
    We have a water-based economy, all at risk. Our 
cornerstones are our Federal presence, arguably the largest 
concentration in the Nation, including our largest naval base, 
Naval Station Norfolk; the Port of Virginia, sixth largest 
container port by traffic volume in the country; beach and 
water-related tourism; aquaculture, fisheries, waterfront 
properties and housing stock.
    Virginia localities in the Commonwealth have partnered with 
the Corps on two coastal storm risk management studies, both 
recommended by the North Atlantic Coast Comprehensive Study in 
2015. The city of Norfolk completed their feasibility study 
this year and has entered preconstruction engineering design 
phase. The northern Virginia study, which includes Potomac 
River from Great Falls to Prince William, started July 15 this 
year. These studies help to further define the needs of 
communities dealing with rising waters, but they do not give a 
complete and comprehensive understanding of the impacts across 
coastal Virginia. To do that, Virginia needs a full coastal 
study. And we have the authorization from the 2018 Water 
Resources Development Act. But we need Corps and this 
committee's support to appropriate funds ultimately for this 
work.
    The protection of substantial critical national 
infrastructure is at stake. Such studies must include Federal 
and, in particular, DoD infrastructure, where applicable. Civil 
Works studies typically do not include DoD infrastructure, due 
to restrictions on funding sources.
    Norfolk's study, as an example, did not include the impacts 
to or outcomes from storm surge or recurrent flooding to Naval 
Station Norfolk or Naval Support Activity Hampton Roads, as 
related to impact on city infrastructure. Both of these are 
within the boundaries of the city of Norfolk. Both are on the 
Navy's list of most critical impacted facilities.
    We have a further challenge in Virginia, in that the 
Sewells Point tide gauge, our primary data source due to its 
long historic record, based on observed data, now exceeds the 
sea level rise projections of the Corps' preferred intermediate 
curve. This means that analysis using the intermediate curve 
can underestimate the rate of change and future impacts, which 
could result in underengineered and underdesigned solutions 
before projects get to the design and build phase. Using these 
conservative curves, the Corps is shooting behind the duck. It 
risks wasting Federal dollars in a tail chase to address an 
accelerating problem.
    Under Governor Ralph Northam, Virginia is taking bold and 
substantive action to address this threat, assigning three 
Executive orders directing creation of a coastal master plan, 
establishing a council on environmental justice and setting 
flood plain management requirements and planning standards for 
State agencies. But even with strong State action, we cannot do 
this alone. The work of this committee is vitally important to 
protecting people and property.
    This committee must help States organize and prioritize 
flood control projects with the Corps, align Corps planning 
standard studies and cost analysis processes, reduce the 
backlog, again, and prioritize coastal States dealing with the 
new challenges of rising waters and recurrent flooding.
    Virginia is committed to building capacity for our coastal 
communities and to collaborating with our Federal partners to 
prepare for and build resilience to this threat. We have no 
time to waste. My favorite saying: Time and tide wait for no 
man.
    Thank you for the opportunity to testify before this 
committee and I look forward to your questions.
    [Ms. Phillips' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Ann C. Phillips, Rear Admiral, U.S. Navy (Ret.), 
     Special Assistant to the Governor for Coastal Adaptation and 
                  Protection, Commonwealth of Virginia
    Chairman Napolitano, Ranking Member Westerman and distinguished 
Members of the Subcommittee, thank you for the opportunity to testify 
to you today. It is a privilege to be before you at this hearing to 
discuss this very important topic.
    My name is Ann Phillips, and I currently have the honor to serve as 
the Special Assistant to the Governor of Virginia for Coastal 
Adaptation and Protection. I am a retired Surface Warfare Officer--I 
drove and commanded ships for the United States Navy for 31 years, 
served abroad in Guam and Lisbon, Portugal, and operated extensively 
with NATO and Partnership for Peace nations. I retired in 2014 as a 
Rear Admiral and Commander, Expeditionary Strike Group TWO. My 
experience in coastal adaptation and protection, along with climate and 
national security, stems from my work as Chair of the Surface Force 
Working Group for the Navy's Task Force Climate Change while still on 
active duty, and from my work since retiring, chairing the 
Infrastructure Working Group for the Hampton Roads Intergovernmental 
Sea Level Rise Pilot Planning Project from 2014 to 2016, as a member of 
the Advisory Board of the Center for Climate and Security, and on the 
Board of Directors for the Council on Strategic Risks.
    Today, I've been asked to address the impact of the Water Resources 
Development Act and ensuing US Army Corps of Engineers actions and 
activities from the perspective of coastal states and coastal 
communities, and how Virginia is preparing to adapt and protect its 
coastal infrastructure from the impact of sea level rise and recurrent 
flooding. Virginia's priorities are to identify critical infrastructure 
that is vulnerable to rising waters and recurrent flooding; to 
determine the best and most practical, innovative and cost effective 
solutions to adapt and protect that infrastructure; to use creative and 
less costly green or green-gray infrastructure approaches to protect 
more dispersed assets and to ensure environmental equity for 
underserved communities; and to leverage federal, state and local funds 
to help make Coastal Virginia more resilient to climate change.
                           Setting The Stage
    Climate change has a significant and intensifying impact on our 
coastal communities in Virginia today. Rising sea levels lead to 
recurrent nuisance flooding, caused by high tides, accompanied by wind, 
and/or increased intensity and frequency of rainfall, or any 
combination of the three. These circumstances intensify the impact of 
coastal storms and hurricanes and the accompanying flooding and storm 
surges. Coastal Virginia deals with water where we did not plan for it 
to be, and that impedes the expected pattern of life, in some form, 
nearly every day. From October 8th to October 13th, Hampton Roads 
experienced above flood stage sunny-day flooding, caused in part by 
storms off shore and wind from the North East, for 10 consecutive high 
tide cycles over 5 days, impeding access and blocking traffic flow in 
and around the region.\1\ This is our ``new normal''--it affects every 
aspect of our lives in ways that we do not yet understand, or even 
realize.
---------------------------------------------------------------------------
    \1\ ``Water Levels--NOAA Tides & Currents,'' accessed November 12, 
2019, https://tidesandcurrents.noaa.gov/
waterlevels.html?id=8638610&units=standard&bdate=
20191005&edate=20191015&timezone=GMT&datum=MLLW&interval=6&action=.
---------------------------------------------------------------------------
    In Virginia, we have over 10,000 miles of tidally-influenced 
shoreline.\2\ Virginia has the eighth longest tidally-influenced 
coastline in the country, ranked just behind the state of Texas.\3\ \4\ 
We have experienced over 18 inches of sea level rise in 100 years, as 
indicated by NOAA Sewell's Point tide gauge at Pier Six, Naval Station 
Norfolk. With an average of 4.66 mm of sea level rise per year, 
Virginia has one of the highest rates of relative sea level rise change 
of any state on the East Coast of the United States, including the Gulf 
of Mexico.\5\ We are also experiencing land subsidence--most evident in 
areas where there is heavy use of water from our aquifers. Land 
subsidence varies across Coastal Virginia, and can range from as much 
as 40% to as little as 0% of the observed relative sea level rise.\6\ 
Since the late 1990s, the duration, severity, and impacts of flooding 
have all increased substantially.\7\
---------------------------------------------------------------------------
    \2\ MR Berman et al., ``Virginia--Shoreline Inventory Report: 
Methods and Guidelines, SRAMSOE No. 450.'' (Comprehensive Coastal 
Inventory Program, Virginia Institute of Marine Science, 2016).
    \3\ NOAA Office for Coastal Management, ``Shoreline Mileage of the 
United States,'' 1975.
    \4\ Berman et al., ``Virginia--Shoreline Inventory Report: Methods 
and Guidelines, SRAMSOE No. 450.''
    \5\ ``Sea Level Trends--NOAA Tides & Currents. Sewell's Point VA 
Station.,'' 2019, https://tidesandcurrents.noaa.gov/sltrends/
sltrends_station.shtml?id=8638610.
    \6\ D. P. S. Bekaert et al., ``Spaceborne Synthetic Aperture Radar 
Survey of Subsidence in Hampton Roads, Virginia (USA),'' Scientific 
Reports 7, no. 1 (2017): 14752, https://doi.org/10.1038/s41598-017-
15309-5.
    \7\ T Ezer and L Atkinson, ``Sea Level Rise in Virginia--Causes, 
Effects and Response,'' Virginia Journal of Science 66, no. 3 (2015): 
355-59.
---------------------------------------------------------------------------
  Observed Data Sea Level Rise Projections Exceed USACE Intermediate 
                           Curve in Virginia
    Current scientific projections, as documented by the Virginia 
Institute of Marine Science Sea Level Report Card, show that our sea 
levels will continue to rise and the rate of rise will accelerate, such 
that we expect an additional 18 inches of relative sea level rise by 
mid-century. Of particular interest to this committee is that using 
VIMS Sea Level Report Card, based on actual tide-gauge analysis for 
Sewell's Point, current sea level rise projections through 2050 exceed 
those of the USACE Intermediate curve (USACE-INT), the default curve 
USACE uses for its analysis and Coastal Storm Risk Management 
Studies.\8\
---------------------------------------------------------------------------
    \8\ ``Norfolk, Virginia--Virginia Institute of Marine Science,'' 
Norfolk, Virginia Sea-Level Report Card, accessed July 17, 2019, 
https://www.vims.edu/research/products/slrc/localities/nova/index.php.
---------------------------------------------------------------------------
    What this means is that any analysis using the USACE INT Curve is, 
again by default, underestimating the rate of change, depth, and future 
impacts, which results in under engineered and underestimated 
solutions--before the projects enter design phase. In essence, by using 
these very conservative SLR scenario-planning curves, and not 
considering local analysis and rates of change, USACE is ``shooting 
behind the duck''--wasting Federal dollars in a tail chase to address 
an ever-expanding problem and delivering under-designed and under-
engineered outcomes, rather than getting ahead of them with risk-
informed analysis. While localities may work with USACE to use higher 
sea level rise projections to accept less risk, any additional cost to 
designed outcomes falls to the locality and is not shared under USACE 
cost share provisions.
                         Virginia's Unique Risk
    We have a water-based economy in Coastal Virginia. The cornerstones 
of that economy are:

    <bullet>  Our Federal presence, arguably the largest concentration 
in the nation--in particular Department of Defense with Navy as the 
largest service represented, and including the substantial commercial 
industry surrounding military and commercial shipbuilding, maintenance 
and repair
    <bullet>  The Port of Virginia--large and expanding capacity with 
multi-modal access reaching from the East Coast to west of the 
Mississippi River
    <bullet>  Beach and Water-related Tourism
    <bullet>  Water-adjacent and dependent agriculture, aquaculture, 
fisheries, commercial property, and housing stock

    All of this is supported by critical public and private utility and 
transportation infrastructure, as well as a substantial medical/
hospital presence, and the universities, schools, and public 
infrastructure sustaining cities, counties and towns, along our coast.
    Virginia's high military concentration is tied to the water by the 
very nature of its mission, and at risk from the threat of sea level 
rise and climate change impacts. In their 2016 report, ``The Military 
on the Front Lines of Rising Seas,'' the Union of Concerned Scientists 
found that a 3 foot increase in sea level rise would threaten 128 
coastal DOD installations in the United States, 43% of which are Navy 
facilities valued at roughly $100 billion.\9\ In its own 2019 ``Report 
on Effects of a Changing Climate to the Department of Defense,'' the 
Department found that 53 of its mission-critical facilities are 
currently vulnerable to recurrent flooding, with 60 such facilities 
vulnerable within the next 20 years. When other hazards from climate 
change are considered (wildfire, drought, desertification), 79 total 
DoD facilities are vulnerable at present. In Virginia, five Hampton 
Roads area facilities are on the US Navy and US Air Force list of most 
vulnerable infrastructure released in June 2019, including Naval Air 
Station Norfolk, Naval Air Station Oceana, Naval Support Activity 
Hampton Roads, Naval Support Activity Hampton Roads-Northwest Annex, 
and Joint Base Langley-Eustis.\10\ A 2008 study by the Organization for 
Co-operation and Economic Development, ranked the Hampton Roads 
metropolitan area as the 10th most vulnerable in the world related to 
the value of assets at risk from sea level rise.\11\
---------------------------------------------------------------------------
    \9\ ``The US Military on the Front Lines of Rising Seas,'' 
Executive Summary (Union of Concerned Scientists, 2016), https://
www.ucsusa.org/sites/default/files/attach/2016/07/
front-lines-of-rising-seas-key-executive-summary.pdf.
    \10\ United States Department of Defense, ``Report on Effects of a 
Changing Climate to the Department of Defense,'' January 2019, https://
media.defense.gov/2019/Jan/29/2002084200/-1/-1/1/
CLIMATE-CHANGE-REPORT-2019.PDF.
    \11\ RJ Nicholls et al., ``Ranking Port Cities with High Exposure 
to Climate Extremes--Exposure Estimates,'' Environment Working Papers 
(Organisation for Economic Co-operation and Development. 2008.), http:/
/www.oecd.org/officialdocuments/publicdisplaydocumentpdf/
?cote=ENV/WKP(2007)1&doclanguage=en.
---------------------------------------------------------------------------
    The Department of Defense and our federal partners are the largest 
employers in the state \12\ and Virginia's percentage of gross domestic 
product derived from the federal presence in the state is 8.9% (the 
highest percentage of any state).\13\ Virginia also has the highest 
rate of defense personnel spending of any state, and is second only to 
California in defense contract spending and defense-related contract 
spending. The Hampton Roads region hosts federal facilities that are 
unique and not easily replicable in other locations, including our 
largest Naval Base, Naval Station Norfolk, as well as the only shipyard 
where we build aircraft carriers and one of only two places where we 
build nuclear-powered submarines--Newport News Shipbuilding, owned by 
Huntington Ingalls Industries. The City of Portsmouth is home to 
Norfolk Naval Shipyard, one of only four Navy-owned and operated 
nuclear repair shipyards in the United States, and very vulnerable to 
flooding. Joint Base Langley-Eustis, with Fort Eustis in the City of 
Newport News and Langley Air Force Base in the City of Hampton are also 
vulnerable. Langley AFB, which deals with rising water as a matter of 
routine, and has done considerable work to make its facilities 
resilient, has taken up much of the overflow from the impact to 
aviation training for the F-22 Strike Fighter from Tyndall Air Force 
Base after Hurricane Michael's impact on that facility last year.\14\
---------------------------------------------------------------------------
    \12\ ``Virginia Statewide Community Profile'' (Virginia Employment 
Commission, 2019). https://virginiawlmi.com/Portals/200/
Local%20Area%20Profiles/5101000000.pdf
    \13\ ``Defense Spending by State, FY 2017'' (US Department of 
Defense, Office of Economic Adjustment, March 2019).
    \14\ ``Tyndall AFB Personnel, F-22s Temporarily Relocate to Hawaii 
and Alaska,'' U.S. Indo-Pacific Command, accessed July 17, 2019, 
https://www.pacom.mil/Media/News/News-Article-View/
Article/1682655/tyndall-afb-personnel-f-22s-temporarily-relocate-to-
hawaii-and-alaska-bases/.
---------------------------------------------------------------------------
    The Eastern Shore of Virginia hosts NASA's Flight Facility at 
Wallops Island, which includes the Virginia Space and Mid Atlantic 
Regional Spaceport, NASA flight test facility, National Oceanographic 
and Atmospheric Administration and Federal Aviation Administration 
facilities, and the Navy's Surface Combat Systems Center Range. These 
facilities are unique. For example, the Navy Surface Combat Systems 
Center Range, the only such test range on the East Coast of the United 
States, supports the majority of new construction combat systems 
training for the Fleet.
    We also are home to the Port of Virginia, the third largest 
container port on the East Coast and sixth busiest port by container 
traffic volume in the United States. A multi-modal port with facilities 
located in Hampton Roads in the cities of Norfolk, Portsmouth and 
Newport News, and with barge service to the Port of Richmond and an 
Inland Port intermodal transfer facility in Front Royal, Virginia,\15\ 
the Port of Virginia is the only East Coast port with federal 
authorization to dredge to a 55 foot channel depth, and generates a 
total of $60 billion in economic activity for the Commonwealth.\16\ 
With a focus on sustainability, the Port of Virginia works to build 
resilience, aligned with the surrounding communities. Much like the 
regions' federal facilities, however, its future resilience is 
inextricably linked to that of the surrounding cities and other 
localities that support and provide its critical utilities, 
transportation, logistics, and supply chain infrastructure.
---------------------------------------------------------------------------
    \15\ ``NAFTA Region Container Traffic--2017 Port Rankings by 
TEU's'' (American Association of Port Authorities, 2017).
    \16\ ``About the Port of Virginia,'' accessed July 18, 2019, http:/
/www.portofvirginia.com/about/.
---------------------------------------------------------------------------
    Coastal Virginia's substantial tourism industry generates direct 
travel-related expenditures exceeding $5.2 billion in our Coastal 
region \17\. Virginia boasts wide beaches, access to a myriad of water 
sports and recreational activities, as well as natural tidal 
marshlands, unique barrier island structures, and we are a critical 
stopover on the North Atlantic migratory bird flyway, all incredible 
facilities and natural amenities, and all at extreme risk.
---------------------------------------------------------------------------
    \17\ ``The Economic Impact of Domestic Travel on Virginia Counties 
2017: A Study Prepared for Virginia Tourism Authority'' (U.S. Travel 
Association, August 2018), https://www.vatc.org/wp-
content/uploads/2018/08/2017-Economic-Impact-of-Domestic-Travel-on-
Virginia-and-Localities.pdf.
---------------------------------------------------------------------------
    Our substantial aquaculture and wild fishing industries generate 
over $1.4 billion in annual sales,\18\ including oysters, crabs, and 
the largest clam industry on the East Coast of the United States.\19\ 
These industries are vulnerable to both sea level rise and ocean 
acidification and warming. The infrastructure necessary for their 
success ties them to low-lying areas near the water--vulnerable to 
flooding--and accessibility to workplaces and docks is becoming a 
challenge during the more frequent high tide flooding that impacts road 
access, as well as activities on the waterfront. Ocean acidification 
and warming will affect the ability of some species to survive and 
reproduce in Coastal Virginia waters--in particular shellfish, 
endangering the wild-caught and grown seafood industry treasured by the 
Chesapeake Bay region.\20\ For Virginia, this may be only a matter of 
time as such impacts have already been observed in the Pacific 
Northwest region of the United States, costing that region over $110 
million dollars and putting 3,200 jobs at risk.\21\
---------------------------------------------------------------------------
    \18\ ``Fisheries Economics of the United States 2016'' (U.S. 
Department of Commerce, NOAA National Marine Fisheries Service, 2018), 
https://www.fisheries.noaa.gov/content/fisheries-economics-united-
states-2016.
    \19\ Thomas J. Murray and Karen Hudson, ``Economic Activity 
Associated with Shellfish Aquaculture in Virginia 2012,'' https://
www.vims.edu/research/units/centerspartners/map/
aquaculture/docs_aqua/MRR2013_4.pdf.
    \20\ ``Virginia Is Highly Vulnerable to Ocean Acidification'' 
(Natural Resources Defense Council adopted from Ekstrom et al., 2015, 
February 2015), https://www.nrdc.org/sites/default/files/state-
vulnerability-VA.pdf.
    \21\ ``New Study: Rapid Ocean Acidification Threatens Coastal 
Economies in 15 States,'' 2015. NRDC Press Release https://
www.nrdc.org/media/2015/150223.
---------------------------------------------------------------------------
    Finally, our waterfront property and housing stock is a challenge 
we share with many other coastal states. Within the next 30 years--the 
lifespan of a typical mortgage--as many as 311,000 coastal homes in the 
lower 48 states with a collective market value of about $117.5 billion 
in today's dollars will be at risk of chronic flooding (more than 26 
times a year or about every other week). By the end of the century, 2.4 
million homes and 107,000 commercial properties currently worth more 
than $1 trillion altogether could be at risk, with Virginia's coastal 
real estate significantly exposed. The expected Virginia homes at risk 
in 2045 currently contribute about $23 million in annual property tax 
revenue. The homes at risk by 2100 currently contribute roughly $342 
million collectively in annual property tax revenue.\22\ In an ongoing 
Comprehensive Sea Level Rise and Recurrent Flooding Study conducted by 
the City of Virginia Beach and Dewberry, the annualized losses today in 
that City alone result in residential damages of $26 million annually 
due to coastal flooding events. If no action is taken, with 1.5 feet of 
additional sea level rise, expected within 20-30 years, that number 
increases to $77 million annually, and with 3 feet of additional sea 
level rise, forecast within 60-70 years, to $329 million annually, a 
12-fold + increase.\23\
---------------------------------------------------------------------------
    \22\ ``Underwater: Rising Seas, Chronic Floods, and the 
Implications for US Coastal Real Estate'' (Union of Concerned 
Scientists, June 2018), https://www.ucsusa.org/global-warming/global-
warming-impacts/sea-level-rise-chronic-floods-and-us-coastal-real-
estate-implications.
    \23\ CJ Bodnar, ``Comprehensive Sea Level Rise and Recurrent Flood 
Study'' (Dewberry and City of Virginia Beach, May 2019), https://
www.vbgov.com/government/departments/public-works/
comp-sea-level-rise/Documents/slr-update-ccouncil-5-7-19.pdf.
---------------------------------------------------------------------------
    In terms of real estate value, research reported in the Journal of 
Financial Economics shows homes exposed to sea level rise are selling 
for approximately 7% less than equivalent properties that are unexposed 
to sea level rise and equidistant from the beach. Broken down in more 
detail, homes that may be inundated with one foot of sea level rise, 
trade at a 14.7% discount, and properties expected to be inundated 
after 2-3 feet of sea level rise, at a 13.8% discount.\24\ This places 
Coastal cities and other localities under pressure to determine 
solutions to not only reduce the risk to these vulnerable properties, 
but to reduce the risk to their property tax base, without which they 
cannot remain viable. Yet coastal communities face challenges from 
another perspective, as the Credit Ratings agencies have begun to take 
notice of the risks carried by localities exposed to rising waters. The 
credit rating agencies are asking for detailed plans about localities' 
strategies to adapt and mitigate the risk as a criterion for retaining 
their credit and bond rating. The paradox is that some localities find 
themselves unable to issue any more debt to take action to better 
protect themselves and build their resilience because of the risk to 
their credit rating, as evaluated by the same ratings agencies that 
demand to know what they are doing to reduce the risk and vulnerability 
to their resilience, in order to retain their good credit. This is a 
problem today, and without adequate coastal analysis and protection, it 
will grow worse.
---------------------------------------------------------------------------
    \24\ A Bernstein, M Gustafson, and R Lewis, ``Disaster on the 
Horizon: The Price Effect of Sea Level Rise,'' Journal of Financial 
Economics, 2018.
---------------------------------------------------------------------------
    There are health risks too. Combined sewer systems exist in about 
860 US Cities, with three of them in Virginia (Alexandria, Richmond and 
Lynchburg).\25\ Combined Sewer Overflow events (CSO), pose a 
significant threat to public health and the environment--a threat that 
will only increase because of climate change. An EPA study found that 
climate change could lead to a 12 to 50 percent increase in storm 
events that lead to combined sewer overflow events \26\, with 70 such 
events releasing a combined one billion gallons of sewage occurring 
nationwide between January 2015 and September 2016.\27\ Additionally, 
sea level rise is a threat to coastal localities with outflow pipes 
that may be inundated in the future, (and some are already) preventing 
discharge without costly pumping systems, and introducing seawater that 
could damage the mechanical and biological integrity of wastewater 
treatment facilities.\28\
---------------------------------------------------------------------------
    \25\ A Kenward et al., ``Overflow: Climate Change, Heavy Rain, and 
Sewage,'' States at Risk (Climate Central, September 2016), file:///C:/
Users/dea29868/Downloads/Overflow_sewagereport_update.pdf.
    \26\ ``A Screening Assessment of the Potential Impacts of Climate 
Change on Combined Sewer Overflow (CSO) Mitigation in The Great Lakes 
and New England Regions (Final Report).'' (Washington, DC: U.S. 
Environmental Protection Agency, 2008).
    \27\ Kenward et al., ``Overflow: Climate Change, Heavy Rain, and 
Sewage.''
    \28\ Ben Bovarnick, Shiva Polefka, and Arpita Bhattacharyya, 
``Rising Waters, Rising Threat: How Climate Change Endangers America's 
Neglected Wastewater Infrastructure'' (Center for American Progress, 
October 2014), https://cdn.americanprogress.org/wp-content/uploads/
2014/
10/wastewater-report.pdf.
---------------------------------------------------------------------------
    Further, increased flooding is also a threat to septic systems in 
rural areas, a tremendous and growing problem in much of rural Coastal 
Virginia, and in fact, in many Coastal states. Inundated leach fields 
cause Septic systems to fail, releasing contaminated water into the 
ground or surface water. Failing septic systems, as well as the absence 
of either septic or sewer systems, cause significant public health and 
water quality risks for rural communities throughout Virginia.\29\ The 
risk of septic system failure is increasing as sea level rises and 
flooding occurs more frequently, creating a unique challenge for the 
many rural homeowners and localities who lack the resources and 
capacity to rehabilitate or replace their systems, or install expensive 
sewage treatment facilities.
---------------------------------------------------------------------------
    \29\ Jamie Huffman, Sarah Simonettic, and Scott Herbest, ``Onsite 
Sewage Systems: Background, Framework, and Solutions'' (Virginia 
Coastal policy center, Fall 2018).
---------------------------------------------------------------------------
                       Virginia Is Taking Action
    Under Governor Ralph Northam, Virginia is taking bold and 
substantive action to identify risk and develop a strategic vision and 
actionable steps to prepare our coast. He intends to build capacity for 
Virginia as we set standards and define how we as a coastal state will 
approach this existential threat, and has taken a series of executive 
actions, through Executive Order 24, Increasing Virginia's Resilience 
to Sea Level Rise and Natural Hazards, signed November 2nd, 2018. With 
this Order, Virginia is directed to determine the vulnerability of and 
set standards for future built infrastructure throughout the 
Commonwealth, to make Commonwealth holdings more resilient. We have 
established and implemented a series of sea level rise scenario 
planning curves, to ensure the resilience of state-owned infrastructure 
and as recommendations for local governments and regions to use in 
planning and preparations for the future. We have also established a 
series of recommendations for first finished floor elevation for future 
constructed state-owned buildings that may be located in floodplains. 
And we have incorporated substantive changes to our National Flood 
Plain Program oversight and implementation structure, all as directed 
by Executive Order 45, signed November 14th, 2019 by Governor Northam.
    Executive Order 24 also directs development of a Virginia Coastal 
Protection Master Plan to adapt and protect our coastal region. This 
plan will build on and align those actions which our localities and 
regions have already taken to prepare themselves for their future, and 
will lay out a series of recommended actions and strategies for our 
state to develop and prioritize how it will adapt and protect our 
valuable and vulnerable coastline. In this context we view it as 
essential to work with our federal partners, in particular the Corps, 
as we move forward to better prepare our state, regions, localities, 
and communities, to build trust, and demonstrate value. Finally, 
Executive Order 24 will serve to coordinate, collaborate, and 
communicate across state entities, across and with federal entities, 
and across our Coastal regions, communities, and localities to ensure 
coordinated objectives, and the best use of scarce funding dollars.
    Virginia has identified four key areas of focus. First, the use of 
natural and nature-based solutions where feasible, as the first line of 
defense and to protect vulnerable built assets while also protecting 
sensitive coastal environments. Second, we are focused on collaborative 
efforts at every level, working with and across localities to expand 
the capacity of their dollars, of state dollars, and where possible, of 
federal dollars. Third, we are committed to ensure environmental 
justice, as underserved communities often bear the most substantial 
brunt of flooding challenges, and yet have the least capacity to plan, 
apply for grant dollars, determine or meet federal and state match 
requirements, and to sort out solutions to fund and implement actions 
to keep their communities and their histories viable into the future. 
Executive Order 29, establishes the Virginia Council on Environmental 
Justice, specifically to help address these issues and challenges.\30\ 
Finally, we will facilitate the adoption of resilience practices across 
federal, state, and local agencies and processes.
---------------------------------------------------------------------------
    \30\ ``Commonwealth of Virginia Executive Order 29'' (Office of the 
Governor, January 22, 2019), https://www.governor.virginia.gov/media/
governorvirginiagov/executive-actions/EO-29-
Establishment-Of-The-Virginia-Council-On-Environmental-Justice.pdf.
---------------------------------------------------------------------------
       How This Committee Can Help/Recommendations for Congress:
    The Commonwealth of Virginia works closely with the US Army Corps 
of Engineers across a number of programs, including the Feasibility 
Study 3x3x3 process and Continuing Authorities programs.\31\ Both 
processes allow Army Corps Districts to work with local governments to 
study the needs of communities dealing with rising waters and storm 
surge. Related to recommendations from the 2015 North Atlantic Coast 
Comprehensive Survey--completed by USACE North Atlantic Division--the 
City of Norfolk and USACE Norfolk District completed a Feasibility 
study in February of 2019 and have proceeded to the preliminary 
engineering design phase.\32\ The second recommended study area, 
Potomac River shoreline in Northern Virginia, has just started a 
Coastal Storm Risk Management Study (July 15 , 2019) under the auspices 
of the Baltimore District, USACE, with the Metropolitan Washington 
Council of Governments as the non-federal sponsor, and the Commonwealth 
of Virginia as one of several cost share partners.\33\
---------------------------------------------------------------------------
    \31\ ``The Corps Feasibility Study--Finding a Balanced Solution,'' 
Headquarters, accessed September 16, 2019, https://www.usace.army.mil/
Media/News-Archive/Story-Article-View/
Article/643197/the-corps-feasibility-study-finding-a-balanced-
solution/.
    \32\ ``North Atlantic Coast Comprehensive Study: Resilient 
Adaptation to Increasing Risk,'' Study (United States Army Corps of 
Engineers, 2015), https://www.nad.usace.army.mil/CompStudy/.
    \33\ ``Northern Virginia Coastal Study,'' accessed September 16, 
2019, https://www.nab.usace.army.mil/DC_Coastal_Study/.
---------------------------------------------------------------------------
  Support and Appropriate Funds for a Full Coastal Study in Virginia:
    In 2018, the Water Resources Development Act authorized a Full 
Coastal Study for Virginia, to include flood risk management, ecosystem 
restoration and navigation. This gives the Commonwealth the flexibility 
to include more than one city or municipality in the study area, 
critical to a region such as Hampton Roads, where multiple cities, 
localities, and federal facilities exist in close proximity.\34\
---------------------------------------------------------------------------
    \34\ ``Water Resources Development Act of 2018,'' Pub. L. No. H.R. 
8, Sec.  201 (9) (2018), https://www.congress.gov/bill/115th-congress/
house-bill/8/text.
---------------------------------------------------------------------------
    With this full coastal authorization, Virginia and the Corps should 
be able to conduct a detailed analysis of the risks and impact to 
Coastal Virginia, including our eight Coastal Planning Districts and 
Regional Commissions, from the ocean to the full extent of tidal 
influence--as well as our critical national security and port 
infrastructure, our valuable tourism, aquaculture industries, and our 
beautiful natural resources and natural coastlines. However, in working 
at the District Level, we have been told the Corps has no interest in 
conducting a full coastal study for Virginia, as we will never meet the 
benefit/cost analysis requirements, and that this authorization will 
simply serve to allow more than one locality to participate in USACE-
led studies. When considering the economic impact of our Coastal 
Region, as described earlier in this testimony, we find it hard to 
understand this logic. As we work to develop our own Coastal Master 
Plan to protect and adapt Coastal Virginia, the top priority is to 
conduct a full coastal analysis, to gain a detailed and multi-layered 
understanding of that infrastructure that is critical and vulnerable, 
so that we can identify and prioritize impact, solutions, and costs. 
This will be true for every Coastal State, and the longer we wait, the 
less prepared we, as a nation, will be for this threat.
 Include DOD properties and Federal infrastructure in studies--this is 
                         essential for Virginia
    The challenge for any USACE civil works study is that such studies 
do not include Federal property, as dictated by restrictions to funding 
appropriations sources, and so require additional coordination between 
USACE, DOD, State and local participants to align appropriated funding. 
As an example, the Norfolk CSRM study only includes the City of 
Norfolk, and did not include a similar level of effort or the impacts 
to or outcomes of storm surge and recurrent flooding for Naval Station 
Norfolk or Naval Support Activity Hampton Roads. Both facilities have 
extensive territory within their fence line in the Coastal, 100 year 
and 500 year flood plains, with watersheds that extend into the City of 
Norfolk--by excluding them, the study is incomplete. Further, by only 
doing one city and not considering regional watershed impacts broadly, 
the study is further incomplete. This in no way lessens the need for 
outcomes defined within the Norfolk Flood Control Feasibility Study, in 
fact, it drives home the need for a broader and more thorough full 
Coastal Study of Virginia by the Corps, one that engages both the civil 
works and military construction sides of USACE.
          Beach Renourishment May Not be a Long Term Solution.
    NASA's Wallops Island Flight Test Facility is also entirely in the 
Coastal Flood Plain and with billions of dollars in critical national 
infrastructure at risk. The current plan for protecting Wallops Island 
is ineffective as a long-term strategy, relying on beach renourishment 
every five years at a cost exceeding $50 million, and with limited 
consideration for sea level rise impacts.\35\ \36\ USACE is the 
contracting authority in support of the current NASA Wallops Beach 
renourishment project, which has State permitted approval, and this 
pending renourishment should be effective short term. However, current 
sea level rise projections show an additional 3 to 4.5 feet of sea 
level rise over the next 60 years for the area, which further 
reinforces the need for studying long term impacts, as a part of a full 
Coastal Study, to better understand potential damaging side effects 
from renourishment, and to determine options and strategies to adapt 
and protect this critical and important facility.
---------------------------------------------------------------------------
    \35\ ``NASA Wallops Island Shoreline Stabilization Project,'' 
accessed November 12, 2019, https://www.nao.usace.army.mil/About/
Projects/NASAWallopsShoreline.aspx.
    \36\ ``PEIS WALLOPS FLIGHT FACILITY SHORELINE RESTORATION AND 
INFRASTRUCTURE PROTECTION PROGRAM,'' Environmental Impact Statement 
(Wallops Island, VA: NASA, October 2010), https://code200-
external.gsfc.nasa.gov/sites/code250-wffe/files/
documents/SRIPP_Final_PEIS_Volume_I.pdf.
---------------------------------------------------------------------------
    This demonstrates the problem with benefit-cost analysis in the 
short term, versus understanding the longer-term climate impact--and 
costing more in the end to taxpayers. Again, the longer we delay in 
determining and considering broader outcomes, the fewer options remain, 
and the more costly they become. We recommend that the Committee 
consider changes to the USACE benefit-cost formula to ensure that non-
structural and long-term climate adaptation solutions pass muster.
    In addition, in a recent letter, Department of the Interior 
Secretary David Bernhardt wrote to Congressman Van Drew (NJ) announcing 
the Trump administration would change a 25-year-old policy to make it 
easier for coastal communities to take sand from protected ecosystems 
to improve or renourish beaches. Destroying protected ecosystems in 
favor of short-term flood abatement is not in the long-term interest of 
Virginia or the United States. We recommend the committee reverse this 
rule change in the next Water Resources Development Act.
                    Federal Agency Funding Alignment
    While USACE can work for DoD and other Federal agencies, they must 
be funded with DOD or other agencies' appropriations for such work, 
which does not often happen because of a lack of coordination. In a 
region like Hampton Roads, or on the Eastern Shore at NASA's Wallops 
Island Flight Test Facility--both with billions of dollars if critical 
national infrastructure at risk, the failure to include Federal 
facilities in Coastal Storm and Environmental planning by the Corps is 
a grave oversight.
    Finally, language in the draft 2020 NDAA directs DOD to fund US 
Army Engineering Research and Development Center (ERDC) to undertake a 
national study of water related risks and vulnerabilities to military 
installation resilience, along with an assessment of ongoing or planned 
projects by the Corps of Engineers that may adapt such risks. This will 
help mitigate this challenge, but meanwhile, the gap in federal 
resilience planning alignment with the USACE Feasibility Study and 
larger study process continues, placing communities and military 
facilities at risk.
  Prioritize and Organize USACE Missions, Flood Control Projects and 
                                Studies
    Within the three primary missions of the USACE Civil Works 
Division, Navigation, Environmental Restoration and Flood Control, 
often work against each other, as navigation projects are a nearer term 
priority, often overshadowing costlier and longer-term flood control 
requirements. This results in navigation projects receiving funding at 
the expense of flood control, which further delays critical flood and 
water infrastructure projects. This Committee should consider the 
creation of some type of ``firewall'' or funding limit that considers 
navigation projects separately, and only evaluates them against other 
navigation projects so that flood control projects can be prioritized 
with dedicated funding. The USACE also needs to find a comprehensive 
way to evaluate whether navigation projects may be adversely impacting 
flooding or environmental restoration. The National Environmental 
Policy Act and Clean Water Act provide some protections, and those must 
be maintained or strengthened.
        Evaluate and Reduce USACE Flood Control Project Backlog
    The U.S. Army Corps of Engineers (USACE) has a $96 billion backlog 
of authorized but unconstructed projects, while annual appropriations 
for the USACE Construction account under Energy and Water Development 
appropriations bills have averaged $2 billion in recent years. Congress 
has also limited the number of new studies and construction projects 
initiated with annual discretionary appropriations, with a limit of 
five new construction starts using FY2019 appropriations.\37\ Since 
only a few construction projects are typically started each fiscal 
year, numerous projects that have been authorized by previous 
Congresses remain unfunded and backlogged. This problem has worsened in 
recent decades as Congress has authorized construction of new projects 
at a rate that exceeds USACE's annual construction appropriations. This 
drives competition for funds among authorized activities during the 
budget development and appropriations process, and only a few projects 
make it into the President's budget each year. Non-federal entities 
involved in USACE projects are frustrated with the extreme effort it 
takes to fund the projects their localities need, and again, those 
processes do not include federal bases that are within or adjacent to 
community boundaries.
---------------------------------------------------------------------------
    \37\ ``Army Corps of Engineers Annual and Supplemental 
Appropriations: Issues for Congress'' (Congressional Research Service, 
October 2018), https://crsreports.congress.gov/product/pdf/R/R45326.
---------------------------------------------------------------------------
    The Corps must evaluate the complete list of back-logged projects 
for currency recommend to Congress which projects are not addressing 
current or future flooding needs, or are otherwise unnecessary, or do 
not address resilience, pre-disaster mitigation, or infrastructure and 
flood plain actions. Further, the Corps must assist states in the 
prioritization and aggregation of flood control projects so to 
streamline the most effective projects and reduce projects and studies 
that overlap or leave gaps in coverage along jurisdictional lines. 
Congress must instruct The Corps to prioritize projects that provide 
the greatest flood risk reduction and assist regions with the greatest 
economic needs, as well as prioritizing projects that are part of 
regional comprehensive plans.
 Develop and Promulgate Guidance for States and Localities/Include and 
               Validate Commercial and Academic Analysis
    The Corps should develop guidance on addressing Sea Level Rise and 
pre-disaster mitigation. As an example, the Naval Facilities and 
Engineering Command released an excellent Climate Change Planning 
Handbook: Installation Adaptation and Resilience planning guide in 
January 2017, but with little follow-up on how and when facilities 
should use it. This document could be a key tool in federal facility 
resilience planning, and the Corps could either adopt it, or 
incorporate it in their guidance to States and localities.\38\ As the 
Corps begins new Feasibility Studies, Congress should ensure the Corps 
will accept and validate commercial and academic study work as the 
basis for, or in place of, a feasibility study (for example, Virginia 
Beach's own Back Bay study and storm water study discussed earlier). We 
simply cannot delay any longer, the costs and risk are too great.
---------------------------------------------------------------------------
    \38\ ``Climate Change Planning Handbook Installation Adaptation and 
Resilience,'' Final Report (Naval Facilities Engineering Command 
Headquarters, January 2017), https://www.fedcenter.gov/Documents/
index.cfm?id=31041.
---------------------------------------------------------------------------
   Emphasize Green Infrastructure, and Develop Expanded Benefit/Cost 
 Analysis that Quantifies Green Infrastructure and Natural and Nature-
based Feature (NNBF) Benefits, and the needs of Underserved Communities
    The Corps must move from a grey infrastructure/hardscape focus to 
one that emphasizes green infrastructure and natural and nature-based 
features wherever feasible. While ERDC has plenty of capacity to 
address such infrastructure through its Engineering with Green 
Infrastructure Initiative, its work is rarely considered in the Coastal 
Storm Risk Management process.\39\
---------------------------------------------------------------------------
    \39\ ``EWN, Dr. Todd Bridges, Bio,'' 3, accessed November 12, 2019, 
https://ewn.el.erdc.dren.mil/bios/bio_bridges_todd.html.
---------------------------------------------------------------------------
    Green infrastructure and NNBF's buy time, and in many 
circumstances, are more effective, and more cost-effective through 
reducing the amount of water overall, and by absorbing, capturing and 
slowing down run-off and floodwaters while providing ecosystem services 
and co-benefits. This is particularly valuable in the context of 
providing services to underserved communities, and ensuring 
environmental equity across communities. In summary, we need a 
fundamental reconsideration of BCA, including strong environmental 
review, quantification of green and NNBF infrastructure benefits, and 
consideration of environmental equity, given what we now know about 
costs and the longer term nature of climate change as a threat.
                               Conclusion
    Virginia values its relationship with the US Army Corps of 
Engineers and their ongoing work with State agencies and localities. 
Virginia wants and needs a Full Coastal Study, and looks forward to 
working with USACE to plan, fund and implement our authorization.
    There is an urgent need to align Corps planning standards, 
Feasibility Study, and benefit-cost analysis processes to better serve 
coastal States and their communities dealing with rising waters and 
recurrent flooding.
    Federal facilities must be included in the Feasibility Study 
process, and guidance from the Corps on quantifying green 
infrastructure and natural and nature-based features, along with 
reducing and prioritizing the flood control project backlog, will 
expedite opportunities to reduce flood risk in communities across the 
nation. Rising waters and recurrent flooding know no political 
boundaries; they know no boundaries of wealth or race; they know no 
boundaries of society. Coastal communities and their Federal partners 
across Virginia and around the country are being impacted today.
    This Committee can help by recognizing the need to align Corps 
responsibilities with sea level rise, recurrent flooding and coastal 
resilience as one of the country's greatest and most immediate needs.
    Virginia is committed to building capacity for our coastal 
communities to prepare for and build resilience to this threat, and as 
one of many impacted coastal and riverine states, we need the support 
of a coordinated federal response to make this happen.
    We have no time to waste because ``Time and Tide wait for no man.'' 
(The words of Geoffrey Chaucer)
    Thank you again for the opportunity to offer this testimony, and I 
look forward to your questions.

    Mrs. Napolitano. Thank you very much, Ms. Phillips.
    Mr. Pineda, you are recognized.
    Mr. Pineda. Chair Napolitano and Ranking Member Westerman 
and Chairman DeFazio and members of the full committee, thank 
you for the opportunity to testify today in my role as chair of 
the Association of State Floodplain Managers. You have my bio, 
but I will point out that I have been working as a civil 
engineer focusing on water resources for over 39 years and in 
flood plain management since 2000. My comments will focus on 
the following four areas: strategic direction, levee and dam 
risk management, Public Law 84-99, and water resources 
principles and guidelines.
    Under strategic direction, ASFPM recommends developing a 
significantly more robust, non-project-related technical 
assistance role for the Corps at the district level, either 
through the Floodplain Management Services program or Planning 
Assistance to States or a new authority. The FPMS and PAS 
programs could serve to substantially expand the Corps' 
contribution to enhancing water resources resiliency and 
sustainability and should be authorized and funded to at least 
$50 million annually. The Corps Silver Jackets program is 
successful, but additional technical assistance not tied to a 
specific project is needed at the local level. This is 
especially true for disadvantaged and impoverished communities.
    Through the Corps' Tribal nations program, additional 
technical assistance and expertise should be provided to our 
Tribal nations to assist in finding ways to help them improve 
their water resources infrastructure.
    Congress should set policy on decisionmaking that will 
result in natural infrastructure being a preferred alternative 
due to its multipurpose multibenefits. The Corps should 
continue to fully support the implementation of the Engineering 
With Nature initiative throughout the agency. The Corps 
supports the ASFPM-administered National Flood Barrier Testing 
Program. The Corps' nationally recognized Engineer Research and 
Development Center needs to be modernized to meet the testing 
needs for a growing number of private sector developed flood 
barriers. The Corps is reimbursed for the cost of testing these 
products.
    Through the Corps feasibility study planning process, the 
use of nonstructural flood risk reduction measures needs 
enhanced consideration. The Corps National Nonstructural 
Floodproofing Committee has done excellent work for many years 
and needs continued headquarters support to incorporate 
nonstructural measures into selected plans.
    Due to the major flood events of 2011 and three major flood 
events on the lower Missouri River system in 2019, the Corps 
needs authority and funding to study the Missouri River flood 
management system as an integrated system, including reservoir 
operations, levees and land use. Under levee and dam risk 
management, Congress and the Corps should adopt policies for 
new levees or the reconstruction of levees that encourage 
levees be set back from the water's edge to preserve riparian 
areas, reduce erosion and scour, reduce flood levels and 
flooding risk, recharge groundwater and allow natural flood 
plain ecosystems to better serve their natural functions.
    ASFPM recommends full implementation of the National Levee 
Safety Program. ASFPM recommends the Corps activate the new 
National Levee Safety Committee composed of Federal agencies, 
State and local stakeholders, professional associations, and 
experts, as directed in WRRDA 2014 to develop consistent 
guidance for levee siting, design, construction and operations 
and maintenance standards.
    Under Public Law 84-99, conform the Public Law 84-99 
program cost sharing with other flood damage reduction programs 
to reduce Federal disaster costs, reduce risks and support 
greater use of comprehensive flood risk management and 
nonstructural approaches. For every project, explicitly require 
consideration of realigning or setting back levee segments and 
integrating setback levees to the fullest extent possible.
    Under revisions of water resources principles and 
guidelines, ASFPM recommends that in developing implementation 
guidance for principles, requirements, and guidelines, agencies 
must require full accounting of ongoing long-term operations, 
maintenance, repair, rehabilitation and replacement costs be 
included in benefit-cost analyses for all structural and 
nonstructural projects. ASFPM recommends that the Corps and 
other agencies develop and transform Federal planning 
principles to a national economic resilience and sustainability 
standard.
    Thank you for the opportunity to testify and I would be 
happy to answer questions at the appropriate time.
    [Mr. Pineda's prepared statement follows:]

                                 <F-dash>
     Prepared Statement of Ricardo S. Pineda, P.E., C.F.M., Chair, 
 Association of State Floodplain Managers, Supervising Water Resources 
 Engineer, California Department of Water Resources, Division of Flood 
 Management, on behalf of the Association of State Floodplain Managers
                              Introduction
    The Association of State Floodplain Managers (ASFPM) appreciates 
the opportunity to share our views and ideas for potential improvements 
in programs of the U.S. Army Corps of Engineers (Corps) that would help 
increase the resiliency and long-term health and productivity of our 
nation's water resources infrastructure as the Committee prepares to 
develop a 2020 Water Resources Development Act (WRDA).
    The 19,000 members of ASFPM and our Chapters are partners of the 
Corps, Federal Emergency Management Agency (FEMA) and many other 
federal agencies along with those at the state and local levels in 
reducing loss of life and property due to flooding. Our 37 state 
chapters are active within their states and nationally as well. State 
and local floodplain managers and their private sector engineering and 
floodplain management colleagues interact regularly with the Corps at 
the Headquarters and District levels in developing and implementing 
solutions to flooding challenges.
    Recent experience continues to demonstrate that the increasing 
variability and frequency of intense weather events and conditions, 
along with intensifying watershed development and aging water 
infrastructure underscore the need for new thinking and approaches to 
reduce vulnerabilities and increase resilience. 2019 is the fifth 
consecutive year (2015-2019) in which 10 or more billion-dollar weather 
and climate disaster events have impacted the United States, according 
to the National Climatic Data Center of NOAA. The NCDC identifies some 
254 such events having occurred since 1980 with a cost of more than 
$1.7 trillion. Floods are--and continue to be--the nation's most 
frequent and costliest disasters and the costs to taxpayers continue to 
increase. While the Corps has often successfully engineered structural 
means of controlling flood waters, it is becoming more and more 
apparent that 1) operation and maintenance costs are exceeding the 
ability of communities and local sponsors to pay those costs, which is 
their obligation; 2) structural projects, while necessary in some 
instances, are expensive; 3) traditional projects can inadvertently 
increase flood hazards upstream, downstream and across the river; and 
4) nonstructural projects can often offer a less expensive, more 
sustainable and affordable means of reducing flood hazards and costs.
    To meet today's challenges of riverine and coastal flooding in an 
era of more frequent and severe storms, sea level rise, and 
skyrocketing disaster costs, it is important that the Corps take a 
broad, comprehensive and watershed-based view of overall flood risk 
management. To encourage enhanced effectiveness in addressing cost 
considerations, the need to protect lives and property, and recognize 
the multiple beneficial functions of the natural floodplain, ASFPM 
would like to address several areas where improvement is needed. We 
will address:

    <bullet>  Strategic Direction
    <bullet>  Flood Risk Management
    <bullet>  Levee and Dam Risk Management
    <bullet>  Public Law 84-99 program
    <bullet>  Principles and Guidelines
                          Strategic Direction
        ``The current trajectory of funding water resources projects is 
        not sustainable.''

    This was the take-home message at the 2012 USACE Strategic 
Leadership Conference attended by ASFPM as well as several other Corps 
partners. In remarks made by senior Corps leadership--with which ASFPM 
is in agreement--when you look long term, the Corps must change how it 
is doing business. An increased focus on collaboration and problem 
solving with partners will be necessary as will making smarter, 
strategic investments in infrastructure. Given the increasing cost of 
operations and maintenance, funding for new starts and other projects 
is being proportionately reduced. Simply put, as a nation, we cannot 
afford to keep doing business as we have in the past. More frequent and 
intense disasters are making current approaches too costly or rendering 
them ineffective.
    A more recent troubling trend is that more and more project funding 
is coming by way of supplemental appropriations after disasters. 
According to the Congressional Research Service (CRS) from FY 2005-FY 
2018 Congress spent nearly twice as much ($44 billion) on recovery from 
flooding and other natural disasters as from regular annual 
appropriations for flood-related activities ($23 b). Such a piecemeal 
approach is nearly impossible to plan for and creates a lot of 
frustration at the state and local level.
    The Corps is uniquely positioned, with Congressional guidance and 
support, to help transform itself and take a different, much more 
collaborative approach. Rare among agencies, the Corps allocates 
significant resources for research and development through entities 
like the Institute for Water Resources, and has a long history of 
expertise in all aspects of flood-loss reduction--both structural and 
nonstructural. Centers of expertise such as the USACE National 
Nonstructural Floodproofing Committee focus on measures to reduce the 
consequences of flooding versus reducing the probability of flooding. 
The successful Silver Jackets program, which is underway or forming in 
virtually all the states, is putting the Corps into a new ``convener'' 
role. Initiatives like Engineering with Nature and the USACE 
partnership with ASFPM in the National Flood Barrier Testing and 
Certification Program are forging new paths, leveraging new 
technologies and approaches to tackle long-standing flood problems.
Technical Assistance
    Technical assistance should be seen as a cornerstone of Corps 
operations and activities. A significantly enhanced role of technical 
assistance and broad-based problem solving/planning for watershed wide 
and nonstructural solutions would more effectively deliver federal 
expertise to the local and state level. However, it is still nearly 
impossible to leverage Corps expertise on more than an ad-hoc basis, 
and not associated with a particular Corps project. While Silver 
Jackets has somewhat helped this at the state level, it is a sad 
reality that Corps expertise is rarely available at the local level 
unless there is an active project. Other federal agencies dealing with 
flooding issues such as FEMA, NRCS, and the USGS have staff available 
through their disaster cadres, capacity building programs at the state 
level, national call centers, or distributed staff throughout the U.S. 
Each is a different model for providing federal resources at the local 
level. Given that the Corps has 38 districts which contribute to the 
Civil works mission, the basic infrastructure exists to provide a much 
better technical assistance role than it currently provides. By having 
a more robust technical-assistance role at the district level that is 
not project related, the research, expertise and knowledge of the Corps 
could be made much more widely available to help locals and states 
accomplish their role of flood loss reduction.
    The Floodplain Management Services (FPMS) program (authorized as a 
continuing authority under Section 206 of the 1960 Flood Control Act) 
theoretically addresses this need and has provided valuable and timely 
services in identification of flood risks and flood damage. The program 
enables the Corps to support state, regional and local priorities in 
addressing flood risks through collaboration and cooperation by 
developing location-specific flood data, which can be used to reduce 
overall flood risks. Like FPMS, the Planning Assistance to States (PAS) 
program was also authorized to provide valuable and timely services in 
identification of flood risks and flood damage. This program also 
allows for any effort or service pertaining to the planning for water 
and related resources of a drainage basin or larger region of a state, 
for which the Corps of Engineers has expertise.
    ASFPM believes that programs such as FPMS, PAS, and Silver 
Jackets--that are designed to provide engineering and scientific 
assistance to communities and states on a collaborative basis--are a 
critical key to fostering and developing local and state resilience 
planning capacity that should be a key goal for Corps transformation in 
the area of flood damage reduction and floodplain management into the 
21st Century. These programs have been shown to provide significant 
benefits for a relatively small investment. By providing Corps 
expertise, these programs assist states and communities to make better 
informed decisions and to engage in more comprehensive consideration of 
their flood risk so they can implement the various options they have 
for reducing the hazard. These approaches and options can be 
structural, nonstructural, or a combination of the two and can often 
lead to less expensive and more resilient and sustainable solutions.
    However, FPMS and PAS must be better managed as national programs. 
While our data is anecdotal, it appears that these two programs are not 
evenly nor consistently administered throughout the country. Certain 
Corps Districts have high expertise and capability with these programs 
and work on them vigorously and others do not. We know through our work 
with the Corps that there do not seem to be mechanisms or processes to 
comprehensively identify, collect, review and prioritize requests for 
FPMS/PAS services, review projects completed, and adjust program 
metrics in any consistent manner. ASFPM believes the demand for these 
programs significantly exceed available resources, but the funding does 
not always get to the districts who have activities that will expend 
the funds and help communities and states. All Corps Districts should 
have the level of capability as do those that regularly use FPMS and 
PAS. Another issue is that the Corps tends to ``projectize'' these 
services (meaning they cannot proceed unless they have a project to 
charge their time) versus making the technical assistance more broadly 
and widely available. A special focus in the next WRDA should be to 
make such technical assistance more readily available to help 
disadvantaged and impoverished communities plan for reducing flood 
risk, increasing flood resiliency, and improving flood risk management.
    Technical assistance is especially important after flood disasters. 
Given the current structure and focus of the Corps--most post-disaster 
work has been focused on immediate response missions related to 
infrastructure and public works and flood response activities (flood 
fighting) and repair/rehabilitation work. However, given the Corps 
expertise and assets, they can also be brought to bear in providing 
technical assistance and problem-solving expertise. For example, post-
Sandy, many of the affected areas had a critical need to understand the 
range of different nonstructural flood mitigation options available to 
them, however, this has been done only haphazardly in the past.

    <bullet>  Develop a significantly more robust and ongoing non-
project related technical-assistance role for the Corps at the district 
level, either through FPMS or a new authority. The FPMS and PAS 
programs could serve to substantially expand the Corps' contribution to 
enhancing water resources resilience and sustainability, and should be 
authorized and funded at least at $50 million annually.

    The Corps can play a lead role in a model where the federal 
government provides incentives to undertake sustainable solutions, 
where it provides the technical know-how and expertise to solve a 
flooding problem, or where it provides data and information to enable 
states and communities to make better decisions. This is also where the 
locals and states could proceed using funds outside of federal taxpayer 
funds. A number of states have their own mitigation grant programs, and 
working collaboratively with USACE expertise to fit actions within a 
comprehensive watershed and resilient manner could greatly benefit 
flood loss reduction in the nation.
Research & Development
    The Research and Development function of the Corps has several 
promising initiatives and programs, but as we have seen with other R&D 
initiatives across the federal government, the difficulty lies in 
widespread implementation of these initiatives into an agency's 
operations.
    The first of these is the Engineering with Nature (EWN) initiative 
that is the intentional alignment of natural and engineering processes 
to efficiently and sustainably deliver economic, environmental and 
social benefits through collaboration. It incorporates the use of 
natural processes to maximize project benefits. ASFPM is very 
supportive of this initiative and is encouraged by its results and 
implementation strategy. The 2018-2022 EWN strategic plan properly 
focuses on expanding implementation. However, given the traction we 
have seen with other Corps initiatives such as the nonstructural flood 
mitigation, we are concerned about its ultimate success.

    <bullet>  Congress should set policy on decision making that will 
result in natural infrastructure being a preferred alternative due to 
its multi-benefits, working with natural processes approach.
    <bullet>  he Corps should commit to fully supporting the 
operationalization of the EWN initiative throughout the agency.

    The second of these is the National Flood Barrier Testing and 
Certification Program (NFBTCP). A partnership among ASFPM, FM Approvals 
and the Corps (through the Engineer Research and Development Center 
(ERDC)), the NFBTC Program is a unique public-private partnership, 
which resulted in the development of the ANSI 2510 standard and where 
commercial flood abatement products (i.e., perimeter flood barriers and 
flood mitigation pumps) are tested against that standard. The purpose 
of this program is to provide an unbiased process of evaluating 
products in terms of resistance to water forces, material properties 
and consistency of product manufacturing to specify use of appropriate 
products that would avoid the failures we saw in the Midwest in 2019. 
Manufacturers pay for the cost of testing and certification and the 
public benefits from having flood abatement products that meet 
standards. While the European Union has recently adopted the ANSI 2510 
standard, we have yet to have it adopted officially in the United 
States. This program and the Corps' participation in it aligns with 
Section 3022 of the 2014 WRRDA encouraging the Corps to use durable and 
sustainable materials and resistant construction techniques to resist 
hazards due to a major disaster, and aligns with Director Dalton's 
embrace of new technologies.
    We must ensure the ERDC water testing facility is capable of 
testing products being demanded by the marketplace. Currently, the 
facility is only capable of testing perimeter barriers to a height of 4 
feet, yet manufacturers are making products that would protect to 
heights of 8-10 feet or more. The current facility is in need of a 
significant upgrade and/or replacement and ASFPM would be most 
supportive of such an effort.
Planning and the Use of Nonstructural Flood Risk Reduction Measures
    Overall, ASFPM is concerned about the lack of nonstructural, flood-
risk reduction measures as part of the projects that the Corps is 
implementing. This is especially of concern, given the increasing 
intensities and impacts of storms and flooding events being experienced 
in many communities and regions across the nation. Nonstructural and 
nature-based flood risk management approaches are often capable of 
buffering and withstanding these impacts with far lower overall cost, 
while providing major economic, societal, and environmental benefits. 
While the Corps has the authority to implement a full array of 
nonstructural measures, today we are seeing very few of these measures 
being implemented. Yet these measures have often been well-identified 
in community hazard mitigation plans and other planning documents. It 
seems that if a project has not gone through a formal Corps planning 
process then it does not formally exist. Better coordination between 
the Corps and existing community and state plans, which have 
proliferated over the past 20 years (largely as a result of the 
Disaster Mitigation Act of 2000) is essential.
    As we note later in this testimony, nonstructural, flood-risk 
reduction measures have an inherent disadvantage in most Corps programs 
whether it be through PL 84-99 or as a result of the Principles and 
Guidelines or current cost-sharing policies. Yet, the array of 
adaptation techniques that coastal and inland communities will need to 
respond to increasing risks and changing conditions will have to 
include nonstructural measures or measures that can include a 
combination of both. For example, relocating from a highly flood-prone 
area is a very popular measure and will be increasingly important in 
the future and could be done in combination with a structural measure. 
ASFPM encourages the Corps to identify and remove systemic biases 
against nonstructural, flood-risk reduction measures and elevate the 
status of such measures strategically.
Authority to study Missouri River flood management system.
    ASFPM supports the recent request by Assistant Secretary of the 
Army for Civil Works R.D. James that Congress provide authority for the 
Corps to conduct a study of the Missouri River levees as part of a 
system-wide study that would look at reservoir operations and all 
levees to evaluate how the systems should be managed, especially 
whether levees should be rebuilt, moved back to reduce erosion and 
provide conveyance (room for rivers) or removed and to see if other 
mitigation options like buyouts or elevation of buildings, which would 
be more effective and less costly, could be employed. Such a study is 
needed to help guide major repair and rehabilitation, in particular, in 
response to changing water conditions in the Missouri Basin and to 
evaluate improved floodplain management, storage, and flood conveyance 
solutions for large floods and runoff events. We believe the Corps and 
basin management would benefit from broad based evaluations in many 
instances where increasing flooding is occurring or can be calculated. 
One emerging trend we have observed nationally that might have 
applicability on any Missouri River system study, for example, is 
concern over the flood control--including large reservoir releases--and 
how we might make changes in the USACE water control manuals for flood 
operations to reflect new conditions such as more intense storms.
                         Flood-Risk Management
    The Corps' Flood Risk Management Program was established in 2006. 
The program's mission is to increase capabilities across all aspects of 
the agency to improve decisions made internally and externally that 
affect the nation's flood risk and resilience. It implements this 
mission through several activities including technical assistance, 
project planning and construction, promotion of nonstructural flood 
risk reduction, flood fighting, post flood disaster support, and 
assessing potential climate change impacts and consideration of 
adaptation measures.
    Operationally, we would like to share our observations and 
suggestions for improvement.
    ASFPM believes that overall the Silver Jackets program has proven 
to be successful and should continue with maximum flexibility to 
address individual states needs and issues. There have been many 
benefits to the Corps, and states, tribes, and local governments from 
the Silver Jackets program, including better coordination and 
understanding of the various programs and agencies involved in 
comprehensive flood-risk management, identification and coordination of 
resources, and development and undertaking of collaborative projects. 
It is important; however, that all Silver Jackets POCs from the Corps 
embrace the role and vision of the program.
    As mentioned above, the Corps is a partner in the NFBTC (barrier 
testing) Program. One step to facilitate the recognition and adoption 
of the standard would be for the Flood Risk Management Program--through 
the National Flood Fight Material Center--to require the standard in 
future contracts when purchasing flood fighting materials (there are 
several manufacturers that now have certified products). While we have 
had promising talks with Director of Civil Works Dalton and Chief Delp 
in the Rock Island District, we are concerned about support of the 
program and use of the standard operationally within the Corps' Flood 
Risk Management program overall given our lack of progress to date.

    <bullet>  Encourage the adoption of and operational use of the ANSI 
2510 standard by the USACE for flood abatement products

    The center of expertise for the Corps for nonstructural flood-risk 
reduction rests with the National Nonstructural Committee within the 
Planning Community of Practice. While we are encouraged after a brief 
dissolution and reconstitution of the NNC the past couple of years, 
that there is at least some interest in maintaining this function 
within the Corps, we continue to be alarmed about its significant lack 
of human resources, the stove-piping of the committee (within the 
Planning Division) and the seeming lack of agency headquarters support/
champion.
                      Levee & Dam Risk Management
    ASFPM has developed positions on structural flood control, 
including the position that levees should never be seen as the only 
flood mitigation tool, but part of a mix of tools that include 
nonstructural measures like buyouts, building elevations and flood 
proofing, as well as levee setback or realignment, and designed 
overflow spillways in levees and floodways, such as those on the lower 
Mississippi River that provide ``room for rivers.'' Furthermore, all 
levees and other flood control structures must be designed for future 
conditions that can be expected during the life expectancy of the 
structure. If the levee has a 50-year life, it must be able to handle 
the design flood expected in 50 years. All structural projects can 
result in adverse impacts. It is important that the Corps examines and 
enforces requirements to prevent or mitigate any adverse impacts 
(social, economic, environmental) from construction, repair and 
rehabilitation of structural projects), prior to or concurrent with the 
construction of projects.
    As we reflect back on past levee-related policies, we are reminded 
of the many recommendations from the Sharing the Challenge: Floodplain 
Management into the 21st Century Report of the Interagency Floodplain 
Management Review Committee led by General Gerald Galloway after the 
1993 Mississippi River floods. One recommendation never enacted was a 
new law to define the flood risk management responsibilities of 
federal, state and local governments, including the levee districts 
that build and maintain locally-funded levees. This could best be done 
by directing the Federal Interagency Floodplain Management Task Force 
(FIFM-TF) to do it.
    Despite enormous public investment in flood ``control'' structures, 
this spending has been outpaced by development in risky areas and 
development in the watersheds that increases runoff and flooding, 
resulting in the gradual deterioration of the protection provided by 
those structures. As the public grows to recognize the risks associated 
with levees, communities are working to evaluate the various actions 
they can take in response to those risks: levees can be repaired and 
improved or set back a further distance from the river to relieve 
pressure and erosion on the levee; homes, businesses and infrastructure 
at risk can be relocated to reduce risk and restore floodplain 
function. Waters can be detained upstream or adjacent to the stream by 
re-opening areas closed to flood storage and conveyance, such as Napa, 
California did. And measures can be combined to achieve the most 
effective results with scarce public dollars, with a particular eye to 
reducing the long-term operations and maintenance (O&M) costs for 
communities and taxpayers.

    <bullet>  Congress and the Corps should adopt policies for new or 
reconstruction of levees that encourage levees are set back from the 
water's edge to preserve riparian areas, reduce erosion and scour, 
reduce flood levels and flooding risks, and to allow natural floodplain 
ecosystems to better serve their natural functions of flood storage and 
conveyance as well as providing valuable habitat.

    We have entered an era of levee ``triage''--the process of 
prioritizing federal response to flood risks associated with levees and 
rationing scarce federal taxpayer dollars on multiple-objective risk 
reduction projects that may include floodplain restoration, 
reconfiguration of structural systems, and combinations of approaches 
to make the best use of limited public resources.
    Generally speaking, any new federal taxpayer funding program for 
flood risks associated with levees should be reserved for the top 
performers (communities and regions) that have demonstrated nonfederal 
leadership in the identification and reduction of flood risk associated 
with levees. Projects need to address those risks by leveraging more 
fully state and local authorities over land use, infrastructure 
protection, development standards and robust building codes. 
Additionally, eligibility for a new levee risk management fund should 
require that nonfederal partners take specific steps to address flood 
risk associated with levees in the following ways:

    1.  Participate in the National Flood Insurance Program;
    2.  Adopt a FEMA approved Hazard Mitigation Plan that includes 
emergency action and planning for residual risk areas associated with 
all levees and residual risk areas in their jurisdiction, including 
post-flood recovery and resiliency;
    3.  Prevent the construction of critical facilities (such as 
hospitals, schools, fire stations, police stations, storage of critical 
records, etc.) in areas subject to inundation in the 0.2%-chance 
floodplain, and require that all existing CFs be protected, accessible 
and operable in the 0.2%-chance flood;
    4.  Evaluate the full array of nonstructural measures to reduce 
risk, implement effective nonstructural measures in combination with 
any structural measures that are selected, and adopt standards to 
prevent any post-project increase of risk (including probability and 
consequences), prior to any commitment of public funds toward levee 
work;
    5.  Demonstrate binding and guaranteed financial capacity and 
commitment to long-term operations and maintenance, rehabilitation and 
management of all levee structures and system components in the 
community's jurisdiction;
    6.  Adopt short- and long-range flood risk reduction planning in 
residual risk areas as part of the community's mitigation, development 
and land use planning;
    7.  Communicate with property owners in residual risk areas, 
including spillway easement areas, to notify them of their risk, advise 
them of the availability of flood insurance, update them on emergency 
action plans, report on levee operations and maintenance over the past 
year, and for other public notification and engagement activities; and
    8.  Consideration of flood insurance behind levees either through 
individual policies or with a communitywide policy. The rate should be 
commensurate with the risk (higher levee protection, lower cost 
policies).

    ASFPM would like to note some positive developments in recent years 
regarding levee and dam risk management. The first of those has been 
the development of and public access to the National Levee Database 
(NLD) and National Inventory of Dams (NID). ASFPM was pleased to see 
the opening of the NLD for public access in 2018 (this follows the 
public access to NID, which occurred in 2015). This is an important 
evolution in the levee risk management to ensure the public has access 
to essential information regarding these flood-risk management 
structures. According to the NLD, there are nearly 30,000 miles of 
levees with over 46,000 levee structures having an average age of 55 
years.
    Another positive development was the Corps' new policy on Emergency 
Action Plans (EAPs) and required inundation mapping (EC 1110-2-6074). 
This policy standardizes inundation mapping and establishes inundation 
mapping requirements for dams and levees. In theory, having inundation 
mapping available to the public can help avoid debacles like those we 
witnessed around Barker and Addicks Reservoirs post-Hurricane Harvey 
when thousands of homes in inundation areas of those structures were 
impacted. Had local land use planners, property owners and others been 
aware of these risks, steps could have been taken to better guide 
development and reduce that risk. However, the new EAP policy includes 
the following statement: EAP maps are considered sensitive data and 
must be marked ``For Official Use Only'' according to AR 380-5 and DoDM 
5200.01. In other words, inundation maps associated with EAPs are not 
publicly available. Why would we be withholding this vital information 
on flood risk? The ASFPM would urge clarification in the next WRDA that 
identification of potential inundation areas from levee or dam 
operation or failures should be made widely available to help inform 
the public in making a wide range of economic and life-safety decisions 
and plans.
    The above policy seems to be an artifact from post 9/11 that 
neither the Corps (DoD) nor FEMA (DHS) are willing to overcome. The 
Technical Mapping Advisory Council (TMAC), a congressionally-authorized 
advisory committee helping FEMA oversee the nation's flood mapping 
program, in its 2016 report National Flood Mapping Program Review, 
identified a legacy DHS policy through its Security Classification 
Guide for the Protection of Critical Infrastructure and Key Resources, 
which listed dam failure inundation maps as ``For Official Use Only.'' 
However, this policy conflicts the National Flood Mapping Program 
Congressional requirements that such areas be shown on Flood Insurance 
Rate Maps and on publicly-available databases such as NLD and NID. As 
noted in the report, a Virginia law passed in 2008 essentially requires 
that all inundation mapping developed for state-regulated dams be made 
available to communities and the public. This has now been implemented 
for a decade without issues and state officials there believe in 
supporting wider public availability of these data. More recently, when 
speaking to federal agency officials, there has been a mistaken belief 
that this issue had been dealt with. It is clear to ASFPM that it has 
not and the unwillingness of agencies to act on it demands 
congressional intervention.

    <bullet>  Congress should mandate that inundation mapping developed 
by the federal government and/or associated with federal programs for 
dams and levees be made publicly available.

    Let's not have a recurrence of the Oroville dam situation from a 
couple years ago where a 190,000 people were told to evacuate very 
quickly because the dam's integrity was threatened, and none of them 
had been told or even knew they would be inundated if the dam were to 
fail. This is a critical public safety issue that must be addressed.
    Moving from an inventory to a program to address the safety of 
levees and to get a handle on the funding needed to ensure the safety 
of levees is not a simple process, yet this may be among the most 
important issues to help many communities consider and develop 
effective flood risk management and infrastructure resiliency. 
Evaluating how safe a levee is can be easier if actual engineering 
plans exist and there is a record of the operation and maintenance of 
that levee.
    Unfortunately, many of the non-federally built levees have neither 
good plans nor O&M records. Engineers can do a field evaluation of a 
levee that includes a visual inspection, but that does not tell us what 
the material is inside the levee to determine if it will withstand 
flood levels at a design flood or a larger flood. It is also 
questionable if the Corps should conduct evaluations beyond visual for 
non-federal levees using federal taxpayer funds.
    All the above evaluations are complicated because so many 
nonfederal levees are simply dirt piled up to keep water from farm 
fields, with more dirt added to the levee over time to make it higher, 
especially when housing or other development occurred behind the levee. 
Just because such a levee has not failed over the years does not mean 
it will not fail in the next flood. Requiring levee owners to perform 
an analysis of the levee to determine its adequacy and to develop a 
plan to properly operate and maintain the levee cannot be done by the 
Corps because the federal government does not have land use authority. 
States do, but many states to not regulate, or do not have adequate 
regulations to ensure levees are adequate.
    As a nation, we know little about the condition or risks associated 
with levees outside the Corps portfolio. Managing risks associated with 
levees in the United States will require diligence and cooperation 
among all levels of government, private sector and the public. Further, 
the national program must be integrated into and work seamlessly with 
other flood-risk management efforts through other agencies. That is why 
the implementation of the National Levee Safety Program is urgently 
needed. ASFPM participated in the multi-year effort to develop 
recommendations for a National Levee Safety Program culminating in a 
report with 20 recommendations made in 2009. The 2014 WRRDA first 
authorized the program, which was subsequently reauthorized in 
America's Water Infrastructure Act of 2018 through federal fiscal year 
2023. Among other things, this program will:

    1.  Establish comprehensive national levee safety guidelines for 
uniform use by all federal, state, tribal and local agencies (which 
would also provide for adaptation to local conditions);
    2.  Require better coordination and use of consistent standards and 
guidelines among federal agencies;
    3.  Establish a hazards classification system for levees;
    4.  Assist states, communities and levee owners in developing levee 
safety programs including identifying and reducing flood risks 
associated with levees;
    5.  Focus on educating the public of risks living in leveed areas; 
and
    6.  Establish a levee rehabilitation program that is integrated 
with ongoing community hazard mitigation programs/plans and requires a 
practical floodplain management plan to address adverse impacts of 
flooding in leveed areas.

    ASFPM is pleased to see that finally, the House passed ``minibus'' 
spending bill, H.R. 2740 included increased funding for the National 
Levee Safety Program, and the Senate Appropriations Committee has 
reported a similar level. While it does not fund the program at its 
full authorization of $79 million, it does provide $15 million.

    <bullet>  ASFPM recommends full implementation of the National 
Levee Safety Program and require that national levee safety guidelines 
fully account for future flood conditions based on the levee's 
anticipated service life (as opposed to design life) and suggests 
appropriate land-use standards to manage the intensification of risk 
behind levees.
    <bullet>  Activate a new National Levee Safety Committee (NLSC) of 
federal agencies, state and local stakeholders, professional 
associations, and experts as directed in WRRDA 2014 to assist the 
secretary to develop consistent guidance for levee siting, design, 
construction, operating and maintenance standards, to enhance levee 
performance, set appropriate protection levels, and to build-in 
resilience and adaptability for existing and future levee-based 
systems, (e.g., freeboard, spillways, setbacks, etc.).

    An effective National Levee Safety Program would mandate or 
incentivize states to have levee safety programs. This could be done by 
providing federal taxpayer funding to repair levees on some cost 
sharing basis, but it should have provisions indicating the funding 
will only be available in states with adequate levee safety programs 
where the state can regularly inspect levees and has the authority to 
order repairs or removal of inadequate levees so that people and 
businesses behind the levee are safe and do not have a false sense of 
security that the levee will protect them. The authorized Corps Levee 
Safety programs need to be implemented with these provision included.
    We want to point out one recommendation contained in the 2009 
National Levee Safety Program report that was not implemented in the 
2014 WRRDA, but that ASFPM still fully supports: A requirement for the 
purchase of risk-based flood insurance in leveed areas to reduce 
economic loss, flood damage, and increase understanding of communities 
and individuals that levees do not eliminate risk from flooding. Had 
such a requirement been in place, the effects from this year's flooding 
in the Midwest, especially where levees overtopped and failed, would 
have been far less consequential.
    It has come to light in recent years that many levees on the 
Mississippi River have been raised above their authorized height. The 
problem with that is the higher levees at one point in the river will 
result in more flooding across the river or upstream and downstream of 
that higher levee because the water has to go somewhere. This can lead 
to ``leapfrog levee,'' where levee owners on the other side of the 
river then raise their levee even higher, and the cycle continues.

    <bullet>  ASFPM urges strong continued federal oversight of levees 
to maintain levees at authorized levels. This should be done by the 
Corps or FEMA, and it must be adequately enforced.

    We were pleased to see that ASA R.D. James and Deputy Commanding 
General for Civil and Emergency Operations Maj. Gen. Scott Spellman 
understand the issue. Gen. Spellman indicated that changes to any one 
levee on the system could cause more problems downstream, or across the 
river.
    One final note regarding the High Hazard Dam Rehabilitation 
Program--ASFPM strongly supports the floodplain management planning 
requirement to obtain funding and integration of the dam rehabilitation 
with other mitigation efforts. We believe that such plans must be 
practical and implementable so that those impacted better understand 
flood risk and can take steps to mitigate against the residual risk.
                        Adjustments to PL 84-99
    PL 84-99, the Corps' disaster assistance authority, is 
legislatively built on language that was first adopted in 1941. In 
recent WRDAs, we have generally seen only incremental changes, while at 
the same time costs of flood disasters are increasing dramatically, 
while we are recognizing our overall approaches to flood-risk 
management require substantial new direction. As an example, PL 84-99 
provides by far the most generous cost-sharing formula of all the 
Corps' activities, to assist in repair and rehabilitation of disaster-
damaged levees and hurricane and storm damage reduction projects. In 
many cases the repairs are coming at high federal taxpayer expense and 
are being repeated over and over without serious review because current 
policy constrains or bars the Corps from studying and recommending 
changes (and makes even the consideration of nonstructural approaches 
subject to a non-federal sponsor's consent).
    Under PL 84-99, the Chief of Engineers, acting for the Secretary of 
the Army, is authorized to undertake activities including disaster 
preparedness, advance measures, emergency operations (flood response 
and post flood response), rehabilitation of flood control works 
threatened or destroyed by flood, protection or repair of federally 
authorized shore protective works threatened or damaged by coastal 
storm, and provisions of emergency water due to drought or contaminated 
source. PL 84-99, which is the principal Corps program to repair and 
rehabilitate, incorporates a significant bias against nonstructural and 
integrated approaches (combining structural and nonstructural 
approaches) to rehabilitation and repair of flood control works (FCWs). 
ASFPM understands that Engineering Regulation 500-1-1, which is the 
operational guidance for PL 84-99, has been on-again-off-again process 
of being under consideration for updating for several years. ASFPM 
believes that it is essential this guidance be updated and for the 
program to incorporate a much greater focus on nonstructural 
approaches.
    The Rehabilitation and Inspection Program (RIP) provides for 
inspections of FCWs, the rehabilitation of damaged FCWs, and the 
rehabilitation of federally-authorized and constructed hurricane or 
shore protection projects. Any eligible FCW that was damaged by water, 
wind or wave action due to a storm is eligible for repair under RIP, 
either at 100% or 80% federal taxpayer cost. RIP assistance is 
available to federally- and non-federally-built FCWs. Operation and 
maintenance is the responsibility of the local sponsor, and so long as 
there is proper and timely maintenance, the FCW can be included in the 
program. Currently, the following FCWs can be included, provided they 
meet the eligibility inspections:

    1.  Federally-authorized and constructed hurricane or shore 
protection projects (HSPPs).
    2.  Federally-constructed, locally maintained levees and 
floodwalls.
    3.  Non-federally constructed, locally-maintained levees and 
floodwalls that provide a minimum of a 10-year level of protection with 
2 feet of freeboard to an urban area, or a minimum of a five-year level 
of protection with 1 foot of freeboard to an agricultural area.
    4.  Federally-constructed, locally-maintained flood control 
channels.
    5.  Non-federally constructed, locally-maintained flood control 
channels that provide a minimum of a 10-year level of protection. 
[NOTE: Interior drainage channels within the protected area of a levee 
system are not flood control channels.]
    6.  Pump stations integral to FCW.
    7.  Federally-constructed, locally-maintained flood control dams.
    8.  Non-federally constructed, locally-maintained flood control 
dams.

    This is a very broad range of infrastructure for which the Corps 
takes responsibility after declared disasters, much of which is 
provided through supplemental appropriations through the Flood Control 
and Coastal Emergencies account. An unfortunate side effect of the 
current eligibility standards is that non-federal entities responsible 
for operations, maintenance and repairs are driven to defer maintenance 
until after the system is damaged by a flood event. PL 84-99 
eligibility needs to be modified to assure that any federal investment 
in levee work targets structures that pose the greatest public safety 
risk, and incentivizes responsible nonfederal actions in levee 
operations, maintenance and repair.

    <bullet>  Conform this program's cost-sharing with other flood-
damage reduction programs to reduce federal disaster costs, reduce 
risks, and support greater use of comprehensive flood-risk management 
and nonstructural approaches.

    Since this program provides significant federal taxpayer dollars 
for repair and rehabilitation of levees and dams for which local 
entities have signed operation and maintenance agreements, it seems 
entirely appropriate to associate a set of requirements to be met by 
those entities in order to qualify for federal assistance. ASFPM 
recommends that eligibility for PL 84-99 be available only after the 
following steps have been taken:

    <bullet>  The entity responsible for operation, maintenance and 
repair (OM&R) has adopted and demonstrated compliance with an approved 
OM&R plan.
    <bullet>  Responsible entity must communicate annually with 
property owners in residual risk areas, including dam or levee failure 
and spillway easement areas, to notify them of their risk, update them 
on emergency action plans, report on levee operations and maintenance 
over the past year, and for other public notification and engagement 
activities.
    <bullet>  Responsible entity must demonstrate binding and 
guaranteed financial capacity and commitment to long-term operations 
and maintenance, rehabilitation, and management of all levee structures 
and system components in the community's jurisdiction;
    <bullet>  Jurisdictions in residual risk areas must:
     <bullet>  Participate in the NFIP,
     <bullet>  Adopt a FEMA approved hazard mitigation plan that 
includes emergency action and planning for residual risk areas 
associated with all levees and residual risk areas in their 
jurisdiction, including flood-fighting, post-flood recovery and 
resiliency, and
     <bullet>  Prevent wherever possible the construction of new 
critical facilities (CFs) in areas subject to inundation in the 0.2%-
chance floodplain, and require that all new and existing CFs be 
protected, accessible and operable in the 0.2%-chance flood.
Data and Information on PL 84-99 costs and repetitive levee and flood 
        control repair/rehabilitation costs.
    In addition, ASFPM is concerned that we have seen no work products 
nor results, despite Congress' direction in Section 3029 of WRDA 2014 
that the Corps of Engineers should provide reports to Congress and the 
public on the implementation of PL 84-99 (33 U.S.C 701(n)), including 
an evaluation of alternatives available to the Secretary to ensure the 
USACE is effective meeting of program goals, and including regular 
biennial reports under WRDA 2014 Sec. 3029(c) on the specific 
expenditures and costs, work required, and actions of the Secretary, 
under PL 84-99.
    It appears there are levees which repeatedly fail or are overtopped 
and are simply get repaired to the same situation time and again, 
largely with federal taxpayer funding.
    Without accurate data and information regarding past emergency 
actions and the repair and rehabilitation of levees and other flood 
control works, Congress and the public cannot evaluate the 
effectiveness of PL 84-99, or the program's contribution to water 
resource resiliency.
    In addition, the Corps initiated a public inquiry Advance Notice of 
Proposed Rulemaking regarding PL 84-99 in February of 2015 (COE-2015-
0004), but the Corps has never since responded to public comments nor 
completed the Rulemaking exercise. We strongly urge Congress to 
immediately insist on the Corps' completion of the required reports and 
insist the Corps to assemble and make publicly available Corps' data 
and information on expenditures by project and watershed, and identify 
any instances of repetitive repair and rehabilitation costs and 
locations under PL 84-99.
    PL 84-99's treatment of nonstructural options is limited. ER-500-1-
1 indicates: Under PL 84-99, the Chief of Engineers is authorized, when 
requested by the non-federal public sponsor, to implement nonstructural 
alternatives (NSAs) to the rehabilitation, repair, or restoration of 
flood control works damaged by floods or coastal storms. The option of 
implementing an NSA project (NSAP) in lieu of a structural repair or 
restoration is available only to non-federal public sponsors of FCWs 
eligible for Rehabilitation Assistance in accordance with this 
regulation, and only upon the written request of such non-federal 
public sponsors.
    Unfortunately, this is consistent with the underlying statutory 
language, first adopted in WRDA 1996. The result? Little or no 
consideration of nonstructural measures, even when such measures could 
be more cost effective, and more consistent with the Corps' re-released 
Environmental Operating Principles and subsequent policy guidance from 
Corps leadership.
    The reality is that funded work should evaluate the full array of 
nonstructural measures to reduce risk, implement effective 
nonstructural measures in combination with any structural measures that 
are selected, and adopt standards to prevent any post-project increase 
of risk (both probability and consequences), prior to any commitment of 
public funds toward levee work. Since nonstructural options are only 
considered on an ``as requested basis,'' the requirement that the 
repair or rehabilitation approach be the ``least cost to the 
government'' alternative cannot logically be met because in the vast 
majority of the cases, not all alternatives are being evaluated. We can 
no longer afford to ignore possibly less expensive nonstructural 
alternatives. Specific modifications needed include:

    <bullet>  For every project, explicitly require consideration of 
realigning or setting back levee segments, and integrating setback 
levees to the fullest practicable extent in any federally-funded levee 
work, including repairs under PL 84-99.

    Levee setbacks, in many instances, can be a critical resiliency and 
sustainability adjustment to improve public safety and environmental 
management and to help account for and mitigate current and future 
uncertainties and reduce the risk of failures, as well as improve 
floodplain and natural ecological functions.
    In Sec. 1160 of WRDA 2018 Congress added ``realignment'' as a 
potential PL 84-99 rehabilitation option, but, again, has left this up 
to local sponsors whether even to consider such an approach. We 
specifically urge removing the present constraint requiring the Chief 
of Engineers to obtain a sponsor's consent to study or recommend such 
alternative actions. Generally, we would urge establishment of a clear 
authority for the Secretary or the Chief of Engineers to study the 
feasibility of making adjustments, and where appropriate, considering 
nonstructural, use of natural infrastructure, and/or nature-based 
features as alternatives or additional actions to address levee and 
flood project rehabilitation. We would also urge that funding be made 
available to conduct such alternative analyses wherever appropriate, 
particularly in any situation with a history of repetitive PL 84-99 
repairs. This important modification to PL 84-99 can help reduce 
``pinch-points'' in levee systems and bridge crossings that are often 
damaged or fail in repeated flood events, resulting in continued 
property loss, economic disruption and federal spending on repairs and 
disaster payouts. In cases of repeated levee failures or where existing 
levee alignments create significant pinch points or other risks, the 
Chief of Engineers should be able to initiate consideration of options 
to reduce long-term risks and repair costs.
Amendments Regarding Cost-sharing for Feasibility studies and 
        construction of Natural Infrastructure and Nature-based flood 
        damage reduction projects.
    As we have said previously, ASFPM continues to be concerned that 
despite Congress' efforts in successive WRDA's and Corps program 
oversight to encourage greater use of non-structural and nature-based 
approaches in flood damage reduction, we see far too little on-the-
ground progress, due to numerous areas of policy bias towards 
traditional structural approaches. We believe that, given ongoing 
hydrologic, climate, and development changes in watersheds, a concerted 
effort is needed to reduce historical biases and to better incentivize 
the use of these effective risk reduction tools.
    In addition to authorizing and directing the Chief of Engineers to 
regularly apply the Corps' science and engineering data and expertise 
to consider non-structural and natural infrastructure alternatives in 
appropriate PL 84-99 repairs and rehabilitations, ASFPM would also 
recommend the following two amendments regarding cost-sharing rules to 
better incentivize and support potential for natural infrastructure and 
nature-based features to be considered as alternatives in Corps 
development or modification of flood damage reduction projects.

    <bullet>  Modify cost sharing and guidance to level playing field 
for natural infrastructure and nature-based features with construction 
of nonstructural projects compared to structural projects.

    This first amendment would extend the current cap on non-Federal 
construction costs for nonstructural projects to natural infrastructure 
alternatives and natural and nature-based features. Present law caps 
``nonstructural'' flood damage reduction and ecosystem restoration 
projects non-Federal cost shares at 35 percent. However, ``natural 
features'' ``nature-based features'' and ``natural infrastructure 
alternatives'' are subject to 50 percent non-federal cost share caps, 
if the costs of ``LERRDS'' (lands, interests, rights of way, 
relocations, and disposal areas) raise a project's costs to above 35 
percent, which often may be the case, even though such projects may be 
less expensive than traditional projects. The amendment brings nature-
based, natural features, and natural infrastructure alternatives, which 
are terms added in recent WRDA's to receive the same 35 percent 
construction cost-share cap that is now afforded for nonstructural and 
ecosystem restoration measures, and would provide an entirely 
appropriate incentive for these generally similar and compatible 
approaches.
    This could be done in 33 USC 2213(b) by adding ``and measures 
employing natural features, nature-based features and natural 
infrastructure alternatives, as defined in Section 1184 of WRDA 2016 
(33 USC 2289a) and Section 1149 of WRDA 2018 (P.L. 115-270)'' after 
``nonstructural flood control measures'' where it appears in 33 USC 
2213(b), and by adding ``and storm and hurricane damage reduction'' 
after ``flood control'' where it appears in 33 USC 2213(b).

    <bullet>  Fully fund federal feasibility study cost for 
nonstructural, natural infrastructure and nature-based features 
approaches studies to flood damage reduction.

    ASFPM has long supported a requirement that all USACE projects must 
consider the full range of nonstructural and structural alternatives 
before the project is implemented. Unfortunately, the current law 
requires the local sponsor to consent to looking at alternatives. This 
language should be changed.
    The second amendment proposal is intended to provide an alternative 
to this suggestion, where it would provide the Chief of Engineers 
discretionary authority to study feasibility of all alternatives at 
full federal cost for nonstructural, natural infrastructure, and 
nature-based approaches to flood damage reduction. It would give the 
Chief of Engineers [or the Secretary] discretion to do feasibility and 
detailed report studies for flood damage reduction and hurricane and 
storm damage reduction projects that consider nonstructural, natural 
infrastructure and nature-based features at full Federal study cost. 
This would happen where the Chief determines that current or reasonably 
expected future conditions may warrant such expenditures to provide for 
appropriate flood or storm damage reduction on a cost-effective or 
substantial life-cycle federal cost savings basis and/or where 
nonstructural or natural infrastructure or nature-based features would 
be considered to provide at least 50 percent of total flood damage 
reduction benefits in one or more of the final array of considered 
alternatives. In this instance, due to the full Federal cost, a 
particular advance consent of a non-Federal sponsor would not be 
required. This would give the Corps of Engineers the ability to 
consider such natural infrastructure alternatives where warranted, 
which often is not done due to refusal of a non-Federal sponsor to 
request and/or consent to (and pay 50 percent of study costs) the 
consideration of such measures.
    We believe such authority would be responsive to the requests of 
Corps leaders in the Committee's May Corps oversight hearing for 
authority to consider broader sets of water resource and hydrologic 
concerns than they currently can.
    Applicability: Where the Chief of Engineers believes potential may 
exist for nonstructural, natural infrastructure and/or nature-based 
approaches could result in cost-effective or substantial life-cycle 
taxpayer savings.
    Feasibility Study Cost Share: Communities could receive full 
federal funding for feasibility studies for flood and storm damage 
reduction projects that may have potential to utilize nonstructural, 
natural infrastructure and/or nature-based approaches with potential 
savings at discretion of the Chief of Engineers.
    Study Requirements: One or more of the final array of proposed 
alternatives evaluated in a covered feasibility study must incorporate 
nonstructural or natural infrastructure features as a significant 
component of the project. Feasibility studies carried out under this 
subsection must incorporate natural infrastructure features that reduce 
flood or storm damages or flood or storm risks by at least [50 percent] 
in one or more of the final array of proposed alternatives evaluated.
    The feasibility study cost share is seen as a major hurdle for 
meaningfully assessing natural infrastructure regardless of the 
relative wealth of a community. Current law and guidance require the 
Corps to request and receive a non-federal sponsors consent to study 
nonstructural alternatives, which would not be required when studies 
are fully paid for at federal expense.
    Some lower income communities have been unable to pay the cost 
shares of such studies and therefore do not receive Corps assistance to 
look at a full range of options for flood damage reduction. Congress 
has established an ability to pay provision (33 USC 2213(m)); however, 
the Corps has not meaningfully implemented that provision and (as best 
as we can tell) continues to rely on extremely restrictive guidance 
from 1989, despite having been directed to update that guidance in WRDA 
2007.

    <bullet>  Congress and the Corps should remove bias towards 
structural projects and against nonstructural projects.

    This includes consideration of nonstructural measures in every 
instance and not solely at the request of the sponsor; removal of 
funding caps for nonstructural measures; reconsider the present policy 
which requires local sponsor to provide all lands easements, rights of 
way, relocations and disposal areas (LERRDs) for nonstructural projects 
to allow federal funding for lands for nonstructural project 
rehabilitations; provide greater equivalency in repairs to 
nonstructural measures after a subsequent flood event; and require 
consideration of benefits and costs over the long term, which should 
recognize and incorporate the non-commercial and societal benefits of 
nonstructural and nature-based design approaches in PL 84-99. Other 
ASPFM recommendations include:

    <bullet>  Including a provision for expedient buyouts of structures 
and land under PL 84-99. Due to the existing bias against nonstructural 
measures, this is not now currently feasible. However, these should be 
pursued with the same expediency as levee repairs just after a flood 
has occurred, versus through the normal project development process.
    <bullet>  Requiring the Corps to identify and report on frequency 
and losses associated with repetitive loss levees and other PL 84-99-
supported flood control works.
    <bullet>  Requiring a full suite of flood-risk mitigation options 
(including relocation or realignments, setbacks and nonstructural 
approaches to reduce costs and risks) for PL 84-99 assistance (similar 
to NFIP and Stafford Act repetitive loss mitigation).

    Consideration should be given to reducing federal subsidies in PL 
84-99 as the repetitive costs and disaster assistance claims rise.
           Revision of USACE Principles and Guidelines (P&G)
    Federal activities and Corps investments in water resources and 
flood-control projects have been guided by a process that has remained 
largely unchanged for 30 years, despite a growing record of disastrous 
floods. The first set of ``Principles and Standards'' was issued in 
September 1973 to guide the preparation of river basin plans and to 
evaluate federal water projects. Following a few attempts to revise 
those initial standards, the currently utilized principles and 
guidelines went into effect in March 1983. Since then, the national 
experience with flood disasters has identified the need to update 
federal policy and practice to reflect the many lessons learned and 
advancements in data, information and practice.
    Section 2031 of the Water Resources Development Act of 2007 (WRDA 
2007) called for revision to the 1983 Principles and Guidelines (P&G) 
for use in the formulation, evaluation and implementation of water 
resources and flood control projects. WRDA 2007 further required that 
revised principles and guidelines consider and address the following:

    1.  The use of best available economic principles and analytical 
techniques, including techniques in risk and uncertainty analysis.
    2.  The assessment and incorporation of public safety in the 
formulation of alternatives and recommended plans.
    3.  Assessment methods that reflect the value of projects for low-
income communities and projects that use nonstructural approaches to 
water resources development and management.
    4.  The assessment and evaluation of the interaction of a project 
with other water resources projects and programs within a region or 
watershed.
    5.  The use of contemporary water resources paradigms, including 
integrated water resources management and adaptive management.
    6.  Evaluation methods that ensure that water resources projects 
are justified by public benefits.

    In general, these requirements represented important goals for 
updating the P&G to respond to changes in the nation's values and 
increasingly looming concerns for our water resources nationally. In 
December 2014, the Obama Administration published an updated set of 
guidelines called the Principles, Requirements and Guidelines, which 
some federal agencies have implemented, but since the FY 2015 
Consolidated Appropriations legislation, the Corps has been barred from 
implementing the revised P&G, or to make much in the way of needed 
changes in approaches or technical aspects of project planning. While 
Congress had some questions about the specific proposed revisions, we 
believe that an updating of project planning and evaluation procedures 
continues to be a strong current and future need to respond to present 
and changing priorities.
    As an example, a major weakness of past benefit-cost analysis for 
water resources projects has been the failure of project planners to 
realistically account for the full life-cycle project costs over 
project lifetimes. This results in a bias for structural projects that 
require significant long-term O&M and rehabilitation costs, whereas 
nonstructural designs often have little or no maintenance, masking the 
true costs of alternatives.

    <bullet>  ASFPM recommends that in developing implementation 
guidance for the P&R, agencies must require a full accounting of long-
term operations, maintenance, repair, rehabilitation and replacement 
costs be included in benefit-cost analyses for all structural and 
nonstructural projects, and identify which costs are a federal 
responsibility or the responsibility of non-federal sponsors or other 
interests.

    The 1983 P&G require selection of water resources projects that 
maximize net National Economic Development (NED), regardless of total 
costs to taxpayers or the social or environmental impacts.

    <bullet>  ASFPM recommends that the Corps and other agencies 
develop and transition federal planning principles to a National 
Economic Resilience and Sustainability standard instead of the current 
National Economic Development standard to explicitly incorporate the 
values of multiple ecosystem services, including the non-market public 
values provided by the nation's floodplains and ecosystems.

    Floodplain management, public safety and long-term environmental 
quality and sustainability would, in many instances, improve by 
expanding to a resilience/sustainability standard approach.
    Another major concern with water resources projects is that they 
should be designed and analyzed on conditions that will exist at the 
end of their design life. This should be a fundamental principle of 
planning for community and water infrastructure resiliency. For 
example, if a levee is designed for a 50-year life, the level of 
protection it will provide must be calculated using the hydrology 
(rainfall and runoff) and sea level rise that can be projected for the 
end of that design life. As extreme rainfalls increase and sea level 
rises, it is foolhardy to not use these future conditions in design and 
BCA analysis. We are currently seeing levees that no longer provide the 
design level of protection because design rainfalls have increased from 
25-45%, thus the design flood height is much higher. In those cases, 
levee overtopping and failure result in excessive damage because 
development in the ``protected area'' now experiences flooding at great 
depths and damages. Nonstructural options like elevation of buildings 
or relocation would not experience that catastrophic damage. All such 
information needs to be factored in the BCA analysis.
    During the dozen years since WRDA 2007 was enacted, costly and 
disruptive floods have continued to plague nearly all parts of the 
nation, with the extended Midwest flooding in 2019, and with major Gulf 
Coast and Eastern Seaboard flooding, from 2017, 2018 and 2019 
hurricanes providing the latest reminders of the extent of the nation's 
vulnerability. ASFPM believes that the nation can no longer afford to 
continue on its current path of authorizing and funding projects 
through a process that is so heavily biased toward structural 
approaches without comprehensive review of environmental impacts and 
consideration of nonstructural alternatives, and without fully 
leveraging state and local authorities in land use, infrastructure 
maintenance, and building codes. While the 1983 P&G need to be retired 
and replaced by a modern and updated P&G as soon as possible, we note 
also that in Section 2032 of WRDA 2007, Congress had called for a 
report on the nation's vulnerability to flooding, including risk of 
loss of life and property, and the comparative risks faced by different 
regions of the nation. The report was to include the following 
elements:

    <bullet>  An assessment of the extent to which programs in the U.S. 
relating to flooding address flood risk reduction priorities;
    <bullet>  The extent to which those programs may be encouraging 
development and economic activity in flood-prone areas;
    <bullet>  Recommendations for improving those programs with respect 
to reducing and responding to flood risks; and
    <bullet>  Proposals for implementing the recommendations.

    Unfortunately, while started, this study was never completed, yet 
the need for these analyses and recommendations in this area continues 
and is more urgent now than ever. We urge the Committee to redouble its 
efforts to bring forward these or similar initiatives into focus and 
move them to completion to help guide the nation forward to meet 
critical water resources and flood-related challenges ahead.
    Federal policy initiatives such as the update of P&G and making 
investments through regular and supplemental appropriations that are 
underway could be informed by the findings and recommendations 
anticipated to emerge from this report. We urge Congress to insist on a 
timely completion and delivery of this report.
    Again, thank you for the opportunity to share our observations with 
you, and we applaud the Committee for considering our nation's water 
resources infrastructure, especially in light of long-term resiliency 
concerns. If you have any questions, please contact me, Ricardo Pineda, 
PE, CFM, Chair, ASFPM or ASFPM Executive Director Chad Berginnis.

    Mrs. Napolitano. Thank you very much, Mr. Pineda.
    I will next go to Mr. Gritzo. You are recognized.
    Mr. Gritzo. Chairwoman Napolitano, Chairman DeFazio, 
Ranking Member Westerman and honorable members of the 
subcommittee, thank you very much for the opportunity to 
testify today.
    My name is Dr. Louis Gritzo. I am a mechanical engineer who 
serves as vice president of research for FM Global, one of the 
world's largest commercial industrial property insurance 
companies, headquartered in Rhode Island. One of every three 
Fortune 1000 companies looks to FM Global to engineer down 
their risk against all hazards, including fire, natural hazards 
and even cyberattacks.
    With approximately 10,000 company locations that are FM 
Global clients located in flood zones, our clients, who are 
also our owners as a mutual company, realize the critical 
importance of protecting flood risk for their well-being and 
our Nation's. FM Global has been working to do this since 1835. 
The founder of the company was a Rhode Island millowner, who 
realized he could do smart engineering things to reduce against 
the catastrophe of his times, devastating mill fires. He did 
these measures, still needed insurance, and banded together 
with other millowners to form a mutual company. These 
principles are still the operations of which FM Global acts 
today.
    With over 1,300 engineers located worldwide, performing 
100,000 risk assessments of client locations each year, we know 
that efforts to reduce risk and improve resilience are most 
successful when they are complemented by local, State and 
Federal initiatives. As the world's most frequent flood hazard, 
nowhere is this approach more important and no time is it more 
important than now. The science is clear; we know flood risk is 
increasing due to a warming climate and due to an increasingly 
hardened landscape and additional development.
    Examples of public-private partnerships that can be 
successful are the development of ANSI Standard 2510 for 
temporary flood barriers. These temporary flood barriers are 
tested at the Army Corps of Engineers Research Center. These 
are also part of the National Flood Barrier Program with the 
Association of State Floodplain Managers.
    These measures work. In Hurricane Harvey, locations that 
used them reduced their loss by 80 percent. However, not all 
loss is preventable. We know that insurance is still needed.
    We work with our clients to implement the fraction of 
insurance available from the National Flood Insurance Program 
and then underwrite based on scientific and engineering risk 
assessments, not actuarial methods, to cover the remaining 
risk. This is increasingly important, as we know the future is 
not going to be like the past.
    Unfortunately, even the most comprehensive insurance 
program is not enough. When companies experience flood losses, 
they lose market share, they lose shareholder value, supply 
chain integrity. It damages their reputation, it damages 
investor confidence in growth and, most importantly, businesses 
suffer regional damage, including families that depend on those 
businesses for paychecks for their livelihood. In aggregate, 
long-term losses to U.S. business erode our country's economic 
competitiveness.
    For many commercial properties, the first line of defense 
is levees. We support work with clients' local authorities to 
assess levees and other flood management options, including 
environmental ones. Well-designed and maintained levees are 
obviously very effective at preventing losses. However, 
maintenance is severely lacking.
    There are two other unmet needs. When looking at the 
ability to temporarily install barriers to protect a client 
facility, as of now, any solutions that protect for waters over 
3 feet are considered experimental. Of the 10,000 U.S. business 
locations that have been identified by FM Global engineers as 
having flood exposure, one in four of them experiences flood 
water greater than 3 feet and there is currently no way to test 
these at the U.S. Army ERDC. We therefore support an 
improvement in the ERDC laboratory to enable testing of 
solutions to address higher flood waters. We also support 
general improvements in the use of cost-effective sensors, 
technologies, networks and communication to improve early flood 
warning, better respond to floods in progress, and improve 
long-term planning by collecting and assembling data for use by 
authorities and the private sector for their own benefit.
    In summary, the risk to American businesses from flood is 
real. It's vital that we improve our flood resilience. 
Insurance is not enough. Sound science and tested engineering 
solutions, as well as strong and sustained public-private and 
academic partnerships, we believe, are the answer.
    Thank you for this opportunity. I look forward to your 
questions.
    [Mr. Gritzo's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Louis A. Gritzo, Ph.D., Vice President of 
                          Research, FM Global
    Dear Chairman Napolitano, Ranking Member Westerman, and Honorable 
Members of the Subcommittee:
    Thank you very much for the opportunity to join you today as you 
consider the Water Resources Development Act of 2020, and as you weigh 
priorities for mitigating flood-related threats to American communities 
and businesses. I hope you find this testimony helpful as you make far-
reaching decisions that benefit American businesses today and into the 
future.
    My name is Dr. Louis Gritzo. I am vice president of research for FM 
Global, one of the world's largest commercial property insurers, 
headquartered in Johnston, Rhode Island. My doctoral degree is in 
mechanical engineering and mathematics, and I oversee a team of more 
than 120 scientists and engineers who focus on property-loss prevention 
with the aim of keeping our clients resilient, and therefore, in 
business.
    Approximately 1 of every 3 Fortune 1000 companies turns to FM 
Global for protection against property loss and business interruption 
related to fire, natural hazards, equipment failure, and cyber attack. 
Since we are a mutual insurer, every client is also an owner of our 
company.
    FM Global and its policyholders are deeply concerned about the 
serious and growing risk of flooding to U.S. businesses. It is a big 
priority for our clients, especially because more than 10,000 of the 
commercial properties they insure with us in the U.S. are located in 
flood zones.
    FM Global has been working to prevent, and insure for, commercial 
property loss since 1835, when mills sprouted along the nation's rivers 
at the dawn of the U.S. industrial revolution. Our founder, Zachariah 
Allen, was a Rhode Island textile mill owner who joined forces with 
other like-minded mill owners who insured one another in a mutual 
company and collectively reduced their property risks by engineering 
resilience into their business locations and operations.
    We take a unique engineering approach to understand and reduce 
risk, giving us unparalleled insight into the threats and opportunities 
that businesses face with respect to today's perils. We embrace this 
property-loss prevention role and have shared our proprietary research 
and data publicly for use by property owners, code enforcement bodies 
and product developers. Our efforts are most successful when they 
complement investment by local, state and federal government. When 
structured correctly, such public-private partnerships can be extremely 
successful.
            Floodwaters' rising threat to American business
    Flooding, as has been painfully evident in the past few years, is a 
serious threat to the nation's economic well-being and the livelihoods 
of its citizens. The risk is getting worse due to heavier rains from a 
warming climate and an increasingly developed and hardened landscape.
    Nonetheless, FM Global believes that much of the loss caused by 
nature's hazards is preventable, not inevitable. History confirms this 
premise in cases where the risks are recognized, understood and 
properly addressed.
    Our loss-prevention approach for flood and all other property risks 
throughout the world is uniquely rooted in developing engineering 
solutions that drive out risk for commercial property owners. Our 1,300 
engineers around the world make upwards of 100,000 visits to client 
properties every year, conducting thorough risk assessments and 
providing solutions tailored to each site.
    When this work relates to flood risk in the United States, our 
engineers apply flood maps created by FEMA, as well as our own physics-
based flood maps, to address the hazard. Then we drill into the 
details: Which properties are exposed? Which parts of each exposed 
property are threatened? How deep could the water get? What damage 
would it do? How much would the damage cost? And how much would 
eliminating or mitigating the risk cost?
    We underwrite the risk based on scientific principles and 
engineering assessments, not actuarial tables. It has been a successful 
business model that our client-owners appreciate and from which they 
have benefited financially. Science and engineering are also superior 
to actuarial tables because the future of the climate and business 
world will be very different from the past.
                           Quantify the risk
    For each location of every business we insure, and every hazard 
that each property faces, we create a loss expectancy. For example, our 
engineers may determine that seven out of 10 buildings on a client's 
corporate campus lie in a flood zone. The loss expectancy will include 
a dollar amount associated with that flood risk (e.g., that a flood 
will likely cause $10 million in property damage and business 
interruption to an affected building).
    Then we make recommendations to help clients cost-effectively 
mitigate their risk. Our flood-related recommendations for a client may 
involve many different loss-prevention actions as detailed in the loss-
prevention engineering guidelines \1\ we make freely available on our 
website. These data sheets include advice on how to site new 
construction (e.g., on higher ground), better manage stormwater runoff, 
elevate key equipment, install flood protection valves/gates, or 
acquire temporary protection systems, such as barriers or inflatable 
dams. In order for a business to implement these recommendations, they 
must be cost-effective.
---------------------------------------------------------------------------
    \1\ https://www.fmglobal.com/research-and-resources/fm-global-data-
sheets
---------------------------------------------------------------------------
    Our recommendations must also significantly reduce the loss, as was 
borne out during Hurricane Harvey. In that storm, clients who followed 
our recommendations for physical improvements to prevent flood losses 
experienced losses that were 80% lower than those of clients who did 
not. We believe this approach, as part of a public-private partnership, 
can inform public efforts to significantly reduce loss to American 
business on a national scale.
    Of course, not all loss is preventable. That's why we work with our 
clients to capture whatever fraction of coverage is available through 
the National Flood Insurance Program, and then to use our own insurance 
to transfer any remaining risk.
    Unfortunately, even the most comprehensive insurance policies fail 
to cover the total financial loss when flood damage disrupts a 
business. A disruption not only affects immediate revenue. It takes a 
longer-term toll on market share, shareholder value, supply chain 
integrity, reputation, investor confidence and growth. In aggregate, 
these long-term losses to U.S. businesses erode our country's economic 
competitiveness.
    Furthermore, any disruption at any company is a serious setback 
that affects not only the business owners, but the regional economy and 
community, including families depending on paychecks from an employer.
    Since insurance alone is not enough to make a company and community 
fully whole again, the best solution is minimizing loss in the first 
place.
       Flood loss prevention infrastructure policy update needed
    A wide range of strategies is available to mitigate flood damage, 
including wise urban planning and environmental solutions such as 
conserving wetlands. For many commercial properties, the first line of 
prevention is levees. FM Global frequently works with clients and local 
authorities to assess levees and other flood management solutions. When 
these measures are well-designed and maintained, they are quite 
effective in preventing loss. Maintenance, however, is often 
underfunded, jeopardizing people who depend on these prevention measure 
for protection. Building on high ground is always best, though it's not 
always available or affordable.
    Our experience working with business is consistent with the 2017 
Infrastructure Report Card \2\ published by the American Society of 
Civil Engineers (ASCE), which says an estimated $80 billion is needed 
in the next 10 years to maintain and improve the nation's levees. We 
and our clients understand the solution is not a simple case of federal 
funding for federally owned levees: More than half of levees we 
encounter are owned by states and localities, which have limited 
budgets for repair and maintenance.
---------------------------------------------------------------------------
    \2\ https://www.infrastructurereportcard.org/wp-content/uploads/
2017/01/Levees-Final.pdf
---------------------------------------------------------------------------
    Levees and other flood solutions need to be strategically 
developed. The U.S. needs a cohesive flood-loss prevention policy for 
designing, implementing and maintaining regional systems for our 
largest flood-exposed areas. Whatever the cost of developing this 
policy, it is likely to be offset by avoided loss and economic 
stability for flood-prone regions.
                  Business actions mitigate flood risk
    When flooding is imminent, the property owner must act. Much of the 
flood-mitigation equipment a Fortune 1000-size company might use to 
protect its property from floodwaters is tested and certified by FM 
Approvals,\3\ an FM Global business unit and global leader in third-
party product testing and certification services.
---------------------------------------------------------------------------
    \3\ https://www.fmapprovals.com/products-we-certify/products-we-
certify/flood-mitigation-products
---------------------------------------------------------------------------
    FM Approvals, a Nationally Recognized Testing Laboratory by 
OSHA,\4\ has developed the widely adopted industry standard for flood 
barriers, the American National Standard for Flood Abatement Equipment, 
ANSI/FM 2510,\5\ and conducts testing in part for these products at the 
U.S. Army Corps of Engineers' U.S. Army Engineer Research and 
Development Center in Vicksburg, Mississippi. This activity is a 
central part of the National Flood Barrier Testing and Certification 
Program.\6\ The program--a partnership between the U.S. Army Corps of 
Engineers, the Association of State Floodplain Managers and FM 
Approvals--assures property owners that certified flood-loss prevention 
products meet the highest property-protection performance standards 
and, hence, will perform as intended.
---------------------------------------------------------------------------
    \4\ https://www.osha.gov/dts/otpca/nrtl/nrtllist.html
    \5\ https://www.fmapprovals.com/approval-standards
    \6\ https://nationalfloodbarrier.org/
---------------------------------------------------------------------------
    To date, FM Approvals has certified more than 60 flood barrier 
products according to the ANSI/FM 2510 standard. These products--
typically superior to sandbags in ease of use, performance and 
reliability--are allowed to be labeled by the manufacturer as FM 
Approved.
    Flood-loss prevention solutions that can be tested and certified to 
ANSI/FM 2510 include:

    <bullet>  Perimeter barriers--Emergency structures that when 
deployed, are intended to protect buildings and equipment from rising 
water. These temporary perimeter barriers have been evaluated for their 
ability to control riverine- or rainfall-related flood conditions.
    <bullet>  Opening barriers--Permanent or temporary devices, such as 
flexible walls or stackable aluminum gates, that prevent floodwater 
passage through doors, windows, vents and other openings in a building.
    <bullet>  Flood mitigation valves--Devices that block floodwaters 
from entering buildings through overwhelmed drainage systems. These 
valves prevent buildings from flooding from the inside out.
    <bullet>  Flood mitigation pumps--Devices that remove water that 
has already entered buildings, and that help mitigate damage from 
corrosion and mold.
    <bullet>  Penetration sealing devices--Products that are used to 
seal small openings in a building.
    <bullet>  Flood glazing--Reinforced glass structures used in urban 
settings, that serve as flood barriers.
                   Contributing to the public domain
    FM Global contributes research-related resources freely to the 
public to help businesses beyond our own clients mitigate flood risk.
    Among our contributions:

    <bullet>  Flood maps--Our Global Flood Map \7\ is a strategic 
planning tool that helps American businesses address flood exposure at 
all their locations. Based on hydrologic and hydraulic models, it uses 
past and current climate data, including rainfall, evaporation, 
snowmelt and terrain--not just event history. The online interactive 
map provides a view of high- and moderate-hazard flood zones across the 
globe, including in previously uncharted territories. In the United 
States, we use FEMA's flood map as the primary source and our Global 
Flood Map as a secondary source.
---------------------------------------------------------------------------
    \7\ http://www.fmglobal.com/globalfloodmap
---------------------------------------------------------------------------
    <bullet>  Property loss prevention data sheets--We have produced 
more than 350 engineering guidelines \8\ based on our own research, 
loss experience and engineering knowledge. These data sheets give 
businesses proven engineering solutions and recognized standards to 
help them mitigate a wide range of property risks, including flood, 
fire, natural hazards and cyber attack, and also to inform national and 
global building codes and standards.
---------------------------------------------------------------------------
    \8\ http://www.fmglobaldatasheets.com/
---------------------------------------------------------------------------
    <bullet>  Research, testing and education--We study flood dynamics 
and protection at our 1,600-acre FM Global Research Campus \9\ in West 
Glocester, Rhode Island. It's the world's premier center for property-
loss prevention scientific research and product testing. The Research 
Campus includes a Natural Hazards Laboratory for assessing hazards and 
developing loss- prevention solutions for hurricanes, hailstorms, 
earthquakes and floods. Much of this work is shared with governments to 
inform building and fire codes around the world. The Research Campus is 
also a resource for manufacturers seeking third-party certifications of 
their products through FM Approvals. Finally, we conduct extensive 
computational and fundamental research and educational activities in 
Norwood, Massachusetts, where we have offices, laboratories, a learning 
center for employees and clients, and the SimZone, which is a 
collection of experiential learning labs.
---------------------------------------------------------------------------
    \9\ https://www.fmglobal.com/research-and-resources/research-and-
testing/fm-global-research-campus
---------------------------------------------------------------------------
                              Unmet needs
    We believe private sector efforts like these are most effective 
when supported by congruent government policy, planning and resources. 
Thus, we deeply value our collaboration with the federal government, 
including the U.S. Army Corps of Engineers and FEMA. As FM Global looks 
to the future of increasing flood risk, we see two major unmet needs: 
1) protections against higher flood depths; and 2) the improved use of 
technology for flood monitoring and mapping.
    Of the over 10,000 U.S. business locations that have been 
identified by FM Global engineers as being exposed to flood hazards, 
more than 1 in 4 may experience flood depths greater than 3 feet, the 
limit of flood barriers tested at the U.S. Army Engineer Research and 
Development Center. Thus, we consider any flood mitigation device 
intended to withstand floodwaters above 3 feet experimental, and, by 
definition, risky to use. Accordingly, we would support an improvement 
in the U.S. Army Engineer Research and Development Center laboratory to 
enable testing of solutions to address higher floodwaters. Such a 
capability would enable significant enhancements to the resilience of 
American businesses.
                   Taking advantage of new technology
    Another potential area of collaboration is improving the ability to 
apply current and future advanced technology to improve early flood 
warning, to better respond to floods in progress, and to improve long-
term planning. These improvements include deployment of both on-the-
ground and remote sensing at greater scale, the ability to transfer and 
openly communicate information, and the ability to allow more 
innovation in loss prevention products based on greater real-time 
insight.
    Achieving this goal will require investment in sensors and systems, 
and better data and imaging technology, to be used in conjunction with 
geographic information system (GIS) technology to make businesses more 
agile and successful in their loss-prevention efforts. We believe a 
strategic public-private-academic partnership to fully develop and 
deploy improved technology at scale will better allow the country to 
control its fate as it becomes more vulnerable to flood risk.
                          Choosing resilience
    When it comes to our nation's flood resilience, the risk for 
American businesses is real. Insurance is not enough. Yet, through 
science and tested solutions, as well as strong and sustained public-
private partnerships, together we can better assess risks and develop a 
national strategy to reduce them, thereby preserving and enhancing U.S. 
economic competitiveness.
    Elected officials are uniquely positioned to make far-reaching 
risk-reducing policy based on research. In partnership with American 
business, they can choose prevention over wishful thinking, and 
continue supporting the U.S. Army Corps to engineer flood resilience 
into every corner of our nation--and to drive risk out.
    Driving risk out before catastrophe occurs: That's what the 
savviest, most successful businesses do.
    These savvy businesses realize that resilience isn't luck. It's a 
choice our country has to make, and if we choose wisely and work 
together, our nation will continue to thrive in the face of an 
increasing threat.
    Thank you for considering my testimony, and for the opportunity to 
meet you today in person.

    Mrs. Napolitano. Thank you, sir, your testimony is very 
nice.
    We will move on to Ms. Samet. You are recognized.
    Ms. Samet. Chair Napolitano, Chairman DeFazio, Ranking 
Member Westerman and members of the subcommittee, I want to 
thank you for the opportunity to testify before you today.
    My name is Melissa Samet. I am the senior water resources 
counsel for the National Wildlife Federation, which is the 
Nation's largest education and advocacy organization, 
conservation education and advocacy organization.
    I want to start by highlighting a reality that often does 
not get the attention it requires. Our Nation's water resources 
infrastructure does not consist only of locks, dams, levees and 
other man-made structures, it also includes our rivers, 
streams, flood plains and wetlands, those systems that form our 
vital natural infrastructure, which is so essential for people 
and wildlife.
    Protecting and investing in natural infrastructure from 
coastal wetlands to rivers and their flood plains is a win for 
wildlife and our communities. Natural infrastructure makes 
communities safer and more resilient by absorbing flood waters 
and buffering storm surges. Natural infrastructure reduces the 
need for new, often expensive structural projects and provides 
an important extra line of defense when levees or other 
structures are required.
    The diverse environmental benefits provided by sustainable 
and cost-effective natural infrastructure can be particularly 
valuable for underserved communities suffering from flooding 
and multiple other environmental assaults. Natural 
infrastructure has long been recognized as both highly 
effective and cost effective.
    A 1972 Corps of Engineers study of the Charles River in 
Massachusetts concluded, and I am quoting, ``nature has already 
provided the least-cost solution to future flooding in the form 
of extensive riverine wetlands which moderate extreme highs and 
lows in streamflow,'' end quote. The Corps then found that it 
was both prudent and economical to protect these wetlands 
instead of building a new flood control dam. And that is 
exactly what the Corps did at a fraction of the cost of the 
structural project.
    The value of natural infrastructure was on display during 
Hurricanes Katrina, Sandy and Harvey. The horrific impacts of 
those storms would have been even worse without the coastal and 
inland wetlands and green spaces that provided significant and 
demonstrable protections.
    A study released last year shows that natural 
infrastructure would be far more cost effective than levees and 
dikes for reducing coastal flood risks in Texas, Louisiana, 
Mississippi and Florida. The average benefit-cost ratio for 
nature-based solutions was found to be 3.5, compared to just 
0.26 for levees and dikes. Restoring wetlands in this region 
could prevent $18.2 billion in losses while costing just $2 
billion to carry out.
    While structural flood projects are absolutely necessary 
and appropriate in some cases, they should be the option of 
last, not first resort; an option that is used only if a 
comprehensive assessment demonstrates that natural 
infrastructure either alone or in combination with structural 
projects will not work.
    Our written testimony details a number of recommendations 
that would improve the resilience of our natural infrastructure 
and help prevent Corps projects and operations from undermining 
that resilience. First, we recommend that the Congress create 
natural infrastructure incentives for communities and other 
non-Federal sponsors, with a special focus on at-risk and 
underserved communities. Second, we recommend planning reforms 
that would help the Corps better identify impacts to natural 
infrastructure and better mitigate those impacts if they cannot 
be avoided, as has long been required by Federal law. Third, we 
recommend improvements to the way the Corps accounts for 
project costs and benefits, including accounting for lost 
ecosystem services as a project cost, and increases in 
ecosystem services as a project benefit, to make sure that 
natural infrastructure is properly accounted for in the 
benefit-cost analysis. Fourth, we recommend creation of an 
ecological services directorate within the Office of the Chief 
of Engineers to increase the Corps' capacity to take full 
advantage of existing programs, authorities and operations to 
protect natural infrastructure and minimize expenditures for 
emergency response and rebuilding. And notably, some of the 
Corps' actions actually increase flooding in some areas and 
increase drought in other areas and those issues really do need 
to be addressed.
    The National Wildlife Federation respectfully urges the 
committee to adopt these recommendations that will provide 
important benefits that will run across all of the Corps' 
business lines.
    I want to thank you for the opportunity again to present 
this testimony and I look forward to your questions.
    [Ms. Samet's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Melissa Samet, Senior Water Resources Counsel, 
                      National Wildlife Federation
    Chair Napolitano, Ranking Member Westerman, and Members of the 
Subcommittee, thank you for the opportunity to testify before you today 
on the vital issue of improving the resilience of our nation's water 
resources infrastructure.
    The National Wildlife Federation is the nation's largest 
conservation education and advocacy organization with 6 million members 
and supporters, and affiliate conservation organizations in 52 states 
and territories. Our members represent the full spectrum of people who 
care deeply about wildlife: they are bird and wildlife watchers, 
hikers, gardeners, anglers, hunters, foresters, and farmers. The 
National Wildlife Federation has championed clean and healthy rivers 
and streams since our founding in 1936. Conserving our wetlands, 
streams, rivers, and shorelines for wildlife and communities is at the 
core of our mission.
    The National Wildlife Federation has extensive experience with all 
aspects of U.S. Army Corps of Engineers (Corps) planning, including 
ecosystem restoration, flood damage reduction, navigation, and 
reservoir operations. We also have the benefit of understanding needed 
water resources project and policy improvements from hundreds of 
organizations across the country. The Federation leads the Water 
Protection Network, a coalition of more than 250 local, regional, and 
national organizations working to ensure that America's water resources 
policies and projects are environmentally and economically sound. The 
Federation also has a long history working on large-scale ecosystem 
restoration efforts around the country that involve the Corps, 
including in the Everglades and Mississippi River Delta.
    Healthy rivers, floodplains, wetlands, and shorelines are essential 
for resilient communities, resilient populations of fish and wildlife, 
and a vibrant outdoor economy. These natural systems also reduce the 
need for structural flood and storm damage reduction projects and 
improve the effectiveness and resilience of levees and other water 
resources infrastructure. As we anticipate more frequent and severe 
storms and weather events, it is essential that we consider all tools 
at our disposal, including the use of natural systems to help absorb 
floodwaters and buffer communities.
    The value of natural systems for protecting communities is well 
recognized. In a 1972 study evaluating options to reduce flooding along 
Charles River in Massachusetts, the Corps concluded:

        ``Nature has already provided the least-cost solution to future 
        flooding in the form of extensive [riverine] wetlands which 
        moderate extreme highs and lows in streamflow. Rather than 
        attempt to improve on this natural protection mechanism, it is 
        both prudent and economical to leave the hydrologic regime 
        established over millennia undisturbed.'' \1\
---------------------------------------------------------------------------
    \1\ American Rivers, Unnatural Disasters, Natural Solutions: 
Lessons From The Flooding Of New Orleans (2006) (quoting USACE, from 
Massachusetts Department of Fish and Game, Functions of Riparian Areas 
for Flood Control, http://www.mass.gov/dfwele/river/pdf/
riparian_factsheet_1.pdf.)

    Wetlands prevented $625 million in flood damages in the 12 coastal 
states affected by Hurricane Sandy, and reduced damages by 20 to 30 
percent in the four states with the greatest wetland coverage.\2\ 
Coastal wetlands reduced storm surge in some New Orleans neighborhoods 
by two to three feet during Hurricane Katrina, and levees with wetland 
buffers had a much greater chance of surviving Katrina's fury than 
levees without wetland buffers.\3\ As aptly noted by the Reinsurance 
Association of America: ``One cannot overstate the value of preserving 
our natural systems for the protection of people and property from 
catastrophic events.'' \4\
---------------------------------------------------------------------------
    \2\ Narayan, S., Beck, M.B., Wilson, P., et al., The Value of 
Coastal Wetlands for Flood Damage Reduction in the Northeastern USA. 
Scientific Reports 7, Article number 9463 (2017), doi:10.1038/s41598-
017-09269-z (available at https://www.nature.com/articles/s41598-017-
09269-z).
    \3\ Bob Marshall, Studies abound on why the levees failed. But 
researchers point out that some levees held fast because wetlands 
worked as buffers during Katrina's storm surge, The New Orleans Times-
Picayune (March 23, 2006).
    \4\ Restore America's Estuaries, Jobs & Dollars BIG RETURNS from 
coastal habitat restoration (September 14, 2011) (http://
www.estuaries.org/images/81103-RAE_17_FINAL_web.pdf).
---------------------------------------------------------------------------
    Through our extensive experience with Corps projects across the 
country--and with communities affected by those projects--it is clear 
that the Corps must do much more to protect, restore, and use healthy 
natural systems. To help ensure that the Corps can achieve these vital 
goals, the National Wildlife Federation respectfully urges Congress to 
continue to advance important ecosystem restoration projects and enact 
the following new policy reforms to:

    <bullet>  Mainstream the Corps' Use of Natural Infrastructure: 
Natural infrastructure is a critical, but underused, tool for reducing 
flood and storm damages while also increasing resilience. Congress 
should create incentives for non-federal sponsors to increase 
consideration of natural infrastructure solutions by: (1) clarifying 
that natural infrastructure solutions are subject to the decade-old 
limitation on the total non-federal cost share for non-structural 
measures, which eliminates the potential for excessive land-related 
cost burdens on non-federal sponsors; and (2) facilitating full 
consideration of cost-effective flood and storm damage reduction 
solutions for at-risk communities by adopting targeted criteria for 
waiving the non-federal cost share for feasibility studies while also 
requiring that those studies fully evaluate natural infrastructure 
solutions that can provide sustainable and less expensive protections.
    <bullet>  Ensure Effective Mitigation and Analysis of Fish and 
Wildlife Impacts in Accordance with Long-Standing Legal Requirements: 
Congress should ensure projects properly account for and address harm 
to fish and wildlife by: (1) clarifying the types of project studies 
that trigger the civil works mitigation requirements to ensure 
application of these requirements as Congress unquestionably intended; 
and (2) directing the Corps to evaluate and develop mitigation for fish 
and wildlife resources in a manner that is consistent with 
recommendations developed by federal and state fish and wildlife 
experts pursuant to the Fish and Wildlife Coordination Act that derive 
from the special expertise of these experts (e.g., methods and metrics 
for evaluating fish and wildlife impacts and needed mitigation). 
Failure to adequately mitigate impacts significantly undermines the 
resilience of the nation's fish and wildlife.
    <bullet>  Accurately Account for Project Costs and Benefits, 
Including Ecosystem Services Lost and Gained: Congress should modernize 
the criteria used to assess costs and benefits when planning federal 
water resources projects, including by accounting for increased 
ecosystem services as a project benefit and lost ecosystem services as 
a project cost. Fully accounting for costs and benefits is critical for 
making effective decisions regarding the planning, construction, 
budgeting, prioritization, and authorization of Corps projects to 
increase resilience. Ecosystem services are the direct and indirect 
contributions that ecosystems provide to our well-being, including 
benefits like flood control, water purification, and habitat for 
wildlife.
    <bullet>  Increase the Corps' Capacity to Improve the Resilience of 
Water Resources Infrastructure, Including By Taking Full Advantage of 
Existing Authorities: Congress should establish a Directorate of 
Ecological Services within the Office of the Chief of Engineers tasked 
with ensuring that the Corps takes full advantage of existing programs, 
authorities, and operations to use natural systems to protect 
communities from floods, minimize expenditures for emergency response 
and rebuilding, improve wildlife habitat, and strengthen the outdoor-
based economy. This Directorate should have significant budgeting 
authority. Corps planning is hampered by an organizational structure 
that prevents the agency from creating and taking advantage of critical 
opportunities to effectively utilize the extensive public safety and 
wildlife benefits provided by healthy natural systems.

    Protecting the nation's waters and increasing the resilience of the 
nation's water resources infrastructure will also require Congress to 
defend the integrity of the laws that drive these outcomes, including 
the National Environmental Policy Act, the Clean Water Act, and the 
Endangered Species Act. We also urge this committee to carefully 
oversee the Corps' compliance with the letter and spirit of these laws 
when planning, constructing, and operating projects.
    In our testimony below, we describe the multiple benefits provided 
by healthy natural systems that are essential for resilient 
communities, wildlife, and water resources infrastructure. We then 
highlight the need to advance key ecosystem restoration projects to 
restore healthy systems, and provide more detailed explanations of the 
policy reforms outlined above.
  1. Healthy Natural Systems Provide Multiple Benefits for People and 
                                Wildlife
    Healthy natural systems provide multiple benefits for communities, 
wildlife, and the outdoor economy. Protecting, restoring, and using 
healthy systems to protect communities will increase the resilience of 
the nation's water resources infrastructure.
Healthy Natural Systems Protect Communities
    As highlighted earlier in this testimony, natural healthy natural 
systems provide critical protections for the communities. Healthy 
rivers, floodplains, wetlands, and shorelines can significantly reduce 
the need for new flood and storm damage reduction projects, and provide 
important protections for structural projects like levees and 
floodwalls.
    For example, wetlands act as natural sponges, storing and slowly 
releasing floodwaters after peak flood flows have passed, and coastal 
wetlands buffer the onslaught of hurricanes and tropical storms. A 
single acre of wetland can store one million gallons of floodwaters.\5\ 
Just a 1 percent loss of a watershed's wetlands can increase total 
flood volume by almost seven percent.\6\ Restoring a river's natural 
flow and meandering channel, and giving at least some floodplain back 
to the river, slows down floodwaters and gives the river room to spread 
out without harming homes and businesses.
---------------------------------------------------------------------------
    \5\ Environmental Protection Agency, ``Wetlands: Protecting Life 
and Property from Flooding.'' EPA 843-F-06-001. (2006) (factsheet).
    \6\ Demissie, M. and Abdul Khan. 1993. ``Influence of Wetlands on 
Streamflow in Illinois.'' Illinois State Water Survey, Contract Report 
561, Champaign, IL, Table 7, pp. 44-45.
---------------------------------------------------------------------------
    Wetlands prevented $625 million in flood damages in the 12 coastal 
states affected by Hurricane Sandy, and reduced damages by 20% to 30% 
in the four states with the greatest wetland coverage.\7\ Coastal 
wetlands reduced storm surge in some New Orleans neighborhoods by two 
to three feet during Hurricane Katrina, and levees with wetland buffers 
had a much greater chance of surviving Katrina's fury than levees 
without wetland buffers.\8\ California's wetlands provide an estimated 
$16.6 billion in benefits each year (in 2013 dollars) by reducing flood 
damages, recharging groundwater, purifying water supplies, providing 
recreational opportunities, and supporting healthy populations of fish 
and wildlife.\9\
---------------------------------------------------------------------------
    \7\ Narayan, S., Beck, M.B., Wilson, P., et al., The Value of 
Coastal Wetlands for Flood Damage Reduction in the Northeastern USA. 
Scientific Reports 7, Article number 9463 (2017), doi:10.1038/s41598-
017-09269-z (available at https://www.nature.com/articles/s41598-017-
09269-z).
    \8\ Bob Marshall, Studies abound on why the levees failed. But 
researchers point out that some levees held fast because wetlands 
worked as buffers during Katrina's storm surge, The New Orleans Times-
Picayune (March 23, 2006).
    \9\ Harold Mooney and Erika Zavalata (editors), Ecosystems of 
California, University of California Press (2016) at 684.
---------------------------------------------------------------------------
Healthy Natural Systems Sustain Wildlife
    Healthy rivers, floodplains, and wetlands provide vital fish and 
wildlife habitat and allow people and wildlife to benefit from natural 
flood cycles. In a healthy, functioning river system, precipitation 
events and other natural increases in water flow can deposit nutrients 
along floodplains creating fertile soil for bottomland hardwood 
forests. Sediment transported by these increased flows form islands and 
back channels that are home to fish, birds, and other wildlife. By 
scouring out river channels and riparian areas, these events prevent 
rivers from becoming overgrown with vegetation. They also facilitate 
breeding and migration for a host of fish species, and provide vital 
connectivity between habitat areas. In the deltas at the mouths of 
rivers, increased flows release freshwater and sediment, sustaining and 
renewing wetlands that protect coastal communities from storms and 
provide nurseries for multibillion dollar fisheries.
    Wetlands are some of the most biologically productive natural 
ecosystems in the world, and support an incredibly diverse and 
extensive array of fish and wildlife. America's wetlands support 
millions of migratory birds and waterfowl. Up to one-half of all North 
American bird species rely on wetlands. Although wetlands account for 
just about 5 percent of land area in the lower 48 states, those 
wetlands are the only habitat for more than one third of the nation's 
threatened and endangered species and support an additional 20 percent 
of the nation's threatened and endangered at some time in their life. 
These same wetlands are home to 31 percent of the nation's plant 
species.\10\
---------------------------------------------------------------------------
    \10\ Environmental Protection Agency, Economic Benefits of 
Wetlands, EPA843-F-06-004 (May, 2006) (factsheet).
---------------------------------------------------------------------------
Healthy Natural Systems Drive the Outdoor Economy
    Healthy rivers, floodplains, and wetlands are economic drivers for 
outdoor recreation and commercial fishery-based economies. Projects 
that restore those resources are also an important creator of jobs that 
are by necessity local and cannot be exported.
    For example, wetlands are an economic driver for fish and wildlife 
associated recreation. Hundreds of species of birds, waterfowl, and 
wildlife and 90 percent of fish caught by America's recreational 
anglers are wetland dependent. In 2016, fishing, hunting, and other 
wildlife-associated recreation contributed $156.3 billion to the 
national economy. ``This equates to 1% of Gross Domestic Product; one 
out of every one hundred dollars of all goods and services produced in 
the U.S. is due to wildlife-related recreation.'' Anglers alone spent 
``$46.1 billion on trips, equipment, licenses, and other items to 
support their fishing activities'' while people who ``fed, 
photographed, and observed wildlife,'' spent $75.9 billion on those 
activities.\11\
---------------------------------------------------------------------------
    \11\ U.S. Fish and Wildlife Service, 2016 National Survey of 
Fishing, Hunting, and Wildlife-Associated Recreation: National 
Overview, Issued August 2017. This study is the source for all quotes 
and data in this paragraph.
---------------------------------------------------------------------------
    Ninety five percent of commercially harvested fish and shellfish 
are wetland dependent. Healthy coasts ``supply key habitat for over 75% 
of our nation's commercial fish catch and 80-90% of the recreational 
fish catch.'' \12\ Healthy rivers are equally important to these 
fisheries and the economic benefits they provide. Commercial fishing in 
the Apalachicola River and Bay (which relies on river flows to remain 
healthy) contributes $200 million annually to the regional economy and 
directly supports up to 85 percent of the local population.
---------------------------------------------------------------------------
    \12\ Restore America's Estuaries, Jobs & Dollars BIG RETURNS from 
coastal habitat restoration (September 14, 2011) (http://
www.estuaries.org/images/81103-RAE_17_FINAL_web.pdf).
---------------------------------------------------------------------------
    Projects that restore natural systems also create jobs. Restore 
America's Estuaries reports that coastal restoration ``can create more 
than 30 jobs for each million dollars invested'' which is ``more than 
twice as many jobs as the oil and gas and road construction industries 
combined.'' \13\
---------------------------------------------------------------------------
    \13\ Id.
---------------------------------------------------------------------------
    In Louisiana, a proposed $72 million project to restore a 30,000-
acre expanse of degraded marsh near downtown New Orleans known as the 
Central Wetlands Unit would create 689 jobs (280 direct jobs and 400 
indirect and induced jobs) over the project's life.\14\ Implementation 
of the entire $25 billion dollars of restoration in Louisiana's Master 
Plan over the next fifty years would multiply those jobs hundreds of 
times over. In Florida, restoration of the Everglades will produce more 
than 442,000 jobs over the next 50 years and almost 23,000 short- to 
mid-term jobs for the actual restoration work. Restoring the Everglades 
is also predicted to produce a return of four dollars for each dollar 
invested.\15\
---------------------------------------------------------------------------
    \14\ Environmental Defense Fund, Profiles in Restoration: The 
Central Wetlands Unit, Part VI (May 3, 2010) (http://blogs.edf.org/
restorationandresilience/category/central-wetlands-unit/).
    \15\ Everglades Foundation, Everglades Restoration a 4-to-1-
Investment (http://everglades.3cdn.net/
79a5b78182741ae87f_wvm6b3vhn.pdf).
---------------------------------------------------------------------------
    Coastal restoration projects carried out under the U.S. Fish and 
Wildlife Service's Partners for Fish and Wildlife Program and Coastal 
Program in FY2011 returned $1.90 in economic activity for every dollar 
spent on restoration. In California, the rate of return was $2.10 for 
every dollar spent.\16\ The Department of the Interior's FY2010 
investment of $156 million for ecosystem restoration activities in the 
Chesapeake Bay, Great Lakes, and Everglades supported more than 3,200 
jobs and contributed more than $427 million in economic outputs.\17\ 
The Department of the Interior supported 12 to 30 jobs for every 
million dollars spent on restoration in FY2018.\18\
---------------------------------------------------------------------------
    \16\ U.S. Fish and Wildlife Service, Restoration Returns--The 
Contribution of Partners for Fish and Wildlife Program (PFW) and 
Coastal Program Restoration Projects to Local US Economies, February 
2014 (http://www.sfbayjv.org/resourcedocs/usfws-restoration-
returns.pdf).
    \17\ The Department of the Interior's Economic Contributions 
(Department of the Interior, 2011) at 5, 106 (http://www.doi.gov/news/
pressreleases/upload/DOI-Econ-Report-6-21-2011.pdf).
    \18\ U.S. Department of the Interior Economic Report FY2018 
(Department of the Interior, 2019) at 4 (https://doi.sciencebase.gov/
doidv/files/2018/pdf/FY%202018%20Econ%20Report.pdf).
---------------------------------------------------------------------------
    In Oregon, a $411 million investment in restoration from 2001 to 
2010 generated an estimated $752 to $977 million in economic output. 
The 6,740 restorations projects completed during that time supported an 
estimated 4,600 to 6,500 jobs, including jobs in construction, 
engineering, wildlife biology, and in supporting local businesses such 
as plant nurseries and heavy equipment companies. On average, $0.80 of 
every $1 spent on a restoration project in Oregon stays in the county 
where the project is located and $0.90 stays in the state.\19\
---------------------------------------------------------------------------
    \19\ Whole Watershed Restoration Initiative, Oregon's Restoration 
Economy, Investing in natural assets for the benefit of communities and 
salmon (2012) (http://www.ecotrust.org/wwri/downloads/
WWRI_OR_brochure.pdf).
---------------------------------------------------------------------------
 2. Congress Should Mainstream Use of Natural Infrastructure to Reduce 
                             Flood Damages
    America faces significant water resource challenges, driven in part 
by more intense coastal storms, more frequent and severe flooding, 
unprecedented droughts, and the unintended consequences from many 
already-constructed water resources projects. Natural infrastructure is 
a critical--but underused--tool for solving many of these challenges, 
while also increasing resilience by protecting and improving the health 
of the nation's rivers, floodplains, wetlands, and shorelines.
    Natural infrastructure, both alone and in conjunction with 
structural projects, provides important protections from storms and 
floods. Natural infrastructure avoids the risks of catastrophic failure 
and overtopping of levees, a risk that has caused the Association of 
State Floodplain Managers to urge communities to use nonstructural 
measures whenever possible instead of constructing new levees, which 
should be limited to the option ``of last resort.'' \20\ Natural 
infrastructure can also provide important buffers that increase the 
effectiveness and resilience of structural measures.
---------------------------------------------------------------------------
    \20\ Association of State Floodplain Managers White Paper, National 
Flood Policy Challenges, Levees: The Double-edged Sword, Adopted 
February 13, 2007.
---------------------------------------------------------------------------
    Many approaches to water resources planning can restore and protect 
vital natural infrastructure. These include re-establishing the natural 
form, function, hydrology, and inundation of rivers, floodplains, and 
wetlands by removing or modifying levees (including moving levees 
further away from the river, i.e., levee setbacks), dams, river 
training structures, cut offs, and culverts. Other approaches include 
purchasing flood or flowage easements; relocating flood-prone 
properties; using wetland buffers to protect levees; placing 
protections on wetlands and floodplains; utilizing water conservation 
and efficiency measures; establishing a navigation scheduling process; 
and improving management of existing water resources projects.
    Living shorelines are an important example of natural 
infrastructure. Living shorelines are constructed with natural 
materials including vegetation, fiber logs, and marsh sills to protect 
coasts from erosion.\21\ Living shorelines enhance coastal habitats, 
including by creating nursery grounds for fish and shellfish, providing 
feeding grounds for shorebirds and wading birds, and helping reduce 
water pollution. Living shorelines can be more effective at preventing 
erosion than structural projects and are highly resilient to storms, as 
demonstrated by a substantial body of scientific literature. A survey 
of the North Carolina coast after Hurricane Irene showed no visible 
damage in living shoreline projects, while 76 percent of bulkheads 
suffered damage.\22\
---------------------------------------------------------------------------
    \21\ While living shorelines may not be appropriate everywhere, 
they are a demonstrably viable, often more effective, and 
environmentally-preferable alternative to traditional structural 
projects like bulkheads.
    \22\ S. Sharma et al., A Hybrid Shoreline Stabilization Technique: 
Impact of Modified Intertidal Reefs on Marsh Expansion and Nekton 
Habitat in Northern Gulf of Mexico, 90 Ecological Engineering, 339-50 
(2016); Amanda S. Lawless et al., Effects of shoreline stabilization 
and environmental variables on benthic infaunal communities in the 
Lynnhaven River System of Chesapeake Bay, 457 J. of Experimental Marine 
Biology & Ecology, 41-50 (2014); J. E. Manis et al., Wave Attenuation 
Experiments Over Living Shorelines Over Time: A Wave Tank Study to 
Assess Recreational Boating Pressures, 19 J. of Coastal Conservation, 
1-11 (2015); S. Crooks & R. K. Turner, Integrated coastal management: 
sustaining estuarine natural resources, in 29 Advances in Ecological 
Res., 241-289 (Nedwell, and Raffaelli., eds. 1999); Rachel K. Gittman 
et al., Marshes with and without Sills Protect Estuarine Shorelines 
from Erosion Better than Bulkheads During a Category 1 Hurricane, 102 
Ocean & Coastal Mgmt., 94-102 (2014).
---------------------------------------------------------------------------
    There is ample evidence that natural infrastructure solutions can 
provide highly effective flood and storm damage reduction for 
communities. For example:

    <bullet>  In the Gulf Coast regions of Texas, Louisiana, 
Mississippi, and Florida, nature-based solutions to reduce coastal 
flood risks are significantly more cost effective than structural 
solutions. A 2018 study shows that in this region, the average benefit-
cost ratio for nature-based solutions is 3.5 compared to 0.26 for 
levees/dikes and 0.73 for home elevations. Restoring wetlands could 
prevent $18.2 billion of losses while costing just $2 billion to carry 
out. Restoring oyster reefs could prevent $9.7 billion in losses while 
costing just $1.3 billion. Restoring barrier islands could prevent $5.9 
billion in losses while costing just $1.2 billion.\23\
---------------------------------------------------------------------------
    \23\ Borja G. Reguero et al., ``Comparing the Cost Effectiveness of 
Nature-Based and Coastal Adaptation: A Case Study from the Gulf Coast 
of the United States,'' PLoS ONE 13, no. 4 (April 11, 2018), https://
doi.org/10.1371/journal.pone.0192132.
---------------------------------------------------------------------------
    <bullet>  In southern California, the Surfers' Point Managed 
Shoreline Retreat Project is restoring 1,800 feet of shoreline with 
cobble beach and vegetated sand dunes east of the mouth of the Ventura 
River to ``provide resilience and offset risk from sea level rise and 
storms for 50 years'' while maintaining beach access and other coastal 
resources. Since the project began, Surfers' Point has become Ventura 
County's most visited beach. Even with only one of two phases 
completed, the restored beach and dunes withstood 2015-2016 winter high 
wave conditions without damage, while other locations such as the 
Ventura Pier and promenade were damaged and the Pierpont neighborhood 
east of the project site was inundated.\24\
---------------------------------------------------------------------------
    \24\ Jean Judge et al., ``Surfers' Point Managed Shoreline Retreat 
Project,'' in Case Studies of Natural Shoreline Infrastructure in 
Coastal California: A Component of Identification of Natural 
Infrastructure Options for Adapting to Sea Level Rise (California's 
Fourth Climate Change Assessment). (The Nature Conservancy, 2017), 9-
15, https://scc.ca.gov/files/2017/11/tnc_Natural-Shoreline-Case-
Study_hi.pdf.
---------------------------------------------------------------------------
    <bullet>  In northern California, the Napa Valley Flood Control 
Project is using a community-developed ``living river'' plan to reduce 
flood damages along the flood-prone Napa River. This plan replaces the 
Corps' originally-proposed floodwalls and levees with terraced marshes, 
wider wetland barriers, and restored riparian zones. The Project will 
restore more than 650 acres of high-value tidal wetlands of the San 
Francisco Bay Estuary while protecting 2,700 homes, 350 businesses, and 
over 50 public properties from 100-year flood levels, saving $26 
million annually in flood damage costs.\25\ Though only partially 
complete, the project was credited for lowering flood levels by about 2 
to 3 feet during the 2006 New Year's Day flood.
---------------------------------------------------------------------------
    \25\ Napa County California website at https://
www.countyofnapa.org/1096/Creating-Flood-Protection.
---------------------------------------------------------------------------
    <bullet>  In Florida, the Corps is using wetland restoration in the 
Upper St. John's River floodplain to provide important flood damage 
reduction benefits. The backbone of this project is restoration of 
200,000 acres of floodplain which will hold more than 500,000 acre-feet 
of water--enough to cover 86 square miles with 10 feet of water--and 
will accommodate surface water runoff from a more than 2,000 square 
mile area. The Corps predicts that this $200 million project will 
reduce flood damages by $215 million during a 100-year flood event, and 
provide average annual benefits of $14 million. This project was 
authorized by Congress in 1986 to reduce flood damages along the river.
    <bullet>  In Illinois, a 2014 study conducted for the Chicago 
Wilderness Green Infrastructure Vision, found that natural systems are 
the least costly and most efficient way to control flooding. Wetlands 
in the seven-county Chicago metropolitan area provide an average 
$22,000 of benefits per acre each year in water flow regulation. This 
study also found that watersheds with 30 percent wetland or lake areas 
saw flood peaks that were 60 to 80 percent lower than watersheds 
without such coverage, and that preventing building in floodplain areas 
could save an average of $900 per acre per year in flood damages.\26\
---------------------------------------------------------------------------
    \26\ Will Allen, Ted Weber, and Jazmin Varela, Green Infrastructure 
Vision: Version 2.3: Ecosystem Service Valuation. (The Conservation 
Fund: 2014), 13-15, https://datahub.cmap.illinois.gov/dataset/c303fd2e-
beaf-4a75-a9ec-b27c6da49b69/resource/028c9b69-bb19-425e-bb92-
3d33656bea4c/download/
tcfcmapgiv23ecosystemservicesfinalreport201412v2.pdf.
---------------------------------------------------------------------------
    <bullet>  In Iowa, the purchase of 12,000 acres in easements along 
the 45-mile Iowa River corridor saved local communities an estimated 
$7.6 million in flood damages as of 2009. The easement purchase effort 
began after the historic 1993 floods when river communities in east-
central Iowa recognized the need for a more effective approach to 
reducing flood damages.
    <bullet>  In Massachusetts, a 1972 Corps study showed that upstream 
wetlands were playing a critical role in reducing flooding in the 
middle and upper reaches of the Charles River by storing millions of 
gallons of water and preventing $17 million each year in flood damages. 
This led the Corps to preserve 8,000 floodplain acres to ensure future 
flood storage, at a cost of just one-tenth of the structural project it 
had previously planned to build. This approach was sanctioned by 
Congress in 1974 when it authorized the Charles River Natural Valley 
Storage Area. These floodplain wetlands are credited with reducing 
major floods, including in 1979, 1982, and 2006. The Corps estimates 
that this project has prevented $11.9 million in flood damages while 
providing recreational benefits valued at between $3.2 and $4.6 
million.\27\
---------------------------------------------------------------------------
    \27\ American Rivers, Unnatural Disasters, Natural Solutions: 
Lessons From The Flooding Of New Orleans (2006) (Charles River Valley 
Natural Storage Area case study); and https://www.arcgis.com/apps/
MapJournal/index.html?appid=0bf97d033a8642b18c2e8075d4b5ecfe.
---------------------------------------------------------------------------
    <bullet>  In New York, restoration of wetlands and lands adjacent 
to 19 stream corridors in Staten Island ``successfully removed the 
scourge of regular flooding from southeastern Staten Island, while 
saving the City $300 million in costs of constructing storm water 
sewers.'' \28\ Some 400 acres of freshwater wetland and riparian stream 
habitat has been restored along 11 miles of stream corridors that 
collectively drain about one third of Staten Island's land area. A 2018 
study commissioned by the City of New York found that using ``hybrid 
infrastructure'' that combines nature, nature-based, and gray 
infrastructure together could save Howard Beach, Queens $225 million in 
damages in a 100-year storm while also generating important ecosystem 
services.\29\
---------------------------------------------------------------------------
    \28\ Cooper Union, Institute for Sustainable Design, The Staten 
Island Bluebelt: A Study In Sustainable Water Management (http://
cooper.edu/isd/news/waterwatch/statenisland). These effort was started 
in 1990.
    \29\ The Nature Conservancy, Urban Coastal Resilience: Valuing 
Nature's Role. (2015), https://www.nature.org/content/dam/tnc/nature/
en/documents/urban-coastal-resilience.pdf.
---------------------------------------------------------------------------
    <bullet>  In Oregon, the Portland Bureau of Environmental Services 
restored 63 acres of wetland and floodplain habitat, restored 15 miles 
of Johnson Creek, and move structures out of high risk areas to reduce 
flood damages in the Johnson Creek neighborhood. In January 2012, when 
heavy rainfall caused Johnson Creek to rise two feet above its historic 
flood stage, the restored site held the floodwaters, keeping nearby 
homes dry and local businesses open. An ecosystem services valuation of 
the restored area found that the project would provide $30 million in 
benefits (in 2004 dollars) over 100 years through avoided property and 
utility damages, avoided traffic delays, improved water and air 
quality, increased recreational opportunities, and healthy fish and 
wildlife habitat.\30\
---------------------------------------------------------------------------
    \30\ ``Johnson Creek Restoration, Portland, Oregon,'' Naturally 
Resilient Communities, accessed November 12, 2019, http://
nrcsolutions.org/johnson-creek-restoration-portland-oregon/.
---------------------------------------------------------------------------
    <bullet>  In Texas, restoration of a 178-acre urban wetland--
formerly an abandoned golf course--acted as a sponge to store 100 
million gallons of water during Hurricane Harvey, protecting 150 homes 
in Houston's Clear Lake community from serious flooding. This project 
will store up to a half billion gallons of water and protect up to 
3,000 homes when it is completed in 2021.\31\
---------------------------------------------------------------------------
    \31\ Exploration Green, 2018, https://www.explorationgreen.org/.
---------------------------------------------------------------------------
    <bullet>  In Vermont, a vast network of floodplains and wetlands, 
including those protected by 23 conservation easements protecting 2,148 
acres of wetland along Otter Creek, saved Middlebury $1.8 million in 
flood damages during Tropical Storm Irene, and between $126,000 and 
$450,000 during each of 10 other flood events. Just 30 miles upstream, 
in an area without such floodplain and wetland protections, Tropical 
Storm Irene caused extensive flooding to the city of Rutland.

    While sometimes necessary and appropriate, large scale structural 
projects, on the other hand, typically cause significant harm to the 
environment and can have negative secondary effects. For example, such 
projects often increase flooding downstream, induce development in high 
risk areas, and come with the very real risk of catastrophic failure 
and overtopping endangering surrounding communities.
    The National Wildlife Federation appreciates the WRDA 2018 
provision that directs the Corps to consider the use of natural 
infrastructures, alone or in combination with structural measures, 
whenever those solutions ``are practicable.'' \32\ Despite this, the 
Corps continues to fail to adequately consider natural infrastructure 
solutions where they are practicable for storm and flood damage 
reduction.\33\
---------------------------------------------------------------------------
    \32\ America's Water Infrastructure Act of 2018, Pub. Law 115-270, 
 1149(c).
    \33\ The Corps' implementing guidance states that this WRDA 2018 
provision requires no changes at all in the way the Corps plans 
projects. U.S. Army Corps of Engineers, Implementation Guidance for 
Section 1149 of the WRDA of 2018 (April 12, 2019).
---------------------------------------------------------------------------
    As a result, it is clear that Congress will need to take additional 
steps to ensure that the Corps mainstreams the use of natural 
infrastructure solutions. One approach is to create natural 
infrastructure incentives for non-federal sponsors by: (1) clarifying 
that natural infrastructure solutions are subject to the decade-old 
limitation on the total non-federal cost share for non-structural 
measures, which eliminates the potential for excessive land-related 
cost burdens on non-federal sponsors; and (2) facilitating full 
consideration of cost-effective flood and storm damage reduction 
solutions for at-risk communities by adopting targeted criteria for 
waiving the non-federal cost share for feasibility studies while also 
requiring that those studies fully evaluate natural infrastructure 
solutions that can provide sustainable and less expensive protections.
 3. Congress Should Ensure Continued Progress on Ecosystem Restoration 
                                Projects
    The National Wildlife Federation greatly appreciates the 
committee's role in overseeing the Corps' implementation of important 
projects designed to restore the nation's waters. We urge Congress to 
ensure that the Corps continues to advance important ecosystem 
restoration projects, including those designed to restore coastal 
Louisiana and America's Everglades.
Restoring Coastal Louisiana
    As a partner in the Restore the Mississippi River Delta Coalition, 
the National Wildlife Federation has worked for years to restore 
critical habitat in coastal Louisiana. The Louisiana Coast is in the 
midst of a land loss crisis with dramatic implications for our national 
economy and world class natural resources. Since the 1930s, the state 
has lost about 1,900 square miles of land to the Gulf. Recent 
catastrophes, such as Hurricanes Katrina and Rita, and the Deepwater 
Horizon oil disaster, exacerbated the coastal crisis. Without action, 
Louisiana is projected to lose up to another 4,000 square miles within 
the next 50 years.
    In Title VII of the Water Resources Development Act of 2007, 
Congress authorized the Louisiana Coastal Area program, consisting of 
high priority projects for slowing the current trend of coast-wide 
wetland loss and resource degradation. Despite the fact that these 
projects were found to be in the federal interest, very little federal 
money has been appropriated to the Louisiana Coastal Area program since 
its authorization. Instead, several of the projects it contains, though 
renamed, have been advanced by the state with oil spill settlement 
dollars.
    Title VII of WRDA 2007 also tasked the Corps with developing, in 
concert with the state of Louisiana, a comprehensive coastal management 
plan ``for protecting, preserving, and restoring the coastal Louisiana 
ecosystem.'' To date, the Corps has not engaged in such a process. In 
the meantime the state of Louisiana has produced two successive Coastal 
Master Plans, in 2012 and 2017, based upon a widely lauded scientific 
and stakeholder engagement processes, which propose fundamental changes 
to the management of the lower Mississippi River. Among these are 
diversions of river water into the collapsing Mississippi River delta 
at Ama on the west bank of the river, and Union on the east bank.
    Louisiana's 2017 Comprehensive Master Plan for a Sustainable Coast 
(CMP), based upon a science-based selection process, propose diversion 
projects upriver from New Orleans at Ama and Union that could fulfill 
the goals of the CMP and reduce the flood threat downriver. Ama would 
divert water that would otherwise need to be carried by the Bonnet 
Carre Spillway, away from the Lake Pontchartrain basin in Louisiana and 
Mississippi Sound in Mississippi and Alabama. The Union Diversion would 
divert water into the Pontchartrain Basin upriver from Bonnet Carre, 
allowing it to pass through the swamps surrounding lakes Maurepas and 
Pontchartrain, where wetlands would reduce the amount of excess 
nutrients reaching Mississippi Sound and Lake Pontchartrain, reducing 
harmful algal blooms.
    The state of Louisiana submitted proposed Ama and Union Diversion 
feasibility studies for inclusion in the Section 7001 report that 
Congress will soon receive. The National Wildlife Federation urges 
Congress to authorize these proposed studies, and to examine outcomes 
from other ongoing studies to improve overall flood control, 
navigation, and ecosystem restoration of the lower Mississippi River. 
We also encourage an increased federal investment in and commitment to 
the goals of the Louisiana Coastal Area program, as we work to restore 
a coastal ecosystem that is facing some of the highest rates of sea 
level rise and subsidence in the world.
Restoring America's Everglades
    The National Wildlife Federation appreciates the committee's 
continued support for efforts to restore America's Everglades. The 
``River of Grass'' is an ecological treasure, supporting a vast array 
of threatened and endangered plants and wildlife. It provides the 
drinking water for 8 million people and is a vital source of Florida's 
commercial and recreational fishing, outdoor recreation, and tourism. 
Located along the southern tip of Florida, the Everglades' network of 
mangroves and wetlands, along with the surrounding coral reefs and 
seagrasses, function as the first line of defense against hurricanes, 
storms, and flooding, reducing storm surges and absorbing floodwaters.
    The best tool we have to make Florida more resilient is Everglades 
restoration. Centuries of draining Florida's wetlands and altering the 
flow of water have limited water management flexibility in parts of 
South Florida, causing recurring sea grass die-offs and toxic algae 
outbreaks that wreak havoc on Florida's economy and wildlife. Key 
Everglades restoration projects aim to help capture and clean water 
from Lake Okeechobee and send it south to the Everglades and Florida 
Bay, where it is desperately needed. This will reduce the volume and 
frequency of damaging discharges and toxic algae outbreaks in Florida's 
delicate coastal estuaries.
    The Comprehensive Everglades Restoration Plan, authorized in WRDA 
2000, laid out a roadmap to restore America's Everglades, with both the 
federal government and the state responsible for 50 percent of project 
costs. In recent years, the state of Florida has funded Everglades 
restoration at more than $200 million a year, while federal 
appropriations have significantly lagged behind. In order to maximize 
the benefits of, and advance the progress made towards, restoring 
America's Everglades, the federal government must invest at least $200 
million in Army Corps Everglades restoration efforts each year. In 
addition to robust, consistent funding for Everglades restoration to 
proceed, it will be important that component projects with the 
Comprehensive Everglades Restoration Plan are not prevented from 
advancing due to any new construction starts limitations.
Brandon Road Lock and Dam Project
    The National Wildlife Federation has worked for many years on 
protecting the Great Lakes and all of our nation's waters from the 
ongoing threat and harm of aquatic invasive species, specifically the 
invasive Asian carp. Asian carp have devastated iconic fisheries 
throughout the country and now threaten the Great Lakes and their 
connected inland lakes and rivers, too. Asian carp are not just a Great 
Lakes problem, or a Mississippi River problem, or a Kentucky Lake 
problem. They are an American problem, and it will take a united 
national effort to stop them.
    Specifically in the Great Lakes, invasive Asian carp will undermine 
fisheries throughout the Great Lakes region--as filter feeders with no 
native predators, they reproduce rapidly and consume the base of the 
food chain, starving out forage, native and sport fish. Silver carp are 
a safety threat to boaters and anglers, leaping out of the water when 
disturbed by boat motors, and even paddles, threatening tourism-reliant 
communities.
    The Corps submitted a Chief's Report for the Brandon Road Lock and 
Dam project in the summer of 2019. This Lock is about 50 miles south of 
Chicago and represents our best opportunity to provide a long-term 
structural deterrent to Asian carp. The Brandon Road plan would install 
a gauntlet of smart technologies to stop invasive Asian carp while 
allowing commercial navigation to continue. All the Great Lakes 
governors and the Ontario and Quebec premiers have signed on to a 
resolution supporting the plan. In addition, over 200 hunting, fishing, 
outdoor recreation industry and conservation organizations support the 
Brandon Road plan. This project is essential to help protect the 
fishery, the economy and quality of life in the Great Lakes region.
   4. Congress Should Ensure that the Corps Effectively Analyzes and 
    Mitigates for the Adverse Impacts of Corps Projects on Fish and 
                                Wildlife
    For decades, Congress has required mitigation for adverse impacts 
to fish and wildlife caused by Corps water resources projects. Congress 
established detailed planning requirements to ensure effective 
mitigation in WRDA 2007, where it also clearly stated that the 
mitigation requirements must be met whenever the Corps selects a 
project alternative in ``any report.'' \34\ The Act's legislative 
history reiterates that the ``increased mitigation requirements apply 
to all new studies and any other project that must be reevaluated for 
any reason.'' \35\ Rather than follow these clear directives, the Corps 
has explicitly limited its compliance with the WRDA 2007 mitigation 
requirements to reports submitted to Congress for authorization.\36\
---------------------------------------------------------------------------
    \34\ 33 U.S.C.  2283(d)(1) (``the Secretary shall not submit any 
proposal for the authorization of any water resources project to 
Congress in any report, and shall not select a project alternative in 
any report, unless such report contains'' the detailed mitigation plan 
required by WRDA 2007) (emphasis added).
    \35\ Congressional Record Senate, S11981 September 24, 2007 
(Consideration of Water Resources Development Act of 2007--Conference 
Report, Senator Barbara Boxer Environment and Public Works Committee 
Chair).
    \36\ U.S. Army Corps of Engineers, Implementation Guidance for 
Section 2036 (a) of the Water Resources Development Act of 2007 (WRDA 
07)--Mitigation for Fish and Wildlife and Wetlands Losses (August 31, 
2009). The Corps' interpretation violates the most fundamental 
principles of statutory construction by: (1) ignoring an entirely 
independent clause in the statute (``and shall not select a project 
alternative in any report''); and (2) failing to give meaning to the 
adjective ``any'' that qualifies the term ``report'' in that 
independent clause. See, e.g., TRW Inc. v. Andrews, 534 U.S. 19, 31 
(2001); U. S. v. Nordic Village, 503 U.S. 30, 36 (1992); Perrin v. 
United States, 444 U.S. 37, 42 (1979); United States v. Manasche, 348 
U.S. 528, 538-539 (1955).
---------------------------------------------------------------------------
    To assist the Corps in properly evaluating fish and wildlife 
impacts and needed mitigation, the Corps is also required to consult 
with the U.S. Fish and Wildlife Service on fish and wildlife impacts 
from individual Corps projects and on opportunities for mitigating any 
such impacts. State fish and wildlife agencies are also encouraged to 
consult with the Corps on project-specific impacts and mitigation 
opportunities. The Corps is required to give ``full consideration'' to 
these expert recommendations.
    Regrettably, the Corps often fails to adhere to these important 
requirements, leading to projects and long-term project operations that 
cause profound harm to the nation's fish and wildlife. For example, 
both of these requirements were ignored during the Corps' recent update 
to the Apalachicola-Chattahoochee-Flint (ACF) water control manual with 
devastating consequences.
    For decades the Corps' operation of the ACF system has starved 
Florida's vitally important Apalachicola River and Bay of essential 
freshwater flows. The impacts have been so devastating that the state 
of Florida advised Congress that ``the ecosystem and, indeed, the very 
way of life for generations of Floridians will be devastated'' if flow 
patterns that mimic the historic flow regime are not restored for the 
Apalachicola River.\37\ However, instead of improving conditions in the 
Apalachicola River and Bay, the Corps' new water control manual will 
make the already dire conditions even worse by holding significantly 
more water back for upstream water supply, initiating drought 
restrictions earlier and more frequently, and severely restricting 
flows to the Apalachicola River more often and for longer periods of 
time.\38\
---------------------------------------------------------------------------
    \37\ Testimony of Jonathan P. Steverson, Executive Director of the 
Northwest Florida Water Management District, ``Effects of Water Flows 
on Apalachicola Bay: Short and Long Term Perspectives'', United States 
Senate Committee on Commerce, Science and Transportation Field Hearing, 
August 13, 2013 at 4.
    \38\ The excessive damage that would be caused by the new water 
control manual has forced the state of Alabama and conservation 
organizations, including the National Wildlife Federation, to challenge 
the manual in court.
---------------------------------------------------------------------------
    Many of the problems with the new ACF water control manual could 
have been avoided had the Corps addressed the important recommendations 
made by the U.S. Fish and Wildlife Service in the project's Final Fish 
and Wildlife Coordination Act Report. These recommendations included 
utilizing a different approach for analyzing impacts and for developing 
alternatives that would reduce the adverse environmental and wildlife 
impacts without jeopardizing other authorized purposes.
    In this update, the Corps also refused to adopt a mitigation plan 
for ``substantially adverse'' damage to fish and aquatic resources in 
the Chattahoochee River. The Corps argued that it is not required to 
mitigate for this significant harm because the new water control manual 
does not have to be submitted to Congress for approval.
    To address these problems, Congress should: (1) clarify the types 
of project studies that trigger the civil works mitigation requirements 
to ensure application of these requirements as Congress unquestionably 
intended; and (2) direct the Corps to evaluate and develop mitigation 
for fish and wildlife resources in a manner that is consistent with 
recommendations developed by federal and state fish and wildlife 
experts pursuant to the Fish and Wildlife Coordination Act that derive 
from the special expertise of these experts (e.g., methods and metrics 
for evaluating fish and wildlife impacts and needed mitigation).
 5. Congress Should Modernize the Corps' Benefit-Cost Analysis Process 
    to Better Account for Project Costs and Benefits, Including by 
                   Accounting for Ecosystem Services
    The Corps' benefit-cost analysis process is biased towards the 
approval of costly, large-scale structural projects even when less 
costly, natural infrastructure or nature-based solutions are available. 
This bias can lead to the construction of projects that significantly 
and unnecessarily undermine resilience.
    Among many other problems, Corps cost analyses do not account for 
costs associated with detailed technical design specifications; full 
life-cycle costs; or costs associated with delays due to lack of 
funding and/or sub-optimal funding streams. As a result, Corps cost 
estimates can dramatically understate the actual costs to both 
taxpayers and non-federal sponsors to construct a project. Importantly, 
Corps cost analyses also fail to account for the costs of lost 
ecosystem services.

                      Examples of Projects With Grossly Inaccurate Original Cost Estimates
----------------------------------------------------------------------------------------------------------------
                                                       Original Estimate     2010 Estimate        Percentage
                       Project                            (millions)          (millions)           Increase
----------------------------------------------------------------------------------------------------------------
Louisiana Hurricane Protection......................                $85                $738                768%
Sacramento Flood Protection.........................                $57        $270 to $370        374% to 549%
Rio de Flag River...................................                $24                 $85                254%
Monongahela Locks & Dam.............................               $556              $1,700                206%
Olmstead Lock & Dam.................................               $775              $2,124                174%
Folsom Dam Flood Gates..............................               $215        $450 to $650        109% to 202%
McAlpine Locks & Dam................................               $220                $427                 94%
Marmet Lock.........................................               $223                $406                 82%
South Florida Ecosystem Restoration.................             $1,540              $1,970                 28%
Oregon Inlet Jetty (annual costs)...................               $4.5                $5.5                 22%
----------------------------------------------------------------------------------------------------------------

    A 2013 GAO report found that at least two-thirds of the 87 Corps 
flood control projects budgeted for construction between FY2004 and 
FY2012 experienced cost increases. One project cost $10 million more 
than the authorized estimate because the construction site could not be 
accessed without carrying out major rehabilitation of a tunnel access 
point. The cost of a pumping plant required by a second project 
increased from the original estimate of $800,000 to $10.7 million due 
to design changes required to handle the actual site conditions.\39\
---------------------------------------------------------------------------
    \39\ Government Accountability Office, Army Corps of Engineers, 
Cost Increases in Flood Control Projects and Improving Communication 
with Nonfederal Sponsors, GAO-14-35 (December 2013) at 11, 14, 15.
---------------------------------------------------------------------------
    The Corps' benefit analyses are equally problematic. They fail to 
account for benefits resulting from increases in ecosystem services; 
often lack justifications for claimed benefits; and include benefits 
that would be derived from activities that are contrary to law, policy, 
and sound resource management. For example, Corps benefit analyses may 
include: (1) agriculture and development benefits created by draining 
wetlands; (2) development benefits resulting from new or intensified 
use of floodplains or wetlands, including future induced development; 
(3) flood damage reduction benefits from new or intensified use of 
lands subject to flood easements or permanent conservation easements; 
and (4) benefits from draining wetlands on federally owned lands.
    Corps benefit-cost analyses are also plagued by invalid 
assumptions, inaccurate data, and basic math errors. The Government 
Accountability Office (GAO) found that a number of major Corps studies 
``understated costs and overstated benefits, and therefore did not 
provide a reasonable basis for decision-making'' because they ``were 
fraught with errors, mistakes, and miscalculations, and used invalid 
assumptions and outdated data.'' \40\ GAO also found that these 
problems were pervasive at the Corps, concluding that ``the Corps' 
track record for providing reliable information that can be used by 
decision makers . . . is spotty, at best.'' \41\ In one case, the 
Department of the Army Inspector General found that the Corps had 
deliberately and intentionally manipulated data to achieve a positive 
benefit-cost ratio that would support large scale construction of 
longer locks on the Upper Mississippi River.\42\
---------------------------------------------------------------------------
    \40\ Government Accountability Office (GAO-06-529T), Corps of 
Engineers, Observations on Planning and Project Management Processes 
for the Civil Works Program, March 2006.
    \41\ Id.
    \42\ U.S. Department of the Army Inspector General, Report of 
Investigation, Case 00-019, 2000, at 6.
---------------------------------------------------------------------------
    The many problems with Corps benefit-cost analyses may result in 
the approval of projects whose actual costs and benefits bear little to 
no relation to the benefit-cost ratio used to obtain congressional 
approval. To help the Corps accurately account for project costs and 
benefits, Congress should modernize the criteria used to assess costs 
and benefits--and level the playing field for natural infrastructure--
including by requiring the Corps to account for increased ecosystem 
services as a project benefit and lost ecosystem services as a project 
cost.
    6. Congress Should Increase the Corps' Capacity to Improve the 
Resilience of Water Resources Infrastructure, Including By Taking Full 
                   Advantage of Existing Authorities
    Many existing programs and projects can be modernized to increase 
resilience while still satisfying authorized project purposes. Changes 
can be initiated through supplemental environmental impact statements, 
general or limited reevaluation studies, or through congressional 
adoption of a ``study resolution'' that allows the Corps to examine a 
particular water resources problem in a specific area that has already 
been investigated.
    Water control manuals, operating plans, and operations and 
maintenance activities can readily be reevaluated through the National 
Environmental Policy Act (NEPA) review process--and many of these 
activities likely require a supplemental review as a matter of law. At 
a minimum, these types of studies should be used to ensure that Corps 
projects do not inadvertently increase flood risks, divert flood waters 
onto other communities, or create ecosystem-wide harm to vital natural 
systems.
    For example, the NEPA process should be used to evaluate 
alternatives to the Corps' use of river training structures to reduce 
dredging costs in the middle Mississippi River to reduce this project's 
inadvertent impacts. The Corps' extensive use of river training 
structures to maintain navigation in the middle Mississippi has 
increased flood heights by 6 to 15 feet in this portion of the river 
and destroyed vital fish and wildlife habitat.\43\ Importantly, 
navigation can be readily maintained even if many of these structures 
would modified or removed to reduce flood risks.
---------------------------------------------------------------------------
    \43\ The middle Mississippi River is the 195-mile segment between 
the confluence of the Missouri River (located north of St. Louis, MO) 
and the confluence of the Ohio River (located near Cairo, IL). The 
middle Mississippi is the first section of free-flowing River below the 
River's lock and dam navigation system. The middle Mississippi, like 
the rest of the River, has been severely degraded by the Corps' 
approach to maintaining navigation on the river.
---------------------------------------------------------------------------
    Updating out-of-date water control manuals can improve the health 
of the environment and reduce flood risks. Many water control manuals 
have not been updated in decades and as a result, they cannot account 
for current needs or environmental conditions, including changes in 
rainfall, flood levels, snowmelt patterns, and land use patterns. 
Outdated plans also fail to use modern scientific tools or state-of-
the-art management approaches that can both ensure effective operation 
of federal projects and protect the environment. The impacts can be 
devastating.
    Outdated operating procedures and flawed planning aggravated 
already horrific flooding in Houston during Hurricane Harvey. During 
Harvey, the Corps of Engineers released at least 13,000 cubic feet of 
water per second from the Addicks and Barker reservoirs to reduce the 
risks of overtopping and to protect homes upstream.\44\ But those same 
releases caused extensive flooding downstream in Buffalo Bayou, 
flooding some 4,000 homes that would otherwise have remained dry 
despite Harvey's onslaught.\45\ More than 5,000 of the 14,000 homes 
located inside the reservoirs also flooded. The in-reservoir homes were 
built on some 8,000 acres of land that the Corps opted not to buy when 
the reservoirs were constructed in the 1940s, even though the Corps 
knew the land would flood during large flood events. At least 4,000 
homes were built inside the reservoirs since Tropical Storm Allison 
devastated large areas of Houston in 2001.\46\
---------------------------------------------------------------------------
    \44\ Preliminary U.S. Geological Survey data suggests that the 
actual releases were much higher than what was supposed to be a maximum 
release of 13,000 cubic feet per second because the gages measuring the 
releases were not working properly (https://af.reuters.com/article/
africaTech/idAFL2N1LQ0IL).
    \45\ KHOU.com, Houston Texas, Buffalo Bayou to remain at record 
level; Barker, Addicks reservoirs have peaked (September 1, 2017) 
(http://www.khou.com/weather/hurricanes/hurricane-harvey/controlled-
release-of-barker-addicks-reservoirs-to-impact-thousands/468348109).
    \46\ Al Shaw, Lisa Song, Kiah Collier, Neena Satija, How Harvey 
Hurt Houston, in 10 Maps, ProPublica (January 3, 2018) (https://
projects.propublica.org/graphics/harvey-maps).
---------------------------------------------------------------------------
    Updating the management plans for these reservoirs and quickly 
completing critical structural upgrades would help protect Houstonians 
during future flood events.\47\ These reservoirs have been classified 
as two of the six most dangerous flood control dams in the United 
States for many years. Storage capacity could be restored by removing 
silt and sediment that have accumulated over the last 60-plus years of 
operation, and public safety would be improved by upgrading gages and 
other tools that track the quantity of water released from the 
reservoirs and by ensuring that the public is fully aware of the 
potential for flood risks from both typical and emergency reservoir 
operations.
---------------------------------------------------------------------------
    \47\ A 2009 master plan limits releases from the reservoirs to 
2,000 cubic feet per second. http://www.swg.usace.army.mil/Portals/26/
docs/2009%20Addicks%20and%20Barker%20MP.pdf at 8.
---------------------------------------------------------------------------
    The importance of improving reservoir management and safety is not 
limited to Houston. The Corps operates 707 dams that it owns across the 
country, operates 75 hydropower facilities, and manages flood control 
operations at 134 dams constructed or operated by other federal, 
nonfederal, or private agencies. Many of these dams have operating 
plans that date back 50 years, including many of central California's 
35 federal flood control dams where outdated plans are damaging rivers 
and wildlife and threatening community safety.
    Updating operations and maintenance plans can also produce 
significant improvements to river health and resilience. For example, 
the vast majority of operations and maintenance plans for the 
Mississippi River navigation system are more than 40 years old.\48\ As 
a result, the Corps continues to carry out the same operation and 
maintenance activities that have devastated the ecological health of 
the Mississippi River and the species that rely on it. These outdated 
operations and maintenance activities are destroying critical 
backwater, side channel, wetlands, and instream habitats; altering 
water depth; destroying bathymetric diversity; causing nonnative 
species to proliferate; and severely impacting native species.\49\ 
Modern approaches exist for operating this system that would both 
maintain a vibrant navigation system and improve the health of the 
river.
---------------------------------------------------------------------------
    \48\ As a result of extensive pressure, the Corps recently 
reassessed some, but not all, of its management activities for a 
segment of that system known as the Middle Mississippi River.
    \49\ U.S. Geological Survey, Ecological Status and Trends of the 
Upper Mississippi River System 1998: A Report of the Long Term Resource 
Monitoring Program (April 1999); Johnson, B. L., and K. H. Hagerty, 
editors. 2008. U.S. Geological Survey, Status and Trends of Selected 
Resources of the Upper Mississippi River System, December 2008, 
Technical Report LTRMP 2008-T002 (Upper Midwest Environmental Sciences 
Center, La Crosse, Wisconsin).
---------------------------------------------------------------------------
    Where multiple studies are authorized or required for a river or 
coastal system, those studies could be used to inform a comprehensive 
review of potential improvements to the system. For example, multiple 
planning process are underway, should be initiated through new 
environmental reviews, or are authorized for the Mississippi River, 
including:

    (a)  Studies examining whether and how the Corps should dispose 
(i.e., transfer ownership to a non-federal interest/recommend removal) 
of the Upper St. Anthony Falls, Lower St. Anthony Falls and Lock and 
Dam 1--these studies are underway.
    (b)  Updates to the water control manuals, and required 
environmental impact statements, for the Upper Mississippi River lock 
and dam system--these studies should be initiated through a new 
environmental review with a goal of establishing a more natural 
hydrologic regime for the River that includes regular periods of lower 
flows to allow regeneration of wetlands and wildlife habitat.
    (c)  A new update to the Corps' navigation maintenance actions for 
the middle Mississippi River between St. Louis, MO and Cairo, IL--this 
study should be initiated through a new environmental review with a 
goal of significantly reducing flood height increases caused by 
excessive construction of river training structures designed to reduce 
navigation dredging costs.
    (d)  An assessment of alternative management regimes for the Old 
River Control Structure, which controls the amount of water diverted 
from the Mississippi River to the Atchafalaya Basin--this study was 
authorized in WRDA 2018.
    (e)  A study examining whether to increase the height of 
significant portions of the Mississippi Rivers & Tributaries Project 
mainline levee system--this study is underway.
    (f)  Lower Mississippi River Restoration feasibility studies that 
will look at restoration projects for eight separate reaches--these 
studies were authorized in WRDA 2018.
    (g)  Assessment of projects to restore Louisiana's coastal 
wetlands, including through Mississippi River sediment diversions--
these studies are underway.

    These studies could--and should--be used to inform a comprehensive 
plan for increasing the resilience of the Mississippi River and its 
extensive water resources infrastructure. This could be achieved by 
evaluating and adopting alternatives that protect and restore the 
natural functions of the Mississippi River, as required by the National 
Water Resources Planning Policy. This policy, which was established in 
WRDA 2007, requires that ``all water resources projects'' are to 
protect the environment by ``protecting and restoring the functions of 
natural systems and mitigating any unavoidable damage to natural 
systems.'' \50\
---------------------------------------------------------------------------
    \50\ 42 U.S.C 1962-3 (established by  2031(a) of the Water 
Resources Development Act of 2007, and immediately applicable to all 
water resources projects).
---------------------------------------------------------------------------
    Congress should increase the Corps' capacity to improve the 
resilience of the nation's water resources infrastructure by 
establishing a Directorate of Ecological Services within the Office of 
the Chief of Engineers tasked with ensuring that the Corps takes full 
advantage of existing programs, authorities, and operations to use 
natural systems to protect communities from floods, minimize 
expenditures for emergency response and rebuilding, improve wildlife 
habitat, and strengthen the outdoor-based economy. This Directorate 
should have significant budgeting authority.
                               Conclusion
    The National Wildlife Federation calls on the committee and 
Congress to enact the common sense reforms outlined in this testimony 
that would promote the resilience of the nation's waters and water 
resources infrastructure. We also respectfully ask the committee to 
continue to advance critical ecosystem restoration projects, defend the 
integrity of the nation's vitally important environmental laws, and 
oversee the Corps compliance with the letter and spirit of these laws 
when planning, constructing, and operating projects.

    Mrs. Napolitano. Thank you very much, Ms. Samet. Thank you.
    Yes, Ms. Ufner, you are recognized for 5 minutes.
    Ms. Ufner. Good morning, Chairwoman Napolitano, Chairman 
DeFazio, Ranking Member Westerman and members of the 
subcommittee. I am honored to testify before you today on the 
potential next steps for the Water Resources Development Act 
that may be considered by Congress next year.
    My name is Julie Ufner. I am president of the National 
Waterways Conference, which represents a full spectrum of water 
infrastructure stakeholders, many of whom are non-Federal 
sponsors of U.S. Army Corps of Engineers Civil Works projects 
and are responsible for significant financial commitments for 
construction and maintenance of those projects.
    We appreciate the subcommittee holding this hearing, 
recognizing the critical importance of resilient infrastructure 
so that these investments can deliver their benefits as 
intended. As we look to how to accomplish this goal, we would 
respectfully suggest that any solutions included in WRDA must 
be built upon the experiences of those on the front lines, on 
the ground, so to speak, including flood control districts, 
levee boards, emergency managers and port operators, to name a 
few.
    As the subcommittee works to understand how to make 
infrastructure more resilient, a common understanding of the 
term ``resilient'' ought to be a first step in the process. 
Resilience is not a rigid, monolithic set of standards that can 
be easily applied to every situation in every place. It is not 
a one-size-fits-all solution. Rather, resiliency is a broad 
concept. It can be achieved by choosing among an array of 
viable solutions developed through careful consideration of 
feasible alternatives that have been rigorously and 
scientifically examined. The ultimate goal is to protect local 
communities and infrastructure.
    As the committee knows, the Corps is required to go through 
an extremely extensive assessment in its planning process. As 
described in more detail in our written testimony, it can be 
difficult to quantify multiple project benefits, including 
establishing the value of nature-based alternatives in the 
analysis. You have heard other witnesses express similar 
concerns.
    As described in our written testimony, NWC has expressed 
serious concerns about the attempt to update the P&G as 
directed by WRDA 2007. Given that the resulting work products 
from the ill-fated effort are fundamentally flawed, we would 
recommend a study by the National Academy of Sciences to 
provide better tools to quantify the multiple benefits that can 
be reaped.
    It is important to remember that Civil Works projects are 
developed to address a local problem. The planning process is 
designed to analyze and formulate solutions to that problem. 
Any suggestion to mandate a particular course of action upfront 
ought to be rejected out of hand. Moreover, any attempt to 
disregard the priorities of the non-Federal sponsor and the 
communities that they represent must not be supported.
    Two recent studies, the Norfolk Coastal Storm Risk 
Management Study and the Yolo Bypass detailed in my testimony, 
provide examples on how to better address multiple purpose 
benefits. This includes better quantification and demonstration 
of all benefits accruing from these projects and better 
utilizing non-Federal sponsor resources, capabilities and 
knowledge. We can likewise reap multiple benefits in ongoing 
maintenance activities.
    The Little River drainage system in southeast Missouri has 
taken a proactive approach to long-term project management by 
planting native and warm season grasses in its drainage 
infrastructure, enhancing environmental benefits as part of its 
flood control project.
    In conclusion, it must be remembered that we are in a 
resource-constrained environment. Before good ideas are 
required, we must be sure that these approaches work, and that 
the Federal taxpayer and the non-Federal sponsor can afford to 
bear the cost. However we define the term ``resiliency,'' we 
need to define it together, to make sure that it is workable 
and viable on the ground. We look forward to doing this with 
you in the next WRDA bill.
    Thank you for your time.
    [Ms. Ufner's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Julie A. Ufner, President, National Waterways 
                               Conference
    Thank you, Chairwoman Napolitano, Ranking Member Westerman, and 
members of the subcommittee for the opportunity to testify on the 
``Concepts for the Next Water Resources Development Act: Promoting 
Resiliency of our Nation's Water Resources Infrastructure.''
    My name is Julie Ufner. I am President of the National Waterways 
Conference, Inc. (NWC or Conference). Prior to coming to the 
Conference, I served as the Associate Legislative Director for 
Environment, Energy and Land Use at the National Association of 
Counties (NACo) for the past 17 years. NWC would like to thank both 
Chairwoman Napolitano and Ranking Member Westerman for their 
leadership, along with this subcommittee for its long tradition of 
cooperation and collaboration in addressing the nation's critical water 
resources needs. On behalf of NWC, we are pleased to weigh in on the 
importance of a robust water resources infrastructure for our nation 
and to address potential next steps for a Water Resources Development 
Act (WRDA) that may be considered by Congress in 2020.
                               About NWC
    Established in 1960, NWC is the only national organization to 
advocate in favor of national policy and laws that recognize the vital 
importance of America's water resources infrastructure to our nation's 
well-being and quality of life. Supporting a sound balance between 
economic and human needs and environmental and ecological 
considerations, our mission is to effect common sense policies and 
programs, recognizing the public value of our nation's water resources 
and their contribution to public safety, a competitive economy, 
national security, environmental quality and energy conservation.
    Conference membership is comprised of the full spectrum of water 
resources stakeholders, including flood control associations, levee 
boards, waterways shippers and carriers, industry and regional 
associations, port authorities, shipyards, dredging contractors, 
regional water supply districts, hydropower producers, engineering 
consultants and state and local governments. Many of our members are 
non-federal sponsors of U.S. Army Corps of Engineers (USACE or Corps) 
civil works projects, responsible for significant financial commitments 
for the construction and maintenance of these projects. They work 
diligently and collaboratively with our federal partners to ensure the 
nation can reap the multiple benefits provided by these investments. To 
that end, our membership is keenly interested in the enactment of 
comprehensive water resources legislation and we look forward to 
working with the Committee as it moves forward in this process.
    Water resources infrastructure helps keep communities safe and 
               strengthens national and local economies.
    Across the country, our water resources infrastructure provides 
life-saving flood control, needed water supplies, valuable shore 
protection, water-based recreation, environmental restoration and 
hydropower production, all of which are essential to our economic well-
being. Moreover, waterways transportation is the safest, most energy-
efficient and environmentally sound mode of transportation.
    We appreciate the subcommittee holding this hearing, recognizing 
the critical importance of a ``resilient'' infrastructure, so that 
these investments can deliver their benefits as intended. As Congress 
and stakeholders grapple with how to accomplish this goal, in view of 
the lessons learned, and indeed that we continue to learn, from recent 
devastating floods, we would respectfully suggest that any solutions 
included in WRDA must be built upon the experiences of those on the 
front lines, on the ground, including flood control districts, levee 
boards, emergency managers, port operators, to name a few. A common 
understanding of ``resilience'' ought to be a first step in this 
discussion. In that way, local communities, stakeholders, non-federal 
sponsors and federal leaders will be better poised to address local 
infrastructure needs. We know from experience that where infrastructure 
is in place, communities tend to experience a lesser degree of physical 
harm and economic damage. Our shared goal ought to be that ensuring 
appropriate investments are made up front to prevent, or at least 
lessen, the need for disaster relief after the fact. Not only will such 
an approach save taxpayer money, it will also mitigate the difficult 
decisions later on how to address devastation, and whether and where to 
rebuild. Stated another way, an ounce of prevention is worth a pound of 
cure. The cycle we are in--failing to invest adequately at the front 
end only to require significant disaster relief funding later--is 
simply unsustainable.
    A good example of this approach can be gleaned from the Mississippi 
River and Tributaries (MR&T) project that was authorized in 1928 after 
the devastating floods in 1927 to provide a comprehensive approach to 
flood control and ensure an effective navigation channel. The project's 
four major features include levees and floodwalls; channel improvement 
and stabilization; tributary basin improvements and a system of 
floodways, that work together to provide flood control and navigation 
and foster environmental protection and enhancement. To date, the MR&T 
has prevented more than $1.27 trillion in flood damages since 1928, $80 
for every dollar invested. In considering the value of this investment, 
it's essential to remember what is being protected by this critical 
infrastructure--homes, schools, fire and police stations, hospitals, 
power plants, oil refineries, highways, rail, ports, and cropland.
    As the nation considers how to make its infrastructure more 
resilient, some context and background are helpful. The Corps is 
responsible for the development, maintenance and oversight of much of 
the nation's water resources infrastructure through its Civil Works 
program. This includes flood risk management, navigation, ecosystem 
restoration, hydropower, water supply, recreation, and environmental 
stewardship, as well as providing emergency response services. As part 
of the project development process, the Corps includes environmental 
decision-making primarily in the planning phase. The planning program 
provides a structured approach to the formulation of projects that is 
responsive to local, state and national needs, premised upon the 
project's contribution to national economic development while 
protecting the environment. In addition to the complex, and often 
lengthy internal review process, Corps' studies are also subject to 
extensive external reviews, including under the National Environmental 
Protection Act, at the first stage of the process.
    The concept of resilience has taken on greater significance in the 
Corps' planning program. It frames our aspirations for managing our 
water resources. It allows communities to enhance the quality of lives 
of our families and the viability of our businesses and industries. Key 
to this concept--resilience is not a rigid, monolithic set of standards 
that can be easily applied to every situation and every place. Rather, 
it can be achieved by choosing among an array of viable solutions 
developed through careful consideration of practicable alternatives. 
The feasibility report produced at the end of the planning process is 
the investment prospectus for a tailored project that will meet the 
needs--environmental, financial and safety--of the community that 
participates in the feasibility study. Congress maintains the power to 
authorize the ultimate investment and make a commitment to its 
implementation.
    There has been an increased call for the use of nature-based and 
natural infrastructure alternatives to be included in the planning 
process. To be sure, the process should include consideration of a full 
array of viable solutions. Federal investment decisions are grounded 
upon the net economic benefits to the nation, using a cost-benefit 
analysis, as set forth in the 1983 Principles and Guidelines (P&G) 
which governs project planning and development. NWC has been a vocal 
critic of the attempted update to the P&G as directed in WRDA 2007, 
resulting in the Principles and Requirements and Implementing 
Guidelines, as those products are undisciplined, and lack any degree of 
consistency and predictability needed for the development of proposals 
to guide federal investment decisions. A key area of concern is the 
inability to quantify multiple project benefits, including establishing 
the value of nature-based alternatives in that analysis.
    In order to achieve multiple benefits from the civil works 
portfolio, we would recommend a rigorous, disciplined, scientific-based 
examination of this issue. Going forward, achieving water resources 
resilience will demand that our planners adopt new technical approaches 
to forecast water resources needs and problems and identify viable 
alternatives. In addition to nature-based solutions, the planning 
process ought to consider water resources as an integrated system, 
where multiple purposes can be addressed and multiple benefits 
achieved. To get there, we must engage in a productive discussion of 
how the basic objectives of economics, environmental protection, 
regional development and social well-being can address resilience 
concerns, and how that analysis can be grounded in a disciplined, 
thoughtful, predictable process. WRDA is, of course, not the only 
platform for this discussion. We are encouraged by work going on at the 
Corps' Engineer Research and Development Center to develop a method for 
evaluating and quantifying benefits beyond the scope of the traditional 
benefit cost ratio used in project formation.
    We would like to offer a few examples to illustrate the discussion 
above.
    The Sacramento Area Flood Control Agency (SAFCA) has been working 
to obtain authority to widen the Yolo Bypass, which was originally 
built in 1917. The Yolo Bypass was constructed as a single-purpose 
federal flood facility which has evolved into a multipurpose system 
that deals with issues such as flood control, water supply, ecosystem 
restoration, drainage and agricultural enhancements. Since 
construction, the region has had eight events larger than the system 
was designed to handle. The Corps recently conducted a feasibility 
study on the widening project but was unable to justify a federal 
interest based on the current cost-benefit analysis, which only looks 
at flood protection, rather than the multipurpose benefits of a 
systemwide approach.
    The Yolo Bypass proposal--a comprehensive, system-wide, multi-
purpose approach designed to protect a sizable population at risk--at 
its core embodies the concept of resiliency. Moreover, this approach is 
integral to the Corps' Revolutionize civil works initiative. A review 
of the lessons learned throughout the study process offers some 
suggestions for improvement, including better quantification and 
demonstration of all benefits accruing from these projects; improved 
quantification of multi-purpose benefits as well as improved 
quantification of urban flood protection benefits, taking into 
consideration such things as benefits to economically distressed areas; 
and better utilizing non-federal sponsors' resources, capabilities, and 
knowledge. Building upon provisions in the most recent WRDAs, non-
federal partners' technical, project management and other capabilities 
must be better recognized and utilized.
    The recently issued Chief's Report on the Norfolk Coastal Storm 
Risk Management Study offers another example of achieving multiple 
benefits and working collaboratively with the local community. The 
study is a comprehensive investigation of flood risk management 
problems and solutions in the City of Norfolk which came about as a 
result of findings from a larger effort, the North Atlantic Coast 
Comprehensive Study, which was authorized by Congress after Hurricane 
Sandy in October 2012, to identify and address flood risks of 
vulnerable coastal populations in that region. The Chief's Report 
recommends $1.4 billion in investments in the City of Norfolk, 
providing structural, nonstructural, and natural and nature-based 
solutions to reduce storm damages in the event of coastal storms, while 
accounting for sea level change.
    The Corps partnered with the city to assess not only how to reduce 
coastal storm risk, but also to build resiliency by implementing 
strategic approaches that address frequent tidal flooding risk, major 
storms and the impact on residents and economic activity. A few key 
takeaways from the process can instruct future planning efforts. First, 
quantifying green infrastructure was difficult, as discussed 
previously; further research is needed to justify the inclusion of some 
options in a federal project. In response to this challenge, the city 
intends to move forward on community resilience efforts on a local 
scale, addressing needs beyond the scope of the Corps study. For 
instance, in addition to the infrastructure improvements proposed in 
the study, the city plans to use nonstructural measures such as 
increased freeboard requirements for new structures and floodproofing. 
Equally important is the recognition that coastal resilience planning 
and preparedness do not end with the Chief's Report, but must continue 
to evolve, in a proactive rather than reactive approach.
    It's important to note that investments in infrastructure include 
not only new construction, but also include both maintenance and 
recapitalization of existing infrastructure. Starting with a blank 
slate to develop a solution to a water resources problem better lends 
itself to incorporate many features into the project. We shouldn't, 
however, overlook opportunities to incorporate environmental benefits 
into ongoing maintenance opportunities.
    By way of example, The Little River Drainage District (LRDD) in 
Southeast Missouri has taken a proactive approach to long-term project 
management by partnering with the Missouri Department of Conservation 
(MDC) to maximize the environmental benefits of projects by planting 
native and warm season grasses that provide increased wildlife habitat, 
superior erosion control (added resiliency), and cost effective/
environmentally-friendly yearly maintenance by utilizing fire rather 
than mechanical mowing. Within this partnership between LRDD and MDC, 
the project purpose, flood control and drainage, will continue to be 
paramount to the overall mission of the partnership. Nonetheless, the 
partnership has yielded a win-win situation, by enhancing the 
resiliency of flood control and drainage projects along with providing 
a very important secondary benefit of environmental enhancements to 
fully maximize the benefits of the project footprint.
    The partnership's success hasn't been without challenges though. 
There is concern that under traditional USACE review processes, the 
focus is on mitigation and/or preservation rather than on enhancing the 
multiple benefits to be accrued by the overall project footprint. These 
processes could be revised to allow inclusion of additional benefits as 
part of routine and ongoing maintenance, and not treating the process 
to add benefits as a new project.
    Since the Water Resources Reform and Development Act of 2014, there 
has been a heightened focus on the beneficial use of dredged material, 
recognizing the mutual benefits that can be accrued between navigation 
and ecosystem restoration. In fiscal year 2019, the USACE New Orleans 
District worked to maintain the authorized channel dimensions on the 
Mississippi River Ship Channel during months-long high water, yielding 
87 million cubic yards (mcy), well above the 51 mcy average. The 
District beneficially used 25.6 mcy of dredged sediment creating 
approximately 2,048 acres of wetlands below Venice, Louisiana, in the 
environmentally sensitive bird's foot delta. These sediment recycling 
efforts have beneficially utilized over 132 mcy of materials to create 
or restore 9,598 acres. This is equal to approximately 15 square miles 
of marsh in that area since 2009, which represents an equivalent of 
more than 13 million dump trucks. This result was achieved due to the 
adaptive approach to sediment management supported by the collaborative 
efforts of the Corps and its federal partners (U.S. Coast Guard, U.S. 
Fish and Wildlife), along with the industry stakeholders on the ground 
(including the Big River Coalition, dredging contractors, and local 
river pilots).
                               Conclusion
    Throughout the testimony, we highlighted projects where our non-
federal partners have successfully collaborated with the Corps to 
achieve multiple benefits and increase resiliency from water resources 
projects, and also pointed out some challenges to accruing those 
benefits. The Corps brings needed technical expertise to the table, and 
in return, our members can offer valuable feedback on strategies and 
policies that can work on the ground. We encourage the Corps to 
continue utilizing non-federal sponsors' resources, capabilities, and 
knowledge, as we tackle new challenges to support the resiliency of 
civil works projects.
    We live in a world with resource and data constraints. However we 
define the term ``resilience,'' we'd do well to observe the need for 
fiscal soundness. That is, the costs of policy, programs and projects 
should be less than the comparative budgetary savings they achieve. It 
must be demonstrated, as part of the investment decision process, that 
over the long term, these investments will serve as the optimal 
approaches to lessen future weather-related damages.
    Thank you for the opportunity to appear today to discuss the 
foundations for a Water Resources Development Act. We look forward to 
working with the subcommittee as it is moves forward with developing 
this important legislation.

    Mrs. Napolitano. Thank you for your testimony, Ms. Ufner. 
Thank you, all our witnesses.
    And we will now begin questions for you from the Members. 
And we will use the timer to allow 5 minutes for the questions 
from each Member. If there are additional questions, we might 
have a second round as necessary.
    So I will begin by asking Mr. Galloway, Mr. Pineda, Ms. 
Samet, what are the steps the Corps can take now under existing 
authority to factor resiliency in their projects and what are 
the gaps to those authorities?
    General Galloway. Madam Chairwoman, the Corps of Engineers 
is trying diligently to work with resilience and to work with 
local communities. What can they do to improve that? It's reach 
out, again, as has just been said, to the local authorities, 
the people that are on the ground, who know what are the 
challenges they face. So resilience requires cooperation from 
top to bottom and everybody having a seat at the table. That 
becomes terribly important.
    It also requires us to have seats at the table for all the 
Federal agencies, so that when one agency has a solution, it 
can be brought into the solutions used by the Corps.
    Mrs. Napolitano. In other words, that they talk to each 
other.
    General Galloway. Yes. It is difficult to do that, and we 
need that ability to partner, to be readily available and not a 
labor of great, I guess, problem to get through to any of these 
to have any waivers. It has got--the 21st century has to be 
fast moving; it has to have everybody at the table, and it has 
to deal with the challenges that the locals see as well as the 
Federal.
    Mrs. Napolitano. Thank you.
    Mr. Pineda. Your mic, pull up your mic to your----
    Mr. Pineda. I will pull it closer. OK, thank you.
    Mrs. Napolitano. That is it.
    Mr. Pineda. The first one is through work with the State of 
Louisiana and the levee districts in New Orleans, the Corps, in 
rebuilding the levees of New Orleans after Hurricane Katrina, 
through the Hurricane Storm Damage and Risk Reduction System, 
designed resiliency into the 100-year design that Congress 
authorized. So we knew that was not really the ideal standard 
to rebuild the levees to, it should be built to a much higher 
level of protection. But the Corps incorporated levee 
overtopping into the design based upon input from the State and 
local jurisdictions. And on the dry side of the levee, the side 
that we don't want the water to go over, the Corps, working 
with Louisiana State University, designed a high-performance 
turf reinforced mat, essentially a super grass that could 
withstand erosion from levee overtopping.
    Also, in California, so that is an example of working with 
the locals to come up with a resilience method. Also in 
California, looking at the Yolo Bypass, which is a major 
overflow for the Sacramento River, in working with the 
Sacramento Area Flood Control Agency, the California Central 
Valley Flood Protection Board, and my agency, the Department of 
Water Resources, using State funds and local funds, we are 
setting back multiple miles of levees in the Yolo Bypass.
    Essentially, this is not a Corps process. It did not pan 
out with the benefit to cost ratio. But with strong local, 
State and local participation, we did the engineering, 
essentially using the Dutch concept, room for rivers. So we are 
moving more water from the Sacramento River to the overflow 
bypass and making the bypass have a greater capacity.
    Also, after Hurricane Katrina, we have a lot of levees in 
California. And we responded to the increased threat to our 
urban areas that are along the Sacramento River and San Joaquin 
Rivers and State Senator Machado passed a bill, we call Senate 
bill 5, that established a 200-year level of protection 
standard for urban levees. So we have been working since that 
time to come up with the funds for design and construction.
    Mrs. Napolitano. Mr. Pineda, thank you very much. You have 
extensive records and I would like to hear them. But I would 
like to go on to Ms. Samet. Thank you.
    Ms. Samet. Thank you. Yes, I would highlight that Congress 
has directed the Corps on multiple occasions to consider 
nonstructural and natural approaches to addressing water 
resources problems which, as we have testified, we believe will 
strongly increase resiliency. They also have longstanding laws 
that say protect the environment as appropriate, right? Protect 
the environment and restore the environment, in numerous laws.
    They have the ability to reevaluate multiple projects 
through the environmental review process and through other 
processes. So I think that nothing actually stands in the 
Corps' way to doing better work with respect to natural 
infrastructure. But they clearly need more of a push and more 
guidance, and I think also, clearly, more capacity to be able 
to look across their business lines to see the best use that 
they can make of natural infrastructure and making sure that 
they are not damaging it inadvertently or creating inadvertent 
problems.
    So that is why we have proposed an ecological services 
directorate and other reforms that would help drive the Corps 
to create the incentives to drive the Corps to do a better job.
    Mrs. Napolitano. Thank you very much. My time is up.
    Mr. Westerman.
    Mr. Westerman. Thank you, Chairwoman Napolitano. And again, 
thank you to the witnesses for being here today. Many of you 
have testified in support of a strong preference or even a 
requirement that nature-based features be employed as solutions 
to address resiliency challenges. And I am supportive of 
looking beyond brute force and traditional gray infrastructure 
to increase the use of natural and green infrastructure 
designs.
    I do not remember who used the phrase, but it is one that I 
have often used that we need to design with nature instead of 
against nature. And I am an engineer. So that is coming from 
more the brute force, gray infrastructure type background.
    But Ms. Ufner, what are some of the challenges that we face 
with the Corps when evaluating nature-based alternatives?
    Ms. Ufner. Thank you for your question. As you know, we 
live in a resource-constrained environment. And so it is really 
important for us as non-Federal sponsors to work closely with 
the Corps to meet the goals of our local communities, for 
example, to address flooding concerns.
    So the planning process is intended to address a lot of 
these concerns and hopefully they're met within the planning 
process. When looking at green infrastructure or natural 
infrastructure specifically, right now there is not a strong 
mechanism within the planning process to really quantify that. 
And that can be somewhat of a challenge.
    Ultimately, at the end of the day, our communities and our 
non-Federal partners need to come together with the Corps and 
better discuss these challenges. And we would recommend that 
the Army Corps of Engineers utilize the non-Federal sponsors 
more to meet these challenges. They have a lot of knowledge on 
the ground that would be very valuable to the Corps.
    Mr. Westerman. OK, several of you used examples and talked 
about types of natural infrastructure and how you can obtain 
resiliency with it. And, you know, in hindsight, looking back 
at the massive levee systems that we have in our country, we 
could probably be critical and say that we should have done a 
better job of making those flood plains wider and not putting 
the levees so close to the rivers. But if you look back 
historically, some of these flood plains were miles and tens of 
miles off of the river channel when the flooding happened.
    So if we were to try to widen some of the levees and widen 
the distance off of the river, is there enough research to know 
the sweet spot, where to put the levees, and can we tie those 
levees into existing levees? Because now you have got 
development up close to the levees and it could be very 
expensive to move some of the levees.
    But, you know, exactly how do you do that? And I will ask 
the engineers on the panel. How would you suggest we do that?
    Mr. Gritzo. Thank you very much for your question. As one 
engineer to another, and to the others, these kinds of design 
approaches we believe can be effective if well designed for the 
application. However, we have to recognize that when 
implemented by U.S. businesses, they are giving up valuable 
real estate for the space. That will be a challenge. What will 
mitigate those challenges is having some good design standards, 
as available in our publicly available data sheets or other 
standards, to guide them to how to implement these kinds of 
measures in their businesses. Because for a business, the 
worst-case scenario is to make an investment, sacrifice their 
real estate and hope something is going to work and have it not 
be effective, and their business suffer a flood loss anyway.
    We believe with good standards that apply to a wide variety 
of scenarios, these can be improved, and these measures can be 
effectively implemented.
    Mr. Westerman. So who would develop those standards?
    Mr. Gritzo. Those standards would need to be developed by a 
public-private and academic partnership. We believe there are 
technical subject matter experts available in all of those 
arenas that could contribute to this discussion. Ultimately, 
obviously, they have to be practical for businesses and local 
State and Federal entities to implement. And we would want to 
take advantage of the wealth of knowledge in our universities 
as well.
    Mr. Pineda. If I could add that to do any type of levee 
setback to move water away from the rivers into adjoining areas 
to reduce water levels, the process kind of first begins with 
simulation modeling. And the Corps of Engineers Hydrologic 
Engineering Center, located in Davis, California, have been the 
developers of world-recognized computer software programs. So 
the modeling world has advanced substantially from when I first 
started doing it with punch cards in the late 1970s. So 
essentially you develop a computer model that simulates the 
existing system and then you start, design additional models 
that simulate your proposed alternatives and then run lots of 
scenarios to determine how it would best work. So that is one 
technical part of the planning process.
    Mr. Westerman. Thank you for your graciousness, Madam 
Chair, and I will yield back.
    Mrs. Napolitano. Thank you, Mr. Westerman.
    Next, we will go to Mr. Garamendi. You are recognized for 5 
minutes.
    Mr. Garamendi. Thank you, Madam Chair. Let's see, super 
floods, super hurricanes, atmospheric rivers, climate change. 
This is the reality of today and even more so in the future. Do 
all of you agree with that? No disagreement. Then we are going 
to need to do things differently.
    Mr. Pineda, in your testimony, you spoke to Public Law 84-
99 and the way in which it restricts us to think big about the 
future, to think differently about the future. You have made 
several recommendations in your testimony which, interestingly, 
line up perfectly with Melissa Samet's testimony.
    We are going to have to think differently here in this 
year's or next year's Water Resources Development Act. We need 
to provide the kind of flexibility and new mandates for the 
Army Corps of Engineers and local flood control agencies to 
adjust to the realities of climate change and more flooding. 
That means, in my view, setbacks. And I would like to get into 
this in more detail.
    You make several recommendations, Mr. Pineda, in your 
testimony about what we must do differently. Could you please 
take the top three and explain what they are to us?
    Mr. Pineda. With Public Law 84-99, you know, it is a repair 
program after a declared disaster. So there is usually a rush 
to fix the levees as soon as possible. Other infrastructure 
could be repaired under Public Law 84-99 but sometimes we have 
to take a pause to determine for each of the damaged sites 
which is the best alternative. And many of the sites have been 
damaged before. So you have to kind of analyze each one and 
determine if there is a better solution for that particular 
problem.
    After a significant high water flood event in 1997 on the 
San Joaquin River system, there were a series of levees in 
three levee districts, which we call reclamation districts in 
California's Central Valley that the Corps of Engineers, 
through their planning process, determined that it would be 
best to decommission those levees and let the flood waters move 
into the area and essentially purchase a flowage easement in 
those areas. And so that took a long time to implement but that 
project eventually was done, so the levees were essentially 
decommissioned out of the Federal-State system.
    Again, you go back to the kind of the modeling process and 
kind of having run simulations about what is the best way to 
improve the system. And when an event comes and damages levees, 
be ready to make proposals about the best way to make those 
repairs. Which may not necessarily mean repairing the existing 
levee in its current alignment. It may mean moving it back a 
little bit.
    Mr. Garamendi. So if we take the after event with Public 
Law 84-99, could we, should we apply that before the event? 
Should we apply before any project, any improvement to a levee, 
any strengthening, any raising of a levee? Should we also 
analyze the opportunity to do setbacks, expanding the flood 
control of the flooded area to provide a surge capacity? And if 
you will answer that quickly and then we will go to Ms. Melissa 
Samet for a response.
    Mr. Pineda. I agree with that proposal, sir, and that's 
essentially part of the very detailed planning process that the 
Corps and its partners do, or that its partners do and then 
implement through the Corps of Engineers 408 process, which 
means you are building a project ahead of the Corps of 
Engineers. And the State of California working with its 
partners in the Valley have done various levee setbacks and we 
have one underway right now on the Yolo Bypass.
    Mr. Garamendi. I thank you.
    Mr. Pineda. So it is being done in the field right now but 
it takes a lot of effort and technical expertise, but that 
expertise is out there throughout the United States.
    Mr. Garamendi. Ms. Samet, very quickly.
    Ms. Samet. Yes, I would say preplanning is essential and 
you can start by looking at critical pinch points and really 
documenting the repetitive levee failure so we know right away 
those are the problem areas and start right there. Preplan for 
what you are going to do in case of disaster, or ideally 
actually just go ahead and set those back initially.
    Mr. Garamendi. So as we write our new law, Madam Chair, I 
would recommend that we build into it incentives and 
specificity that this be taken into account in the 408 as well 
as in repair process. I yield back.
    Mrs. Napolitano. Thank you, Mr. Garamendi. Mr. Babin, you 
are recognized.
    Dr. Babin. Yes, ma'am, thank you, Madam Chair. Thank you 
Madam Chair and Ranking Member Westerman for convening this 
important hearing on our Nation's water resources and the 
governing legislation that forms its policies, the Water 
Resources Development Act. I would also like to thank you, 
witnesses, distinguished guests, for testifying today.
    As this committee knows, my congressional district, the 
36th Congressional District of Texas, is home to three highly 
important Civil Works projects of great economic benefit to the 
United States. Number one, a project to deepen and widen the 
Houston Ship Channel currently undergoing a review by the U.S. 
Army Corps of Engineers. Number two, a federally funded project 
to deepen and widen the Cedar Bayou Navigation Channel. And 
number three, a federally funded project to deepen and widen 
the Sabine-Neches Waterway.
    Starting with number one, the Port of Houston, this ship 
channel is the busiest, deep-draft waterway in the Nation with 
approximately 22,000 deep-draft vessel transits each and every 
year, and more than 20,000 barge movements. This waterway 
supports more than 200 industrial facilities that make up the 
Port of Houston which is the Nation's number one export region, 
a leading port for foreign commerce, and the top U.S. energy 
port. The Port of Houston is also home to the largest 
petrochemical manufacturing complex in America. National energy 
security relies on the Port of Houston where 27 percent of U.S. 
gasoline and 60 percent of aviation fuel is produced. This 
activity sustains nearly 3 million U.S. jobs, generates more 
than $617 billion in economic impact, and provides $35 billion 
in tax revenues each and every year.
    Number two, we have the Cedar Bayou Navigation Channel. It 
is an 8-mile channel which feeds into the Houston Ship Channel. 
It is used by barges and other vessels to serve the chemical 
aggregate and metal industries along the channel, including 
several aggregate and steel companies.
    And lastly we have the Sabine-Neches Waterway, which 
Congressman Weber and I share. The Sabine-Neches Waterway is 
one of the most critical energy and military transit assets of 
our Nation. The waterway is home to the Port of Beaumont which 
is the largest strategic military port in the country holding 
55 percent of the Nation's oil reserves. This ongoing deepening 
and widening project will increase jobs by nearly 61 percent in 
Texas and our Nation. It will increase our Nation's annual GDP 
by nearly $58 billion and provide $1.6 billion and $6 billion 
in increased tax revenue for Texas and the Nation, 
respectively.
    I have been a member of the House Transportation and 
Infrastructure Committee for the past 5 years where I was proud 
to help in the passage of a Water Infrastructure Improvements 
for the Nation Act in 2016 and America's Water Infrastructure 
Act in 2018, and both WRDA 2016 and 2018, respectively. Both of 
these bills advance critical water resources in U.S. Army Corps 
of Engineers policy to help strengthen our Nation's flood and 
storm surge protection, deepen and widen our Nation's critical 
economic engine waterways, and provide much needed reforms to 
the Corps' project delivery processes.
    The reason I highlight these immensely important projects 
is that as we develop a WRDA over the next few months, we need 
to address changes to key Army Corps policies that would 
provide better efficiency and effectiveness in the delivery of 
hurricane and storm damage protection while ensuring the 
viability of critical economy-driving projects like the ones 
that I just mentioned. While these projects provide great 
economic value to Texas and the Nation as a whole, the real 
value is the many men and women who work at or along these 
waterways. Not providing a necessary level of resilient 
protection, that would be doing them a huge disservice.
    So my question this morning is in what ways, and I direct 
this to Ms. Ufner if you don't mind, my question to you is in 
what way should we improve collaboration with infrastructure 
agencies like the Corps going forward to make sure that vital 
projects of this country's infrastructure and economy are 
completed in a timely manner? Yes, ma'am.
    Ms. Ufner. Thank you for that question, Congressman. First, 
we need to break down barriers among agencies so they can 
communicate. And then it goes back to the stakeholders. As we 
discussed earlier, we live in a resource constrained 
environment, correct?
    Dr. Babin. Absolutely.
    Ms. Ufner. We have a limited amount of money. Stakeholders, 
including the non-Federal sponsors who are responsible for the 
projects and making sure communities are safe, they work 
closely with the Army Corps of Engineers to make sure that 
these projects meet the demands as intended by their 
communities.
    We would also recommend as we move forward in a next WRDA 
that Congress authorize a study in the National Academy of 
Sciences on natural-based infrastructure to see the role that 
they may play in projects. Typically as part of such studies, 
the Academy's Water Science and Technology Board holds open 
meetings and they invite non-Federal sponsors and other 
stakeholders to come and present their views.
    Additionally, as the Corps moves forward, any time that 
there is an opportunity to provide public comment on any of 
these ideas, we would welcome the opportunity.
    Dr. Babin. OK, thank you, and I yield back, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. Babin. Next I will 
recognize Mr. Carbajal. You have 5 minutes.
    Mr. Carbajal. Thank you, Madam Chair, and first let me 
start by congratulating Julie Ufner in her post with the NWC. I 
worked with Julie for many years when I was in local government 
with the National Association of Counties, so congratulations 
on your new post, Julie, and good to see you again.
    Mr. Pineda, thank you for coming today as we begin the 
reauthorization process for the Water Resource Development Act, 
also known as WRDA. From my time serving as county supervisor 
in Santa Barbara County, California, I know that one of the 
biggest issues local governments face when working on Federal 
projects is the need for technical expertise from Federal 
agencies. In your testimony, you specifically mention the need 
for the Army Corps of Engineers to take on an enhanced role in 
providing technical assistance and problem solving to help with 
local needs.
    Can you elaborate further on what you mean by this? And 
two, are there any existing programs the Corps could expand to 
further this goal? I know you discussed the Floodplain 
Management Service, FPMS program, as a potential solution.
    Mr. Pineda. Yes, thank you, Congressman. The Corps has 
three programs: Planning Assistance to States, Floodplain 
Management Services, and one that started a couple years ago 
called Silver Jackets. So those are existing programs, but I 
can't comment on specific funding, but we believe that funding 
could be substantially increased.
    I think the main point that I would make is throughout the 
country I believe there are 37 or 38 Corps district offices, 
and three in California--San Francisco, Los Angeles, and the 
biggest one, Sacramento--and the level of technical expertise 
of engineers, scientists and planners within those districts is 
tremendous. There's a strong esprit de corps and, but small 
communities, Tribal nations, need that technical assistance 
from the Corps, which is essentially right now in many cases, 
outside of these small assistance programs, PAS, FPMS, and 
Silver Jackets, they need another source of funding. It is 
essentially they can't really help unless they can charge it to 
a project.
    So the technical expertise is there; the desire of the 
employees to help small communities and other communities solve 
their problems is there; but a lot of times it is getting the 
delivery to the communities and being able to charge it to an 
appropriate program.
    Mr. Carbajal. Thank you. Mr. Pineda, as you are probably 
well aware, the Army Corps of Engineers has a significant 
backlog. In my district alone, the Mission Creek Flood Control 
Project has been in the works since the late 1960s. Let me 
repeat that: the late 1960s. However, this project has 
struggled with receiving Federal construction dollars. Despite 
the numerous benefits the project would provide, in your 
testimony you mentioned that the Corps has operated on a 
restrictive framework that has not allowed it to modernize how 
we calculate benefit-cost ratios.
    Do you have any suggestions on how Congress can help tackle 
this problem to ensure we are accounting for the numerous 
environmental benefits a project may bring as well as 
accounting for resiliency?
    Mr. Pineda. Thank you, Congressman. I think I mentioned in 
my testimony, and others talked today about the benefit-cost 
ratio and essentially that would be under the principles and 
guidelines, otherwise known as P&G, and I believe previous 
Washington administration put forth kind of an update to those 
called PR&G, principles, requirements, and guidelines, and 
implementation guidance was being developed, and for a reason I 
am not totally clear on, it did not proceed. So I believe those 
new, at the time a couple years ago, those PR&G guidance took 
into account trying to quantify the nontraditional benefits 
that the Corps doesn't explicitly recognize right now such as 
the ecosystem and life safety.
    So right now we essentially generally calculate reduction 
to damage to structures, houses and nonresidential structures, 
but it needs to be expanded. This is not a new issue; it has 
been going on for a long time, and that's why many States and 
organizations working with the Corps sometimes build projects 
on their own they believe have a positive benefit to cost ratio 
calculated using a different methodology factoring into account 
those other benefits.
    Mr. Carbajal. Thank you. Ms. Ufner, does NWC have any 
thoughts on how to account or provide input on how to account 
for environmental benefits that might raise the ratios with the 
Army Corps?
    Ms. Ufner. Thank you, Congressman. It's always good to talk 
to you. We are encouraged by the work that is currently ongoing 
in the Army Corps of Engineers Research and Development Center 
to develop methods to evaluate and quantify these benefits. It 
is a good first start. But we also are encouraging Congress to 
move forward with a study through National Academy of Sciences 
to really rigorously examine this because what works in one 
part of the country, for example, what would work in California 
may not work on the east coast. So we want to make sure that we 
have a full study of the types of infrastructure that is 
available and a good understanding about where it will work.
    Mr. Carbajal. Thank you very much. Madam Chair, I yield 
back.
    Mrs. Fletcher [presiding]. Thank you. I will now recognize 
Mr. Graves for 5 minutes.
    Mr. Graves of Louisiana. Thank you, Madam Chair. I want to 
thank members of the committee. General Galloway, it is nice to 
see you again. Mr. Pineda, I appreciate the opportunity to see 
you again as well, and I appreciate both of your all's efforts 
in Louisiana in recent years.
    A couple of questions. You both, or I guess many members of 
the panel, talk about the need to improve our resiliency 
standards. I couldn't agree more. Last Congress we passed the 
Disaster Recovery Reform Act where, for the first time, we 
actually established a resiliency definition and standard 
within FEMA for how we rebuild and try to provide ample funds 
to do so. We tried to break down some barriers or walls among 
different funding sources to ensure that projects can actually 
be built. For example, the Hazard Mitigation Grant Program 
under FEMA which comes in the aftermath of a flood. We allowed 
for those funds to be used to build Corps projects because 
there is a $100 billion backlog of Corps projects.
    Admiral Phillips, if Virginia is hit with a hurricane, if 
you receive those funds and you determine that a Corps 
authorized project is your best use of dollars, I want you to 
be able to use those funds, and this Congress agreed and so we 
changed that law. Do you agree that recovery dollars--we should 
knock down walls that allow you to prioritize projects like 
flood protection projects that are authorized through the Corps 
of Engineers for you to build them if that is what your 
priorities are, Admiral?
    Admiral Phillips. So we certainly were heartened by the 
Disaster Recovery Reform Act of which you speak and some of the 
processes that are changed there that give options not only to 
use recovery dollars but also shuttling some funds, 6 percent I 
believe, into predisaster mitigation projects which we are also 
very interested in doing though FEMA. So certainly that 
opportunity is there. Where States have the capacity to take 
advantage of this, they absolutely will do it, and so when 
Virginia is in a position, should it find itself in that 
position, we would absolutely want to be able to have this 
option or opportunity.
    I think some of the challenges for coastal States is 
getting themselves to the point where they have projects that 
are Corps-ready and approved so that they can move on. And of 
course we have seen in Virginia as we worked with these 
feasibility studies, that is the intent and that concept to get 
Corps-approved projects ready to go and on the books so that 
then we could use them if we had to.
    The challenge for Virginia is we have had two feasibility 
studies, one is done, one is underway, and we have a whole 
State's worth of coastline that is at extreme risk. So hence 
the interest in perhaps expediting that by looking at full 
coastal study for the State.
    Mr. Graves of Louisiana. Thank you. Does anybody on the 
panel object to the concept of giving you more flexibility in 
recovery dollars and being able to use those for a Corps of 
Engineer authorized project that otherwise doesn't have 
funding? I mean, again, recognizing there is a $100 billion 
backlog in Corps of Engineer projects. You have a disaster, 
this project is going to help you with resiliency, it is going 
to help give confidence to your community to rebuild. Does 
anybody object to being able to have that flexibility?
    Mr. Gritzo. Certainly no objections. In fact, we advise 
businesses that it is always cheaper to avoid a loss than 
recover from one afterwards, and in many cases some of those 
businesses never recover.
    Mr. Graves of Louisiana. Thank you.
    General Galloway. Could I just make the point that 
unfortunately if you don't give time-sensitive funding to these 
projects, many of them will just slip by the wayside and they 
will never get taken care of. So speeding things up, giving the 
solution there rather than have somebody come up with some 
alternative solution that just doesn't work is going to make a 
big difference. You are going to get things done that need to 
be done and it is driven by the local level.
    Mr. Graves of Louisiana. Thank you. Thank you, General. And 
Madam Chair, I want to make note that every member of the panel 
agreed--I am sorry, were you going to----
    Ms. Samet. I was just going to add, if I may, that we do 
support the need to leverage funding across the funding 
streams, but it is important to make sure that the same 
standards and environmental reviews are applying and that the 
money that is being directed to resilient projects is actually 
going to resilient projects.
    Mr. Graves of Louisiana. Absolutely, couldn't agree more, 
and keep in mind that any project that is authorized by 
Congress through the Corps of Engineers would have to go 
through a NEPA process prior to.
    But Madam Chair, I want to make note, every member of the 
panel agreed, yet just yesterday we passed a bill that would 
actually prevent community development block grant disaster 
recovery funds from being used for Corps of Engineer projects. 
It doesn't make sense and it is contrary to what this committee 
has been doing. It wasn't our bill, as you know, but contrary 
to what this committee has been doing.
    General Galloway, I want to ask you this, all of you, and I 
want to ask this question for the record because I am out of 
time. All of you talked about the need to build more resilient 
projects. Couldn't agree, better resiliency standards. We have 
a $100 billion backlog. General, you worked with the Corps for 
decades. To add new standards doesn't do any good if we can't 
actually deliver projects. The Corps is taking decades in some 
cases to deliver projects. I would love your all's 
recommendations on how to improve the Corps project delivery 
process.
    I yield back.
    General Galloway. It is a challenge to figure out how you 
deal with that.
    Mr. Graves of Louisiana. It is, but I would appreciate if 
you all could submit in writing just your thoughts if you have 
any on how to improve it, I would appreciate it. Thank you, 
Madam Chair.
    Mrs. Fletcher. Thank you. The gentleman's time is expired 
so I will now recognize Mr. Lowenthal for 5 minutes.
    Mr. Lowenthal. Thank you, Madam Speaker. Or Chair.
    Mrs. Fletcher. I will take it.
    Mr. Lowenthal. I will take it. I'll give it.
    [Laughter.]
    Mr. Lowenthal. You know, I have been really fascinated by 
following the discussion on the use of natural infrastructure 
by the Corps, and so I am going to go to Ms. Samet. You haven't 
chimed in yet. We have had others specifically, although it was 
in your testimony very, very completely, and I am interested in 
following up on your testimony on the use of natural 
infrastructure in Army Corps projects. And you know I am a 
member of SEEC and vice chair and we have advocated that the 
Congress include policy to increase the use of natural 
infrastructure for stormwater management, coastal protection, 
water filtration, storage.
    And you mentioned in your testimony these projects can help 
meet the needs of our communities while also benefiting the 
fish and wildlife. But too often they face significant hurdles 
due to, as has already been pointed out, the Army Corps 
benefit-cost analysis. That is really what we are going to be 
looking at specifically. And in a recent GAO report, the Corps 
stated that it has launched a project to develop better 
information and research to make sure that its analysis 
captures all the benefits associated with natural 
infrastructure. As you mentioned in your testimony, small 
investments in nature-based solutions like oyster reefs and 
wetlands can provide billions in flood protection.
    So my first question is, has the Army Corps consulted with 
you or any of the National Wildlife Federation folks about 
these efforts to better measure the benefits of natural 
infrastructure? Have you been consulted in any way or do you 
know of organizations like it who have been consulted by the 
Corps to get input?
    Ms. Samet. I have not been consulted. As far as I know, the 
National Wildlife Federation has not been consulted in this 
way. I think it is great that the Corps wants to look into 
this. I would also highlight a couple of things. One, there is 
a robust knowledge base out there on how to value ecosystem 
services, and so that should be, from our perspective, a part 
of it. This whole improvements to the cost-benefit analysis, 
and not just looking at project benefits but also looking at 
project costs because if a project, if the actual cost of a big 
structural project isn't properly accounted for, you can't make 
a reasonable assessment of whether in fact it may be more cost 
effective to go with a natural infrastructure solution. So 
fixing both the cost side problems with the Corps, BCR, and 
also the benefits side is very important.
    And I do think there is--it is great that the Corps is 
engaging in this, but there is a lot of information out there 
that they can draw from. They don't have to create the wheel on 
this.
    Mr. Lowenthal. Well, that gets me to the second part. What 
actions should we be taking here, then, in Congress in the next 
WRDA bill to address these challenges in the benefit-cost 
analysis?
    Ms. Samet. Well, we would strongly recommend that you 
actually tell the Corps in law what they have to account for, 
and things that they can't account for. And so if you say you 
have to look at Corps of Engineers, and of course this is 
written into law in some sections on how you do benefit cost, 
so in addition to the new PR&G, which are very valuable, 
Congress, from our perspective, should actually tell the Corps 
what they should look at. That would include accounting for 
ecosystem services gained as a benefit, ecosystems services 
lost as a project cost. Also prohibiting the Corps from 
accounting for benefits that derive from draining wetlands, 
that derive from encouraging people to come into harm's way and 
adversely impact healthy, natural systems. So there are the 
things that should be added and things that should be excluded.
    And also fully accounting for project costs, and I think 
you have heard that. The Corps does its cost benefit analysis 
based on 50 to 80 percent of engineering design, and the 
detailed technical specifications can add a significant amount 
to the actual cost, and it could be much more effective to be 
looking at some of that upfront instead of waiting afterwards 
to then hit the local sponsor and the taxpayers with a whole 
lot of extra costs associated with the project.
    Mr. Lowenthal. Thank you, and I yield back.
    Mrs. Fletcher. Thank you. I will now recognize Mr. Weber 
for 5 minutes.
    Mr. Weber. Thank you, Madam Chair. General, I want to go to 
you first. You said in your comments that a lot of this 
infrastructure is outdated and undersized to systems. And we 
are talking about backlog of the Corps now. If you looked at 
the backlog of the Corps, if we could do a lot of those 
projects--have those projects been on the books so long that 
those projects could be deemed as outdated?
    General Galloway. Yes, sir. They certainly need another 
look because so much has changed. We know that the conditions 
that we have to operate under have changed, and what would be 
satisfactory in 1996 won't be satisfactory today. So you almost 
start with a need to look at the risk. But I would suggest that 
the Corps tries its best to see these projects and continue to 
monitor to see if there is any extremely significant changes 
that occur. You can't have a backlog that long and for that 
long a period and not have problems.
    Mr. Weber. And still be considered current.
    Melissa Samet, is that how we say that, Ms. Samet? OK, I am 
over here. It's OK. So and this might be for you as well. So 
General or Ms. Samet, am I saying that right?
    Ms. Samet. Samet.
    Mr. Weber. Samet, OK. If you could take those backlog of 
projects and you could say, look, some of those could be merged 
with natural infrastructure, would that be a way to get some of 
those accomplished? I will go with you first and then her 
second.
    General Galloway. Well, I think you would certainly want to 
go to the locals and find out what is--here are some options, 
here is what you have now in the project, and here is what it 
might be if you were to consider other things, because we have 
learned a lot in the last 30 years, especially about nature-
based projects, and to see what they want to do. The problem 
with driving ahead with what you had, is the population has 
changed; the nature of the threat has changed. And so you 
really need to take the time to do it quickly but do it right, 
and then come up with the project that is necessary.
    Mr. Weber. Right. And how about you, Ms. Samet?
    Ms. Samet. I definitely agree with that. Going back and 
taking another look could give you a whole new approach--come 
up with a whole new approach to address your problem but in a 
much less costly and less destructive way at the end of the day 
with a healthier and happier community as an end result.
    Mr. Weber. So many natural disasters are occurring, as John 
Garamendi alluded to, and I am thinking about Katrina in New 
Orleans, and the Army Corps got in gear and Congress--I wasn't 
here then--got in gear and they did some things around New 
Orleans, I mean out of pure necessity of course, and they acted 
quickly. What could we learn from that, General?
    General Galloway. Well, it is interesting. That is what 
resilience means, that you are ready when something happens to 
move ahead in the next phase into something that is better than 
what you have got right now. And all too often we finish the 
project and say we are done, and it will take care of itself. 
But it turns out that nature is stronger than that. We have 
seen that in Texas with Harvey. Things that we thought would 
work didn't work and we hadn't thought through what would be 
the next step afterwards. So it is planning ahead for the fact 
that you are taking a hit and you want to get up and be better, 
but you have thought about how will you be better; do you 
really want to occupy that area that you are in right now; 
could we have thought about that ahead of time.
    Mr. Weber. Well, I have been here 6 years, 11 months, and 
17 days, not that I am counting, and so my district was ground 
zero for Harvey when it hit. I wasn't here during Ike or 
Katrina. And there is a law, and I am trying to remember the 
name of it for the life of me, that says you can't do more than 
what was there. Can anybody help me with that? There is a bill 
that says, you know, you can't build it back better, basically. 
I am talking about disaster relief with houses and stuff like 
that. Do you know the law I am talking about? I will find it.
    General Galloway. Well, there is some in the issue of, Mr. 
Pineda has already talked about, the Public Law 84-99 where you 
can go with that; how much more you can improve. Because they 
don't want that to be the source of a new project. On the other 
hand, it doesn't make sense, as you have said in Houston, you 
had areas that certainly were subject to flooding that nobody 
thought were going to flood.
    Mr. Weber. Right. And I live south of Houston, about 25 
miles.
    Mr. Pineda, you said in your comments that the Corps in 
California, I forget what part, has designed a model that is 
world-renowned in a simulation--where was that in California, 
the Corps?
    Mr. Pineda. Congressman, that was the hydrologic 
engineering center in Davis and----
    Mr. Weber. Davis, California.
    Mr. Pineda [continuing]. So they developed software and 
that is part of the Sacramento district.
    Mr. Weber. When did they do that?
    Mr. Pineda. I think they introduced, and General Galloway 
may be able to help answer it, I was first exposed to it in the 
late 1970s, but I think the computer programs came out earlier.
    Mr. Weber. OK. Mr. Gritzo, you are shaking your head as if 
you might know.
    Mr. Gritzo. I don't know the details, Mr. Congressman, but 
I certainly know of these kinds of tools.
    Mr. Weber. OK.
    Mr. Gritzo. And they are available today.
    Mr. Weber. OK. Well, thank you. Madam Chair, before I yield 
back, I want to wish our friend, Bruce Westerman and Salud 
Carbajal, both of them, a belated happy birthday yesterday. I 
yield back.
    Mrs. Fletcher. Thank you, Mr. Weber. Happy birthday, Mr. 
Westerman. I will now recognize Ms. Craig for 5 minutes.
    Ms. Craig. Thank you so much, Madam Chair. And thank you to 
all of the witnesses for being here today.
    As you all know, the first 8 months of 2019 were some of 
the wettest on record for the Nation. Flooding levels were 
unprecedented in the Missouri, Mississippi, and Arkansas River 
watershed, including the river towns in my district in 
Minnesota, such as Hastings and Red Wing and Wabasha.
    After spring floods subsided, snow melt added even more 
water and sediment to the system, sediment buildup that is 
required to be dredged by the Army Corps.
    Heightened sediment levels continue to be a challenge for 
the entire inland waterway system. The Corps are faced with a 
yearly feat: how to dredge quickly enough to allow the river to 
function on the economic engine that our business community and 
farmers depend on, and now in Minnesota everything is starting 
to freeze a little earlier than normal. So it has been quite 
the season.
    This fall I led a letter asking for the release of 
emergency funding for around-the-clock dredging that was needed 
to keep the river operational. I am told that next year's 
dredging will likely be even more severe.
    So I am going to broadly address this to all of the 
panelists. The Corps operates and maintains critical flood 
control, navigation, and environmental restoration projects 
throughout the Midwest. What do you think about whether the 
Corps has the resources they need to overcome this increased 
flooding activity and correspondingly increased dredging?
    And with what we are seeing with the change in weather 
patterns all over, give me just some thoughts on what we need 
to be thinking about from a forward-thinking perspective.
    And then I will just add to that. How would passage of H.R. 
2440, the Full Utilization of the Harbor Maintenance Trust 
Fund, help with readiness and resiliency?
    General Galloway. I am willing to jump in----
    Ms. Craig. Thank you, General.
    General Galloway [continuing]. And say that Mr. Pineda made 
a comment initially that we need to have a comprehensive look 
at the Mississippi and Missouri. We have been talking about it. 
We have tried to.
    In the 1993 report, the big floods there, we have said this 
area has not had the full inspection that it needs and the plan 
developed to move it forward. That is still the case now, and 
it is getting worse, as you have just said.
    And so it means, too, we have to bring together our 
navigation systems, our flooding systems. We have to think of 
these as a concrete hole for the Upper Midwest.
    And so I would support taking action to give the Corps the 
responsibility to do a more comprehensive study that would 
involve the issues that you are raising.
    Ms. Craig. Would anyone else like to tackle that?
    Mr. Pineda. Congresswoman, Ricardo Pineda here from 
Association of State Floodplain Managers.
    So, yes, the upper Missouri River system or the Missouri 
River system, consisting of big dams on the main stem and some 
dams on the tributary system, is very complex, but every State 
and sometimes multiple States have river systems that flow 
through multiple States.
    So sometimes it is hard to find one partner to partner with 
a study, and as General Galloway said, it is time for the Corps 
with their engineering and scientific know-how in the various 
districts in the Midwest to do some comprehensive systemwide 
studies.
    They have computational tools, and they have the talented 
staff, and they can also reach out to universities and 
consultants, as they have done in multiple studies throughout 
the United States.
    So you first kind of have to kind of study it, look at all 
the benefits and what these existing, authorized projects 
provide and how they were authorized and go through kind of a 
detailed planning process in a very collaborative fashion with 
State stakeholders and regional stakeholders.
    Thank you.
    Ms. Samet. If I could add, especially for the Mississippi, 
I definitely agree. It needs a comprehensive look, and that is 
going to include a really careful assessment of things that the 
Corps is doing now that are working against its various 
missions.
    So that some of the navigation structures built in the 
middle Mississippi River, for example, are increasing flood 
height significantly. A lot of other activities are harming 
habitat even though there is a restoration authority.
    So the Corps' projects often work at cross-purposes. So 
unless they are actually looking holistically at the system to 
see what is the best way to let the system ideally act as a 
river that is deep enough to carry navigation--we recognize 
that--but let the system act like a river to the extent that it 
can still address your concerns.
    I think a lot of times less is more and people do not 
really recognize that in the construct even of ecological 
systems.
    Ms. Craig. Thank you so much.
    I think I am out of time, Madam Chair. So I will yield 
back. Thank you.
    Mrs. Napolitano [presiding]. Thank you very much.
    Mr. LaMalfa, you have 5 minutes, sir.
    Mr. LaMalfa. Thank you, Madam Chair. I appreciate it.
    I want to just launch into, with a couple of our witnesses 
here, the condition in California and its storage. As I look at 
an updated number, our two largest projects being Lake Shasta 
and Lake Oroville, Shasta has drawn down to a number, oh, right 
around two-thirds of its capacity, and Lake Oroville is 
approaching a number of about just about 50 percent of its 
capacity.
    We are seeing the reports. Now we are looking for a 
condition. We are seeing a condition in California called 
``abnormally dry,'' where, again, we topped off the reservoirs 
pretty well last year.
    So my concern is, and Mr. Weber was asking you, Mr. Pineda, 
and maybe you toss that to Mr. Galloway and Mr. Gritzo there, 
on the modeling that we are doing for flood or for rain, you 
know, precipitation events in the coming winter here.
    And so would you touch on what Mr. Weber's question was, or 
did you have information on that?
    You said a simulated model was developed in the 1970s or 
1960s. Was it based on flood impact or how broad-based was the 
modeling we are looking at for these conditions?
    Mr. Pineda. Thank you, Congressman.
    Ricardo Pineda here from Association of State Floodplain 
Managers.
    So essentially, the Corps of Engineers experts at the 
Hydrologic Engineering Center, and I am sure they had 
contributions from Corps districts from throughout the country, 
developed a suite of models.
    And in my day of modeling, it started with punch cards, 
they were called. HEC-1, which is kind of the rainfall on the 
ground, and how does that convert to flow in the river?
    And then HEC-2 was how high does the water get in the 
river, and then there was HEC-5 that dealt with reservoir 
simulations.
    So many of those have all been combined into suites of 
models, and now they use GIS. So those models are there, and 
those help along with our Federal partners, with the National 
Oceanic and Atmospheric Administration, the River Forecast 
Centers; they help predict the inflow to the reservoirs, like 
the Shasta and Oroville and the contributing reservoirs 
downstream.
    And then we run models to determine how high the river is 
going to get, and then that allows us for what we call 
coordinated operations for all of the management of those 
reservoirs if you have got multiple reservoirs feeding into the 
river.
    So there is a lot of software, and there is a lot of 
experience required. And that has been going on for a while, 
and it keeps on advancing way past the skills that I developed 
in the early part of my career.
    Mr. LaMalfa. OK. So what era were these developed here?
    I thought I heard you say the 1970s for some of this 
modeling.
    Mr. Pineda. I think HEC-2, which was my first exposure to 
the models, that was probably developed. The math has been 
around for a while, and we used to do--when I took the class in 
graduate school, we did the computations by hand, and then we 
used the computer program with punch cards.
    So I think that started in the 1960s, and maybe General 
Galloway has more exposure to the history of the Hydrologic 
Engineering Center.
    But they have continuously evolved, and they are 
essentially world leaders in the software.
    Mr. LaMalfa. OK. Let's let him speak because I am running 
short of time. Thank you.
    Mr. Galloway, what would you add?
    General Galloway. HEC is the world leader. People all over 
the world are looking for it. What we have in this country is 
highly talented consulting engineers that take some of the HEC 
models and they put them into a specific application.
    But, again, it is that HEC is leading the pack, and their 
models are up to date. That is not the challenge. The challenge 
is----
    Mr. LaMalfa. With regards to the mapping of what is a flood 
plain or how the reservoirs affect the flood plain, the 
releases, then how full the reservoirs are kept during the 
year?
    General Galloway. Yes, they have, as Mr. Pineda mentioned, 
they have a suite of models that deal with all aspects, 
including some of the benefits and costs of having activities 
take place in reservoir operations.
    So they are a full-service hydrologic modeling organization 
that is focused and----
    Mr. LaMalfa. I am sorry. I have got to cut to the chase 
here, sir.
    And so how modern is it compared to the meteorology we have 
available?
    My understanding is that Scripps down in San Diego has a 
tool to further update weather patterns and better predict how 
much water we can carry.
    My concern is we let all of the water out in the fall in 
anticipation of we need the flood space, and we let too much 
water out because we have old models. We are maybe overly 
cautious.
    And I do not want to say that disrespectfully of what the 
flood control people have to do, but how are we going to 
monitor that?
    Mr. Gritzo, I saw you nodding your head on it. Please jump 
in there.
    Mr. Gritzo. Yes, sir, Mr. Congressman.
    The computational fluid dynamic models do a very good job 
of modeling where the water goes once it comes out of the sky. 
The challenge is determining the seasonal variation of climate 
and the precipitation rates locally that affect the exact 
problem I believe you are trying to discuss.
    There is a number of climate models that are used by the 
Intergovernmental Panel on Climate Change. Those ensemble 
calculations are the best possible.
    But it boils down to a seasonal forecast of climate and 
local weather conditions, right down to precipitation rates as 
a function of time, a key technical challenge.
    Mr. LaMalfa. OK. So are we keeping up with the availability 
of technology in the governing of our water supply?
    Are they staying together or are we on the cusp of that?
    Mr. Gritzo. Yes, sir. I believe there are opportunities to 
make a better connection between those dots and to better 
integrate those systems.
    Mr. LaMalfa. Are we doing those? Something called the 
``forecast-informed reservoir operations,'' a description.
    Mr. Gritzo. I cannot speak to the details of that program. 
I would have do some additional research.
    Mr. LaMalfa. OK. I have got to bang through here.
    Mr. Pineda?
    Mr. Pineda. Yes, sir. You mentioned forecast-informed 
reservoir operations. I am aware that that was done on Scripps 
Institute, working with the Corps of Engineers for a reservoir 
on the Russian River.
    Mr. LaMalfa. Is this something we wish to be integrating 
into the State water projects full speed?
    Mr. Pineda. I believe we currently have for the State water 
project in California forecast coordinated operations, and with 
the needs assessment after the Oroville Dam incident, you know, 
better hydrologic forecasting for the inflow to the reservoir, 
which then dictates how you operate the reservoir as far into 
the future as you can is definitely on our list.
    And the FIRO, or the forecast-informed reservoir 
operations, has been incorporated into the Folsom Dam.
    Mr. LaMalfa. I wish I could get faster answers.
    Thank you. I have got to yield back.
    Mrs. Napolitano. Thank you, Mr. LaMalfa.
    We go to Mrs. Fletcher. You are on for 5 minutes.
    Mrs. Fletcher. Thank you very much, Chairwoman Napolitano 
and Ranking Member Westerman, for holding this hearing.
    Thank you to the witnesses for being here today.
    Of course, the Army Corps of Engineers has one of the most 
critically important jobs in the country, and the WRDA 2020 
bill that we are working on in this committee is one of the 
most critically important bills in this Congress for my 
constituents in Texas' Seventh Congressional District, as well 
as the entire Houston region.
    So I do want to associate myself with the comments of my 
colleague and neighbor, Mr. Babin, about the incredibly 
critical importance of the project to widen the Port of Houston 
and the Houston Ship Channel.
    And we are very much working on that anticipated project, 
and I look forward to working with the committee on that as we 
work on this bill.
    In addition, on the West Side of town that I represent, the 
Army Corps is responsible for essential infrastructure as it is 
across the country, whether it is the port and the ship 
channel, to dams and the reservoirs in my district, and that is 
one of the things that I want to ask you all about today.
    As many of you know, we have been talking just now about 
weather, and the threats that the Corps' infrastructure 
receives are changing, and the challenges to managing it I 
think we are seeing increasing from the extreme weather events 
that are continuing to grow.
    The stress that it puts on the existing Corps 
infrastructure is across the country, as you no doubt know. In 
my own district, we were devastated by Hurricane Harvey, and it 
was the single largest rainfall event in the United States 
history.
    We saw massive flooding, some of which took place only 
after the Army Corps was forced to do a controlled release from 
the Addicks and Barker Reservoirs because the existing 
infrastructure could not keep up with the incredible amount of 
rainfall.
    At the same time, we have seen rainfall levels nearly that 
high just this past fall. So we know that it is not an 
aberration but a new reality that we have to be prepared for 
that level of rainfall.
    And I think it is important to understand how the Corps 
looks at ways of carrying out its duties that reflect that 
reality, that some of the infrastructure was designed at a 
different time and for a different purpose.
    I think, Mr. Pineda, you touched on this briefly, and I 
want to revisit it, but one thing that we discuss in Houston 
extensively is how the Corps calculates the benefit-to-cost 
ratio, the BCR.
    In certain watersheds it can be difficult to identify 
projects that meet BCR requirements, even though the projects 
would do structural flooding, and that is a critical issue that 
we have got to tackle.
    So this question really goes to anyone on the panel who 
wants to address it.
    What can the Corps do to revisit the BCR calculations to 
allow for additional considerations that reflect the new 
realities that our communities are facing in this changing 
weather environment?
    General Galloway.
    General Galloway. I think I mentioned earlier that we have 
the PR&G that came from the response to the Congress, produced 
it, and it is now on hold.
    You have real problems figuring out what the benefits are 
for lower income for environmental issues when you ban that 
sort of an activity, looking at the complete panoply of 
benefits that exist.
    And we know there is a lot already written about that, 10 
years' worth of work on identifying what is happening, and as 
we saw in the areas you are talking about in Houston, they do 
not get a fair shake when you do not get the opportunity to 
look at what benefits could accrue to them and how they are 
different than the benefits that might be in the western part 
of the city or somewhere else.
    So we have it on the plate. It is here. It is sitting, but 
it is held up in its use because of, I guess, objections to the 
fact that it includes heavy reliance on environmental and 
social costs and benefits which are necessary to deal with the 
issues you are raising.
    Ms. Ufner. Congresswoman, if I could just jump in, we 
demand an enormous amount from our infrastructure, but we do 
not fund it significantly enough, and as we are seeking more 
resilient infrastructure, it would do better to fund it 
upfront.
    And just a note. A study into BCR was required in WRDA 
2018, but it has not started yet.
    Thank you.
    Mrs. Fletcher. Thank you.
    Would anyone else like to weigh in with the few seconds I 
have left?
    Ms. Samet. Yes, I would just add, if I could, 
Congresswoman----
    Mrs. Fletcher. Yes. Thank you.
    Ms. Samet [continuing]. That giving some clear direction to 
the Corps on what they can and cannot count as benefits I think 
would go a long way, and then asking them to reevaluate them on 
an occasional basis.
    And if I could also just add that this applies both to the 
situation at the Addicks and Barker Reservoir and the 
reservoirs in California. The Corps has the capacity and the 
responsibility to update those water control manuals and take 
advantage of the information and hydrologic models that are out 
there.
    But many of those operating plans are decades old.
    Mrs. Fletcher. Thank you very much.
    Madam Chair, I yield back. Thank you.
    Mrs. Napolitano. Thank you, madam, Mrs. Fletcher.
    On the updating of the manuals, I ran into that problem 
with the Whittier Narrows. Those manuals are five, six decades 
old.
    And when I asked them would they update them, they said it 
would not be practicable for them. That would take a lot of 
time and money.
    So anyway, the question is: do they update them with the 
new information? That is something that we have got to delve 
into.
    Thank you.
    Mr. Palmer, you are next.
    Mr. Palmer. Thank you, Madam Chairman.
    A couple of things, a lot of things that have been said in 
the hearing that I think make a lot of sense, but there are 
some things that I think that we need to address.
    Dr. Gritzo, I appreciate your perspective from an 
engineer's outlook on these things.
    You said something in your written testimony. I think you 
repeated it in your verbal testimony, that the risk is getting 
worse due to heavier rains from warming climate and an 
increasingly developed and hardened landscape.
    I think obviously the climate is changing. The geologic 
record shows that, but it is interesting that the last 
International Panel on Climate Change report, the AR5, did not 
include changes in flooding to anthropogenic influence from 
reported detectable changes in flooding magnitude, duration, or 
frequency.
    What they are saying is in the context of climate change, 
they do not see that. I take exception to part of it, in that 
at the end of your point here of hardened landscape, that some 
of the big problems that we are facing with flooding is 
development, the hardening of the landscape, land use, the 
failure to use natural resources to mitigate flood.
    And I want to point that out and then suggest to you that 
if we understand fully what is happening in the climate, again, 
go back and look at the geologic record. We have gone through 
multiple periods of climate change when the temperature is 
warmer than it is now.
    And you see in the record that you have had major weather 
events like flooding or extreme temperatures. Yet we need to be 
prepared to adapt and mitigate. I think we have the 
technological ability and the engineering ability to do that, 
whether it is sea level rise, whether it is extreme weather.
    Would you like to comment on that?
    Mr. Gritzo. Well, certainly in terms of looking at 
individual events, it is not possible to attribute any 
individual event to any single effect. We know that there are a 
number of effects that occur.
    But we can say that we----
    Mr. Palmer. It is a multitude of things.
    Mr. Gritzo. Exactly.
    Mr. Palmer. And that is the point that I think concerns me 
about the whole debate around climate change is we get so 
wrapped up in CO2 that we miss the other things that are 
actually happening that we are going to have to deal with.
    Go ahead.
    Mr. Gritzo. I agree. All of these things are contributors.
    What you can say with certainty is that warmer air holds 
more water, and when warmer air releases that water, it 
typically comes at higher precipitation. That is a basic 
thermodynamic law.
    How that manifests itself in precipitation rates in 
different areas will strongly vary. We know the hardening of 
the landscape, the change in land use and increased development 
are exacerbating losses significantly.
    So there are contributing factors, all of which lead us to 
the point where we have to be able to manage the change in not 
only the hazard and the flood hazard, but also the 
vulnerability to losses.
    Mr. Palmer. If you do not properly define what is causing 
the change though, it is a fairly simple engineering principle 
if you get the definition wrong, the solution probably is not 
going to work.
    Mr. Gritzo. Yes, sir. I certainly agree with that. I think 
the best resource in that is the reanalysis data, the 35 years 
of NOAA reanalysis data that we have.
    We certainly should not hang our hats on 100- and 500-year 
events from 35 years of data.
    Mr. Palmer. Right, and that is a great point, and that is 
the thing that concerns me about where we are heading, is that 
we are using really miniscule historic data when we need to be 
looking at epochs in terms of the data to prepare for this.
    One example of failure to mitigate, and I do not want to be 
disparaging toward the Corps of Engineering, but they studied 
building a diversion canal from the Comite River over to the 
Lilly Bayou in Louisiana for 30 years and never put a shovel in 
the ground.
    And then we had that 100-year flood, cost us billions of 
dollars, lost lives, and now the Corps is building that 
diversion canal. That is the type of mitigation, forward-
thinking mitigation and adaptation that I think we need to be 
doing to prepare for what we know eventually is going to occur 
in the terms of climate change that we cannot do anything 
about.
    Madam Chairman, I thank you for the time, and I yield back.
    Mrs. Napolitano. Thank you, Mr. Palmer.
    Mr. Malinowski, your 5 minutes.
    Mr. Malinowski. Thank you, Madam Chair.
    Ms. Samet, you mentioned in your written testimony the 
toxic algae outbreaks in Florida's coastal estuaries and 
elsewhere. I was struck by that partly because I spent much of 
yesterday in my district in New Jersey on the banks of Lake 
Hopatcong, which is the largest lake in New Jersey, a place 
that is beloved by people in the district that I represent as a 
place of recreation, a place where folks spend their summers.
    It was mostly shut down last summer because of a harmful 
algae bloom outbreak. Other lakes in New Jersey experienced 
similar things, Budd Lake, also in my district, and others.
    So I wanted to ask you or any other members of the panel 
who might wish to comment if you can go into any more detail on 
how we might be able to use the upcoming WRDA bill to tackle 
this challenge of harmful algae blooms that so many of us, I 
think, are dealing with back home.
    Ms. Samet. Well, it is definitely a complicated problem for 
sure. I think from the Corps' perspective across the country, 
it seems from my perspective it goes back to the value, that 
multiple value of natural infrastructure.
    If you have robust wetlands systems, you have healthy small 
streams feeding into those systems, and you have rivers that 
function the way or at least attempt to mimic the way that they 
historically have functioned, that a lot, not everything, but a 
lot of the problems with algae blooms will actually wind up 
being assimilated through the wetlands system itself and help 
ameliorate that disaster.
    And also by holding more water on the landscape it will 
keep runoff from coming down all at once and creating massive 
algae blooms at one time.
    So I think, again, from the Corps' perspective, protecting 
the wetlands that we have, restoring those that have been 
degraded, and mainstreaming use of natural infrastructure as 
the approach to addressing our flood problems will go a long 
way to addressing some of those problems. It definitely will 
not solve it all.
    Mr. Malinowski. Any other comments from anyone on the 
panel?
    [No response.]
    Mr. Malinowski. Maybe just staying on this subject then for 
a moment, if you could maybe say a little bit about the role 
that a changing climate has played in creating these outbreaks.
    I mean, my understanding, at least talking to local folks 
who manage these lakes in New Jersey, is that the harmful 
bacteria have generally been killed over cold winters, and that 
is not happening anymore simply because the temperature has 
been warming.
    Is that a fair assessment would you say?
    Ms. Samet. That is my understanding. I am not quite an 
expert in that, but on top of that issue of temperature, which 
definitely plays into the situation, climate change with 
increasing floods and increasing runoff and faster storms, you 
are getting larger influxes into the system as well to begin 
with, and then you have to deal with what the water temperature 
will or will not address.
    Mr. Malinowski. Thank you.
    Admiral Phillips, you and others discussed the larger 
challenge of extreme weather events, antiquated stormwater 
infrastructure leading to flooding. I think a lot of us have 
local problems.
    In my district, several communities along the Rahway River 
Basin, the Green Brook sub-basin in New Jersey have experienced 
extreme flooding related to weather events, and we have been 
working with the Corps in terms of building up resiliency.
    You may have seen the Chairman Pallone of the Energy and 
Commerce Committee who represents a coastal district in New 
Jersey where a lot of my constituents spend their vacations. He 
has introduced the Living Shorelines Act, a bill that supports 
projects that use natural materials and systems, like dunes and 
oyster reefs, to support the natural flood resilience of 
shoreline ecosystems.
    Can you elaborate a bit on how green infrastructure can be 
more cost effective, number one, and also better suited for 
slowing down runoff and floodwaters compared to traditional 
gray infrastructure?
    Admiral Phillips. Certainly, Congressman. Thank you for the 
opportunity to comment, and I will be brief.
    First of all, in Virginia, natural and nature-based 
features as our first line of defense is our top priority as we 
work to develop a coastal strategy and a plan for the State.
    So we value that as a way to buy us time, to buy property 
owners time, to buy businesses time as we figure out what other 
kinds of infrastructure may be required in the future.
    These are also things that can be implemented, as you have 
pointed out and as others have pointed out on this committee, 
for substantially reduced cost in many cases and that can be 
given opportunities to evolve, to migrate over time so that the 
benefits remain even though water and weather challenges and 
climate influences continue to occur and continue to change the 
infrastructure.
    So we find them to be of particular import in our case in 
Virginia because we are so low, because there is so much there 
already, and the opportunity to build on and expand that is of 
significant value to us.
    Mr. Malinowski. Thank you.
    I yield back.
    Mrs. Napolitano. Thank you.
    Mr. Woodall, you have 5 minutes.
    Mr. Woodall. Thank you, Madam Chair.
    And I appreciate all of you being with us today.
    I want to shift gears a little bit because of this 
expertise here. General Galloway, you had the privilege of 
noting that someone had the audacity in 1993 to recommend that 
all the States along the Mississippi River get together and 
talk about a comprehensive plan.
    It has been a little while since then. Ms. Samet, I think 
you all are parties to a lawsuit over a new water control 
manual that affects my State. It was last updated in the 1950s.
    You were absolutely right in your testimony when you said 
we need to use new data and update these manuals though. As we 
have seen in our case, as soon as we update one, lots of 
different stakeholders are involved, and it is hard as a Corps 
of Engineers employee to have everybody applaud job well done. 
Generally, there are a few disparate voices out there.
    Admiral Phillips is working with entire communities of 
human beings who have been in place since the 1800s that are 
being dislocated. Maryland is struggling with families that 
have been there since the 1700s. My friends from Louisiana have 
folks losing their land at the highest rate in the country.
    So delay is a real problem here, not just in environmental 
and wildlife terms, but in human terms.
    You all have made a very compelling collective case that we 
can do better, and I think every member on this panel agrees 
with that.
    What I do not understand is how we can do better, whether 
it is 100 percent better or 10 percent better or 1 percent 
better, and then get everybody onboard so that we can move 
forward because I believe we are all disadvantaged by delay.
    Hearing the collective support for using our very best 
science for resiliency planning, how can I move the timeline 
forward?
    How can I bring this panel together to avoid that next 
lawsuit, not because folks do not have a right to say this was 
wrong, but because certainty advantages us all?
    Does anybody have any guidance for me there?
    And this is a good panel. We have both engineers and 
nonlawyers on because of that.
    Ms. Samet, do you have any guidance?
    Ms. Samet. Yes, I do. And, yes, we are suing over the water 
control manual so that everybody is aware.
    There are a couple of things. One, the key to updating 
water control manuals or any navigation operation plans is 
really basing things on the best possible science and also 
using the expertise of other Federal and State experts so that 
the Corps has that input and then can rely on the kinds of 
information that are provided.
    If at the end of the day you have an environmental impact 
statement on a new water control manual that is actually 
looking at ways to improve the conditions for everybody while 
still meeting project purposes, you will find that you are not 
going to get a lawsuit.
    So doing a better job upfront, and one of the things in 
particular with respect to the ACF----
    Mr. Woodall. Let me interrupt you, and I apologize for 
that.
    Among the different timing issues I would like to fix is 
that we only have 5 minutes because your expertise requires 
more than 5 minutes.
    But as you noted earlier, the Corps is tasked with cross-
purposes. It is very difficult to do remediation and flood 
control simultaneously. These things are sometimes categorical 
opposites which will always allow for someone to file the 
lawsuit to say, ``You did not parse the baby correctly.''
    I need to get beyond that because we have got limited 
resources here both in time and money, and we are flushing a 
lot of them parsing babies that we all want to get parsed 
correctly.
    In your experience, General, did you have folks come back 
and say, ``Job well done. One hundred percent we are good''?
    We have had the Supreme Court speak out and say stop the 
lawsuits, but it is very rare that we have found a way to come 
together ahead of time to prevent the lawsuit, as Ms. Samet 
accurately says would be the goal.
    General Galloway. I think it is critical that we get 
together ahead of time to try and do it. It is very difficult 
now because there are so many roadblocks, barriers that you 
cannot deal with this agency; you cannot deal with these 
people.
    We have got to find out what they are and eliminate them 
because in reality, the EPA and the Corps and FEMA all want to 
work together, but we cannot because of this or that.
    So we need to find out what it is, get people at the table 
together, and create the situations where we can work out new 
manuals, new approaches, new plans that bring everybody into 
the act and allow them to do that under the law.
    What you are doing with the 800 cubic feet/second and WRDA 
2018 is a great step forward like that.
    Mr. Woodall. Well, I will close in that space since we are 
practically in the circle of trust. Just five Members of 
Congress are here, and the six of you all. We will not tell our 
secrets.
    Is there a reason that any of those walls exist that we 
would not want to tear them down?
    Is there a functional engineering reason, environmental 
reason, States' rights reason?
    Is there a reason we would not want to tear down those 
walls?
    I will assume there is not a reason, and we will keep going 
forward. If there is a reason, if you would please submit that 
in writing, I would be grateful and partner with you to get 
that done.
    Thank you for your indulgence, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. Woodall.
    Mr. Rouda, you are now recognized for 5 minutes.
    Mr. Rouda. Thank you, Madam Chair.
    Thank you to the panel for coming here today and providing 
testimony.
    I am Harley Rouda. I am from Orange County, California. I 
represent about 80 percent of the coastline of Orange County, 
including Seal Beach, Huntington Beach, Newport Beach, Laguna 
Beach, a really wonderful area, but like other parts of the 
country and around the world, we are experiencing on a regular 
basis the impact of climate change and rising oceans.
    But, fortunately, we are working hand in hand with the 
Corps in addressing numerous issues, including projects that 
include the Surfside-Sunset Beach nourishment project, dredging 
at Newport Harbor, the Westminster at East Garden Grove 
Channel, and Westminster Channel study, and the Santa Ana River 
mainstream project.
    I am going to start with you, Mr. Pineda. We have 
experienced in California and, I think, have done a very good 
job of understanding the value of bringing together both 
natural barriers as well as man-made barriers.
    And can you talk a little bit about how you have seen that 
work in California and what are the opportunities to leverage 
that across the U.S.?
    Mr. Pineda. Thank you, Congressman.
    So kind of natural solutions, I think, starts with giving 
rivers room to grow relative to protecting beaches from 
erosion. I think that has more been done on the east coast 
where there have been a lot of studies in Louisiana and other 
places and projects implemented where dune and marsh grass 
restoration have been implemented and have helped reduce 
shoreline erosion.
    Also, in the Sacramento-San Joaquin Delta, in areas that 
are not part of our main channels, there are 1,100 miles of 
levees in the delta. So there are a lot of side channels. They 
have used a lot of brush mats, vegetation mats to prevent 
erosion, and many times once you put those adjacent to the 
levee, these are not Corps levees. So we have a little bit more 
flexibility. They attract sediment and then vegetation grows 
and provides erosion protection.
    So those are a few examples of nature-based solutions. I 
think the most important one is slowing the water down, getting 
it out into the flood plains, which right now is kind of a new 
method of recharging our very depleted groundwater in many 
areas of California.
    Mr. Rouda. In many cases the use of natural infrastructure 
is actually more effective and less expensive than man-made 
structures; is that correct?
    Mr. Pineda. Generally so. I think the issue becomes, and 
General Galloway and some of the other people on the panel 
could comment. Putting your engineer stamp on some of the 
nature-based approaches sometimes may be a difficult thing. So 
we need to kind of get over that kind of hurdle.
    But they generally are less costly, and they can be very, 
very effective.
    Mr. Rouda. General Galloway and Ms. Samet--am I pronouncing 
that correctly? Thank you.
    For the two of you, and this is closely aligned with that 
question I just had, is mitigation. Right now the Army Corps is 
meeting 58 percent of its required annual mitigation, which 
means 42 percent is not being met.
    Can you elaborate a little bit as to what that impact means 
for our ability to address properly the issues we are trying to 
handle?
    General Galloway. I can only say I am not familiar with 
where those are not taking place, but it is very clear, and 
this has happened over a long period of time, that when you get 
into a priority list or either a shortage of dollars or there 
is a shortage of time, that tends to slip.
    There is a push for the concrete to go in, but there is not 
the push for nature-based or mitigation projects to go simply 
because you can see the results of the concrete. You can have a 
ribbon cutting, but the others are going to take several years 
to do, and they may be wonderful when they get there, but 
people are still skeptical.
    And it becomes an issue of dealing with the skepticism of 
those that may control or influence the decisions.
    Mr. Rouda. Ms. Samet as well, just very briefly.
    Ms. Samet. Yes. I would also say, I mean, by not doing the 
mitigation, you are actually losing the resilience that we are 
all talking about trying to increase. Mitigation is just going 
to take you, if it works, to zero or no net loss or no loss.
    The Corps, unfortunately, has a history of not prioritizing 
mitigation as it should, and also in some cases for 
longstanding operation projects, they are not actually 
implementing or requiring mitigation at all.
    Mr. Rouda. Great. Thank you very much.
    And I yield back. Thank you.
    Mrs. Napolitano. Thank you, Mr. Rouda.
    Miss Gonzalez-Colon, you are on for 5 minutes.
    Miss Gonzalez-Colon. Thank you, Madam Chair.
    Today is the 526th anniversary of the Europeans arriving to 
America, specifically Puerto Rico. Still, 2 years ago, a major 
disaster made many in the U.S.A. discover that Puerto Rico is 
part of America.
    Still 2 years after that, we are still struggling with many 
of the losses regarding mitigation in Puerto Rico and without 
adding the beach erosion, which is a big issue around the 
island.
    I actually got several suggestions to the new amendment to 
the WRDA Act, specifically, with the qualifying years, when we 
talk about the limits of what can be completed as long-term 
projects and immediate ones.
    One of the issues is that for projects to be authorized 
under the bipartisan Budget Act and the supplementals regarding 
acquisition of land, easements, rights-of-way, revocation, 
disposable areas that now can allow non-Federal sponsors or 
municipalities or even States may request that the Corps 
perform a decision required on their behalf.
    The full Federal share allows this to be done directly all 
throughout the allowance made by the bipartisan act, and this 
is one of the main issues we got back home when we were looking 
to the $2.5 billion that has been allocated just for mitigation 
under the Corps of Engineers.
    But yet the local non-Federal sponsors got several problems 
to actually manage to get the money because of this.
    The second issue will be the section 103 and increasing the 
project limit for section 205, the flood and damage mitigation, 
and section 103, beach erosion from $10 million to $20 million.
    Section 14, which is the emergency streambank, from $5 
million to $10 million for continuing authorities program, or 
the CAP Projects in the areas impacted by Irma and Maria for 
periods, or even Harvey, for 5 years.
    And why is this? I mean, we do have several projects that 
are being studied, investigated, authorized, even planned, but 
they exceed the amount of the cap of the money in those two 
sections.
    So we do have a lot of those areas that are still having 
the problems in the communities, and then we face another 
situation that actually General Galloway mentioned during his 
presentation or his statement.
    Specifically, when we are talking about the areas, in many 
cases they do not meet the cost-benefit cap, and in our case, 
the need to include resilient infrastructure, not just digging 
and dredging, but at the same time losses of other projects in 
towns big and small are not being approved in many cases 
because they just do not meet with the criteria of the cost-
benefit.
    And that takes me to a direct question to General Galloway. 
In your testimony, you know that continuing reliance primarily 
on economic justification of projects makes it difficult for 
those in rural and low-income areas to justify projects that 
will give them considerable social and health benefits, and 
that a broader range of factors should be considered in project 
justification. I totally agree with you.
    So how can we use another term of what risk reduction in 
rural and low-income areas is?
    I mean, what is a specific recommendation we can include, 
General Galloway?
    General Galloway. The specific accommodation is to move 
back to the PR&G, which gives greater flexibility to 
considering health and other social costs and benefits of 
projects, and where you can identify the project as a whole and 
find that there is a social benefit that rises to the same 
level as an economic benefit.
    Miss Gonzalez-Colon. You also state in your testimony, and 
I can be a witness of this, many Federal agencies have a shared 
interest in mitigating against future floods and storms, 
including the Army Corps of Engineers, FEMA, HUD, USDA, 
Department of the Interior, among others.
    And they do have many barriers between them. What can we 
do? How do you recommend this committee address this overlap of 
functions that many times actually stop the help getting to 
those communities?
    General Galloway. I have watched this for many years. It 
goes back to the 1993 flood and all the floods that have been 
since, and the agencies go out and want to accomplish the work. 
Their lines are very narrow.
    What we do not do is at the end of the operation come back 
and say, ``What could we have done better? What is the report 
on the event and the recovery? What could we have done better? 
What barriers should we knock down? And how could we, for 
example, have HUD and the Corps of Engineers work together 
using an exchange of money that would be authorized by the 
Congress?''
    Miss Gonzalez-Colon. Thank you.
    And thank you to the rest of the witnesses. I will submit 
the rest of my recommendations and questions for the record.
    Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, Miss Gonzalez-Colon.
    We will go to Mr. Espaillat.
    Mr. Espaillat. Thank you, Madam Chair.
    And thank you to the witnesses for being here today.
    Exactly 7 years ago New York City was recovering from the 
worst natural disaster in its history, Super Storm Sandy. The 
storm did not just cause flooding in predictable low-lying 
areas, such as the Rockaways off the South Shore of Staten 
Island.
    It also brought up seawater into downtown Manhattan and the 
financial district. I will never forget the photograph of the 
southern part of Manhattan being dark without energy.
    And in my district in East Harlem, a comparatively low-
lying area, they also saw severe flooding, the likes of which 
residents had never experienced in a generation. New York is 
still working to repair the damage the storm caused to our 
infrastructure, particularly subway tunnels under the East 
River and long neglected bulkheads and seawalls.
    But the truth is climate change is real, and the likelihood 
that we will see another Sandy in the next few years is 
uncomfortably high. Historic flooding is happening everywhere, 
as many of my colleagues have reported.
    And we just saw the newspaper accounts of what is happening 
in Venice, Italy, many of the streets flooded at record high.
    But I feel the approach to all of this is too piecemeal. 
Oftentimes the answer to addressing this climate crisis is 
based on upfront costs rather than long-term savings. Meanwhile 
we will end up spending billions of dollars rebuilding 
standards that do not foresee the worsening of the climate over 
the coming years.
    Currently, the Army Corps of Engineers is looking into ways 
to protect New York City's harbor, and the main option being 
explored is a giant underwater seawall that will come up at 
times of extreme storm surge to protect the low-lying areas 
around the harbor from flooding.
    However, many have criticized this as unable to meet the 
problem at hand. New York's comptroller, Scott Stringer, 
recently released a comprehensive resilience report where he 
cites concern with the project.
    As I understand it, authorization for the study dates back 
to the Eisenhower era, authorizing to protect areas from large 
coastal storms. But that policy never envisioned really sea 
level rise from climate change. It was never really considered.
    When critics like Comptroller Stringer and others have 
raised that concern, the Corps has often cited the narrow 
authorization as the reason they cannot explore a broader array 
of options.
    I also feel that no matter what we come up with, the sheer 
sticker shock of this critical resiliency project will prevent 
us from taking the right actions before it is too late.
    So I ask any of the panelists the following two critical 
questions.
    First, what kinds of changes can we make in the upcoming 
WRDA to address this problem because, as we have all heard here 
today, New York clearly is not the only place facing this 
challenge?
    And second, would you say that the way the Federal 
Government currently addresses resiliency projects is pennywise 
and pound foolish?
    What do you think should be the change? What do we need to 
do to change the way we approach these critical investments?
    Anybody on the panel can answer any of the two questions.
    Mr. Pineda. Congressman, let me chime in just a second, and 
I mentioned in the written testimony and the oral testimony 
about the Corps Silver Jackets Initiative. To a certain degree, 
that initiative was working before it was called Silver 
Jackets, where the Corps was partnering with FEMA and States 
and other Federal agencies.
    But essentially, as I understand it, the main focus of 
Silver Jackets is to bring the Federal partners together to 
work with the State and regional partners. So greater funding 
of Silver Jackets and giving it stronger direction for the 
Federal agencies to work together kind of at the beginning 
level could help look at problems like the one you were 
describing and better define what each agency's role then would 
be for a comprehensive system.
    So they are not authorized to build projects, but they can 
get together and talk together with the locals and better 
define who does what and how; what is the optimal way to work 
together with the Federal agencies.
    Mr. Espaillat. What about the consideration of the sea 
level rise aspect of any new project that will prevent these 
kinds of impacts by the next Super Storm Sandy?
    General Galloway. Congressman, being from Maryland where, 
as you know, we have the Eastern Shore across the Chesapeake 
Bay Bridge, and it is facing the tremendous problems with sea 
level rise. What that does each and every day, it gives us new 
benefits and new costs of having to deal with this.
    I think in the case of New York City, that is the challenge 
going back to how you establish the benefit-cost ratio. If, in 
fact, you only include those things that make great economic 
sense, and that is not to say you should not consider that, but 
if you are not considering that the people that live in these 
areas, that the people are part of the solution.
    The people need to be protected. There needs to be 
something done for them. You are never going to get that kind 
of a project in a low-income area funded.
    It has got to have the support of what is in this PR&G that 
says you can consider that that is as important, that health 
and welfare is going to be as important as having a robust 
city, but we need to do them both.
    Mr. Espaillat. Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. Espaillat.
    Ms. Finkenauer, you have 5 minutes.
    Ms. Finkenauer. Thank you, Chairwoman.
    And thanks so much for all of the folks that came to 
testify today. It means a lot that you took the time.
    I know, Dr. Galloway, in your testimony as we look to make 
meaningful investments in resilient infrastructure, one of the 
barriers that you mentioned in your testimony are policies that 
make it harder for Federal agencies, as well as cities and 
States, to work together on solutions.
    Many of the communities in my district have flood control 
projects that were funded by the Army Corps of Engineers, but 
some are now struggling to get Federal assistance to make 
improvements or repairs in these projects.
    For example, the city of Waterloo was actually just 
disqualified for a FEMA hazard mitigation grant to upgrade 
their station or build a new levee around their riverfront 
stadium because it is part of an existing levee system that was 
constructed by the Army Corps.
    I understand that the city is responsible for the cost 
associated with the operation and maintenance of this project, 
but blocking Federal financing from going towards important 
flood project infrastructure does not make sense.
    Mr. Galloway, how would lifting this prohibition and 
allowing communities like Waterloo to use Federal grants to 
upgrade Army Corps flood control projects help promote 
investments in resiliency?
    General Galloway. It is a move toward common sense, and 
when you talk to the agencies, and we have gone around 
Washington. We have gone around these communities where it is a 
problem. We are told the same thing. We would like to help but 
we cannot. We would like to get together, but we cannot.
    The silo does exist, and the people are very busy. So they 
do not necessarily walk across the street to see even in their 
own community another agency, stormwater versus flood control.
    The way it has got to be is something has to be in the 
culture of resilience that says you want to work together. When 
you find a way that prevents you, something that prevents you 
from doing that, let us know, and we will track it down.
    I do not think that that is what we see certainly here in 
Washington, cries from Waterloo that, well, we have this 
problem where they do not get together and they cannot get 
together or they say that is not authorized. We need to figure 
out how we solve that.
    And I believe these are solvable because the people that 
are doing this work really want to do it.
    As Mr. Pineda said, we have this planning assistance with 
the States and the Corps of Engineers Floodplain Management 
Services. Back in 2005, right before Katrina, the Assistant 
Secretary of the Army and FEMA were together in Alaska for a 
conference, and they said, ``We really need to get more money 
into this so we can get out and help people solve these 
problems and work them.'' And they said they would get them.
    When you look at the amount of money we have put into these 
now, including Silver Jackets, it has not grown. We have got to 
find a way to get the help to the people to help them solve the 
problem together and then move ahead with what is a more 
logical approach to some of these issues.
    Ms. Finkenauer. Absolutely, and I would love to open this 
up to you. I just have a few minutes left so if anybody wants 
to jump in.
    If you can touch on, you know, what would the change mean 
and what would that impact feel like for our smaller and our 
rural communities at places like Iowa-1 where I represent quite 
a few of.
    Admiral Phillips. Congresswoman Finkenauer, I will jump in 
please. Thank you for the opportunity, and I understand the 
timeline.
    So in coastal Virginia, we have a number of underserved, 
lower income communities who are parts of cities, who are 
working very hard to try to find solutions to deal with their 
flood impacted future.
    And what we are finding is that in some cases, one agency's 
cost-benefit analysis, HUD under the CDBG program, will meet 
cost benefits that will support these communities and allow us 
to do work in these communities using that opportunity, whereas 
an Army Corps cost-benefit for the same kinds of circumstances 
will not.
    So the challenge is how do we pull together the nuances of 
whatever HUD is using that allows us to get an adequate cost-
benefit and apply it to Corps projects in a way that perhaps 
will develop some sort of shared system where different 
agencies are allowed to come together.
    It is disappointing to hear that CDBG money is prevented 
from supporting Army Corps projects. That is not helpful 
because those are key critical opportunities available to the 
underserved that we, at least in Virginia, take a lot of 
advantage of, and so do other coastal communities.
    Thank you.
    Ms. Finkenauer. Well, thank you, everybody. I really 
appreciate it.
    And with that, I yield back.
    Mrs. Napolitano. Thank you, Ms. Finkenauer.
    Ms. Wilson, you have 5 minutes. You are recognized.
    Ms. Wilson. Thank you, Madam Chair.
    Today's hearing is very timely as Floridians are actively 
fighting the effects of climate change and working to improve 
the resiliency of our water infrastructure. Extreme 
hydrological events have laid bare many of the challenges 
impacting Florida's water infrastructure.
    They have overwhelmed the State's aging stormwater and 
wastewater treatment facilities which are in desperate need of 
maintenance and repair and have caused massive overflows and 
extensive flooding.
    As such, resiliency planning has become a cornerstone of 
our efforts to bolster our ability to withstand and respond to 
increasingly severe hydrological events.
    The U.S. Army Corps of Engineers has been working very 
closely with the communities in my district to help improve 
this. Recently the Army Corps partnered with Miami-Dade County 
to facilitate a discussion with experts, officials, and 
concerned citizens as part of a 3-year study to help reduce 
risk from storms and sea level rise.
    In addition to sharing ideas for tackling sea level rise 
challenges that are unique to south Florida, stakeholders have 
also urged the Army Corps to reevaluate projects like the 70-
year-old central and south Florida flood control system for 
opportunities to strengthen resiliency from increasingly 
intense hydrological events.
    Local leaders have committed significant resources to 
combatting sea level rise and improving resiliency, but the 
Federal Government must be more supportive.
    It is my hope that the next WRDA bill will contain 
additional provisions to help tackle climate change and improve 
the resilience of vulnerable communities like those in south 
Florida.
    I look forward to working with my colleagues to do just 
that.
    I have a couple of questions. Ms. Samet, as you noted, the 
Federal Government has lagged in its funding commitment to 
restore the Everglades. Beyond economic and health impacts of 
restoring the Everglades, how important is full Federal funding 
for the Everglades to properly managing resiliency against 
negative weather impacts?
    Ms. Samet. As you know, the Everglades Restoration Project 
is a top priority for the National Wildlife Federation. We 
certainly appreciate the committee's longstanding commitment to 
moving that process forward, and it does address not just 
wildlife habitat, but storm risk reduction, drinking water 
supply. It really covers the full panoply of issues that you 
need to address for resiliency.
    So I think, you know, at this point it does seem that the 
best thing the Federal Government can do is to make sure it is 
matching the State's commitment and providing at least $200 
million each year towards a comprehensive ecosystem restoration 
plan to make sure that that gets implemented.
    Ms. Wilson. Thank you.
    General Galloway and Admiral Phillips, my district 
traditionally has higher levels of poverty that serve as 
limiting factors to building resilience against the impact of 
negative weather events.
    First, those in my district have a difficult time affording 
flood insurance.
    Second, communities with fewer resources are less able to 
engage in the kind of planning necessary to building this kind 
of resiliency against negative weather events.
    Do you advocate for planning of this kind to include 
analysis, how poverty impacts the community's ability to plan 
for and survive negative weather events?
    Either one of you?
    Admiral Phillips. Congresswoman, thank you for the 
opportunity to comment.
    We absolutely advocate the inclusion of poverty and 
environmental equity and environmental justice in the 
consideration of how we plan for and prepare for the impacts of 
flooding on underserved communities across coastal Virginia.
    It is absolutely critical. If we do not drive it in at the 
Federal and State level, it will be ignored. We cannot let that 
happen.
    Thank you.
    Ms. Wilson. Thank you.
    General Galloway. I would just comment that FEMA and the 
Texas A&M University are working hard in the Houston area after 
Harvey to get the data that can make that case more strongly so 
that we can show and they can show where there are shortfalls 
in giving support to the people that need it the most.
    Why they have the problem, the affordability issue has been 
covered by reports done by the National Academy and point out 
that it just does not make sense to continue the way we are in 
dealing with some of these projects.
    So people are doing it, but it is going to take a while for 
them to go through the process and get that set up. It is 
obvious it is there. We just cannot make the case of how to do 
something about it immediately.
    Ms. Wilson. Thank you.
    Mr. Pineda, you suggest in your testimony that any new 
Federal taxpayer funding program for flood risk associated with 
levees be reserved for top performers. How would you suggest 
budget strapped communities meet your top performers criteria 
while balancing other needs?
    Should the Congress allocate additional funding for 
planning and performance?
    Mr. Pineda. Thank you, Congresswoman.
    When levees are built, they have to be operated and 
maintained, repaired and reconstructed. We have to enter into 
an agreement with the Corps of Engineers to provide those 
services, OMR&R, and so we have to think, when we build new 
levees, we have to think of the long-term operations, 
maintenance cost, and repair and reconstruction.
    So that has to kind of go into the local planning process. 
You know, there is a cost share for new projects, new studies. 
Public Law 84-99, usually it is just the land easements and 
rights-of-way.
    So we want, the association and groups across the country 
want, to make sure our levee system is as safe as ever, and 
that means the locals taking the responsibility to 
appropriately operate and maintain, repair and reconstruct, and 
seek the assistance of the Federal agencies.
    Thank you.
    Ms. Wilson. Thank you, Madam Chair, and I yield back.
    Mrs. Napolitano. Thank you, Ms. Frederica Wilson.
    We will go to just two more questions, for myself and my 
ranking member.
    The question I had for Admiral Phillips: in your testimony 
on the flood protection project for the city of Norfolk, it 
highlights a concern facing many members of this committee when 
the potential cost of protecting small or disadvantaged 
communities may outweigh the monetized benefits.
    But does the kinds of water processes meaningfully allow 
the court to help communities at risk of flooding that may also 
have lower property values or are located in rural areas where 
a lower benefit-cost ratio may affect the viability of the 
project to proceed?
    And do you recommend any changes on that?
    Admiral Phillips. Madam Chairwoman, thank you for the 
opportunity to answer that question.
    We do not believe that the current WRDA process adequately 
addresses the impact to underserved communities. What we found 
in work that we have done with the Corps in Virginia, who are 
fulfilling the standards of their obligations and following the 
processes they have been directed to follow, is that 
underserved communities, lowered value properties, agriculture 
in particular, in addition I would say, is not appropriately 
quantified or valued in the cost-benefit analysis.
    Mrs. Napolitano. Well, what would be your recommendations?
    Admiral Phillips. I think, going back to General Galloway's 
comments on adequately incorporating the principles, 
requirements, and guidelines, including ecosystem opportunities 
in communities, including safety and health benefits, including 
volume of people protected, not just property value of that 
that is protected, and then looking beyond in a more holistic 
and resilient view of the community writ large and not just 
tying it to flood impact on infrastructure and the value of 
that infrastructure.
    Mrs. Napolitano. Mr. Galloway, have you a comment on that?
    General Galloway. I could not agree more. It is something 
that we do not recognize it is there, and for lots of reasons 
we cannot see it because we are not allowed to or the Corps is 
not allowed to bring it forward as a reason for moving this 
project ahead and to consider this: just the issue of the 
volume of population versus the economic value of the 
population.
    Mrs. Napolitano. But what effects are you already seeing on 
these communities during the large flood events?
    General Galloway. Well, what is interesting is that you go 
back now after a big flood event, whether it is a Harvey or 
those that are in Puerto Rico or other places. You can see that 
no matter what you start with, if you are behind and you are 
underrepresented and low income, catching up to where you were 
and even moving ahead is almost impossible because there are so 
many things in the insurance program, in the infrastructure you 
already had, where you protected it all, in most cases it is 
not.
    You are starting behind, and we need something to get 
people to move ahead.
    Mrs. Napolitano. Well, what I am learning is that FEMA is 
wording in law that they can reconstruct the same as before, 
whereas in Puerto Rico, they would need to build resiliency for 
future events.
    But they do not do that.
    General Galloway. I agree with you. The idea that you want 
to get back to where you were and you are then OK does not 
work, and in Puerto Rico, I happen to have gone to the first 
grade in Santurce in San Juan. I have great memories of that 
country or that Commonwealth, and it is amazing to me that we 
have not been able to help the lower income people move forward 
in dealing with these infrastructure issues.
    Mrs. Napolitano. We must do something about it.
    I yield myself no more time, and I will recognize Miss 
Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you, Madam Chair.
    And I am going to do a piggyback on that last question 
because I do believe we need to prioritize as well those small 
communities and little projects.
    And one of the questions directly regarding that is the 
maintenance. I mean, we do have a lot of Army Corps of 
Engineers inactive projects, the lack of maintenance for many 
years, waiting until the next disaster to happen, and that has 
happened in Puerto Rico.
    I mean, many of them were built to manage flood situations, 
but because of the lack of maintenance, they may not be up to 
date when the next hurricane happens because in our case, we 
are in the path of all hurricanes.
    So my question will be: if we should authorize in the new 
legislation that small projects have their definition expanded 
and the cap increased so that the community resiliency 
improvement can benefit and can be covered within the limits.
    I mean, what are your comments on that, Mr. Galloway and 
Ms. Phillips?
    General Galloway. Anything that allows attention to be paid 
to people who may not even know of the challenge, this goes 
back to the squeaky wheel issue.
    If you do not know to complain, if you do not know what to 
ask for, you are not going to get it, and so, again, anything 
that allows the Corps or the people that are dealing with the 
particular issues to have more flexibility is good.
    Money is certainly one way to do that.
    Miss Gonzalez-Colon. Thank you.
    Ms. Phillips, do you want to add something?
    Admiral Phillips. Yes, ma'am. Thank you very much.
    I would also say that in coastal Virginia, and I will speak 
specifically to the city of Norfolk where I am also a resident, 
there has been a tremendous effort to focus on the 
revitalization of underserved communities, and in nearly every 
case, a tremendous part of their challenges is flooding, 
coastal flooding, rain flooding, high-volume flooding.
    And so what this does to them, and this gets to the point 
of, you know, how do we keep them from falling further behind. 
They are right on the edge with no safety net now. If their car 
is flooded, then they cannot get to work. If they cannot get to 
work, then they lose their job. If they lose their job, then 
they lose their apartment. If they lose their apartment, then 
they are out on the street.
    And so we have this sequence of events that takes place or 
could take place with a very small trigger, and the challenge 
for many coastal communities now is those triggers are coming 
more and more frequently because of climate impact, rising 
waters, sea level rise, intense rainfall, and the degrading 
infrastructure that is there to support all of these 
circumstances that cannot keep up with it over time.
    So our challenge is it gets to the point of resilience and 
preparing for resilience. How do you look at this in a holistic 
way that gives communities opportunities to plan 
collaboratively to move forward?
    The cost-benefit that the Corps is using does not support 
that kind of view. A holistic Federal review and collaborative 
process will be necessary to move these kinds of issues 
forward.
    And as many of the panel have said today, rooting out the 
impediments to that and eliminating them and removing them will 
be key to that process.
    Miss Gonzalez-Colon. Thank you.
    And before yielding back, I want to just notice Mr. Gritzo. 
I read about Mylan, or as we say in Puerto Rico, Mylan 
Pharmaceutical, getting ahead of the hurricanes, but because of 
the resiliency problems, you implemented there so the facility 
would withstand the winds of the hurricane.
    And I am glad that facility did not suffer, and as you 
notice in your website, I think it is important. I mean, 54 
percent of the economy of the island is the pharmaceutical 
industry, and so having those facilities being covered by debt 
resiliency programs just helps that out.
    Thank you, and with that, thank you, Madam Chair.
    Mrs. Napolitano. Thank you, ma'am.
    So far, we have had tremendous input from you, and I think 
some of the Members are very glad that we had this hearing 
because it sheds light on some of the things that we need to 
look at.
    But now I ask unanimous consent that the record of today's 
hearing remain open until such time as witnesses have provided 
answers to any questions that may be submitted to them in 
writing.
    And I also ask unanimous consent that the record remain 
open for 15 days for any additional comment and information 
submitted by Members or witnesses to be included in the record 
of this hearing.
    If we missed anything, please let us know.
    Without objection, so ordered.
    I would like to thank our witnesses for their testimony, 
and if there are no other Members--is everything good? No more? 
The committee stands adjourned.
    Thank you.
    [Whereupon, at 12:44 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Madam Chairwoman, it is with great interest that I attend and 
participate in today's hearing on concepts for the next Water Resources 
Development Act: promoting resiliency of our nation's water resources 
infrastructure.
    This hearing will be one of several related to the formulation of a 
new water resources development act (WRDA) for 2020. The next WRDA 
reauthorization allows us the opportunity to address many important 
issues relating to our nation's water resources, including 
infrastructure.
    The role of resiliency in the construction, operation and 
maintenance of projects carried out by the U.S. Army Corps of Engineers 
(Corps) is an issue that we must examine.
    The Dallas area falls within the Southwestern Division of the Army 
Corps of Engineers. Flooding and flood control continue to be issues 
that are ever-present on the minds of residents along the Trinity 
River. I have held several meetings on flooding in the Dallas area.
    This hearing is intended to examine how concepts of resilience are 
incorporated in the planning, design, construction, and operation and 
maintenance of existing projects. Improving the performance of public 
infrastructure in response to major disruptive events like hurricanes, 
floods and tornadoes, all of which affect the Dallas area, must be a 
priority. Mitigation is necessary to avoid a repeating cycle of 
destruction-reconstruction-destruction. Mitigation involves 
retrofitting existing infrastructure or making new construction more 
resilient.
    Resiliency design and criteria should meet the best quality 
standards possible. For engineered infrastructure, ``resilience'' is 
the capacity to maintain a level of functionality or performance over 
the design lifecycle of the infrastructure following a significant 
disruptive event.
    Resilient design criteria should be developed for projects. The 
criteria should include and be based on two primary dimensions of 
resiliency: robustness and rapidity.
    Robustness is the inherent design strength of a structure and its 
ability to reduce initial loss or degradation resulting from a 
disruptive event like a hurricane or tornado.
    Rapidity is the rate of recovering functionality to an acceptable 
level of performance following a disruptive event.
    The resilient design criteria should identify infrastructure type, 
including initial design and retrofits; hazard type; hazard magnitude; 
and the maximum acceptable time to return a structure to functionality 
following a disruptive event.
    The criteria should, at a minimum, apply to structures and 
facilities that if they failed, would have a debilitating impact on 
national or regional public safety; economic security; energy security; 
and any combination of these factors.
    In Dallas, the focus of our efforts with our water resources 
stakeholders and groups (made up of water providers, their local 
government members, the development community, and environmental 
professionals) revolve around regional partnerships that promote and 
collaborate on the following:

    <bullet>  Providing adequate water and wastewater infrastructure to 
meet the demands, given the rapid pace of growth and development in our 
area;
    <bullet>  Promoting water conservation and reuse by businesses and 
residents, including native/drought tolerant outdoor landscaping;
    <bullet>  Addressing maintenance needs, human behaviors that create 
sewer overflows, and replacing aging infrastructure;
    <bullet>  Developing successful asset management accounting, 
tracking, and software;
    <bullet>  Maintaining or improving water quality, including 
education and outreach on human behaviors, wildlife and pets;
    <bullet>  Reducing flooding and other hazards associated with water 
flows; and
    <bullet>  Improving or maintaining open space linkages, 
availability, and habitat quality.

    Madam Chairwoman, we have the opportunity to improve the 
performance of public infrastructure by developing resilient design 
criteria that helps us make our construction stronger and last longer.

                                 <F-dash>
Letter of November 18, 2019, from Sean O'Neill, Senior Vice President, 
  Government Affairs, Portland Cement Association, Submitted for the 
                   Record by Hon. Grace F. Napolitano
                       Portland Cement Association,
                         200 Massachusetts Ave., Suite 200,
                                 Washington, DC, November 18, 2019.
The Honorable Grace F. Napolitano,
Subcommittee Chair,
Subcommittee on Water Resources and Environment,
Washington, DC.
The Honorable Bruce Westerman,
Subcommittee Ranking Member,
Subcommittee on Water Resources and Environment,
Washington, DC.
    Dear Subcommittee Chair Napolitano and Subcommittee Ranking Member 
Westerman:
    Thank you for holding a hearing on ``Concepts for Next Water 
Resources Development Act: Promoting Resiliency of our Nation'' focused 
on steps that can be taken to improve the resiliency of water 
infrastructure as the subcommittee works on a Water Resources 
Development Act (WRDA). The cement industry supports the committee's 
efforts to ensure the WRDA bill continues to direct the U.S. Army Corps 
of Engineers to build more resilient infrastructure.
    The Portland Cement Association (PCA) represents 91 percent of U.S. 
cement production capacity with manufacturing plants in 73 
congressional districts and a presence in all 50 states. PCA promotes 
safety, sustainability, and innovation in all aspects of construction, 
and fosters continuous improvements in cement manufacturing and 
distribution.
    Over the past several years, the United States has experienced an 
increase in natural disasters ranging from hurricanes to flooding that 
have devastated communities across the country. Last year, the United 
States was impacted by fourteen individual billion dollar disaster 
events, resulting in the 4th highest total damage costs ever recorded. 
As we take steps to reduce the damage caused by these disasters, it is 
critical to enhance the resiliency of the nation's water infrastructure 
to increase its durability, longevity, disaster resistance, and safety. 
Using more resilient building materials offers environmental advantages 
by conserving resources needed for the production of replacement 
materials, and by lessening waste, and economic advantages by reducing 
costs associated with repairs or replacements.
    Passage of WRDA provides an opportunity to place greater focus on 
building resilient water infrastructure across the country. As water 
infrastructure is built or repaired, the cement industry supports 
taking steps to ensure improved durability to the nation's water 
infrastructure to better take into account the changing climate. 
Concrete is a critical building material to contribute to improved 
resiliency.
    Additionally, passage of WRDA next year is important for continuing 
the two-year cycle of passing water infrastructure authorizations and 
advancing new Army Corps of Engineers projects. Additionally, passage 
of WRDA is important to improving the nation's navigational and flood 
protection infrastructure. Across the country there are approximately 
100,000 miles of levees with 25,000 miles of inland and intercoastal 
waterways. Annually, the cement industry ship approximately 35 percent 
of our product from plants to terminals by barge demonstrating these 
systems are vital for American commerce.
    We thank you again for holding a hearing focused on improving the 
resiliency of water infrastructure. We look forward to working with you 
to pass a WRDA bill next year.
        Sincerely,
                                              Sean O'Neill,
                         Senior Vice President, Government Affairs.



                                Appendix

                              ----------                              


 Question from Hon. Garret Graves to Gerald E. Galloway, P.E., Ph.D., 
   Brigadier General, U.S. Army (Ret.), Acting Director, Center for 
 Disaster Resilience, A. James Clark School of Engineering, University 
                              of Maryland

    Question 1. How can we improve the Corps' project delivery process?
    Answer:
    a.  A funding policy that doles out project funds on an annual 
basis makes it almost impossible to act efficiently in planning or 
construction and during those operations to avoid rising costs. 
Policies that create boundaries along agencies or between agencies or 
hinder cooperative efforts among agencies make little sense. 
Legislation that would encourage USACE, when it identifies means to 
cooperatively work with other agencies in the interest of time or 
economics to seek and obtain rapid-turnaround approval from 
Congressional committee of such multi-agency work should be considered. 
Also, during feasibility studies the USACE should be encouraged to seek 
out logical opportunities frog such partnerships and cooperate efforts. 
An action taken by the T&I committee in the 2018 WRDA required review 
of a provision in the law that limits USACE's authority to deal with 
flood situations in urban areas where the flow is under 800 cubic feet 
/second. This limitation illustrates the potential for restriction 
removals to assist agencies in working together to accelerate project 
execution.
    b.  Continuing reliance primarily on economic justification of 
projects makes it difficult for those in rural and low-income areas to 
justify projects that would give them considerable social and 
conceivably health benefits. The recent National Academies studies of 
affordability of flood insurance gives a very clear picture of the 
differential level of flood protection under various economic 
situations and strong reason to consider all factors in project 
justification. Without removal of Congressional restrictions on USACE 
use of the federal Principles, Requirements and Guidelines it will be 
unlikely that projects in support of low-income population will move 
quickly through the planning process. This will result not only in 
delays to these projects but may also result in slowdown of projects 
that have a higher economic utility.
    c.  38 years ago, I, as a Consultant to the Water Resources Council 
was asked by the Chair of the Council to examine the reasons behind the 
extremely long time required then to move a federal water resources 
development project of the USACE, BOR, USDA from inception to 
completion. The results of this review were provided to the Chair of 
the Water Resources Council, herds of the concerned agencies, and the 
Chairs of the relevant Congressional Committees. In the years 
following, some progress was made in addressing the issues identified, 
however, I believe that many of the roadblocks to speeding up project 
delivery remain and could be addressed. Even though somewhat `ancient,' 
I am providing the Committee a copy of the report, Impediments in the 
Process for Development of Federal Water Resource Projects, as part of 
my answer to this question.
[Editor's note: The 114-page report entitled ``Impediments in the 
Process for Development of Federal Water Resource Projects: Why All the 
Delay and What Can We Do About It?'' is retained in committee files.]

  Questions from Hon. Garret Graves to Ann C. Phillips, Rear Admiral, 
    U.S. Navy (Ret.), Special Assistant to the Governor for Coastal 
          Adaptation and Protection, Commonwealth of Virginia

    Question 1. Will the Commonwealth carry out the $115 million 
natural disaster resiliency competition grant within the authorized 
timeline or do you anticipate needing an extension?
    Question 1.a.  If an extension is needed, could you please help the 
Committee to understand what reforms may be needed to expedite project 
development and delivery for resiliency projects?
    Answer. Congressman Graves, Thank you for the opportunity to 
testify and to answer Questions for the Record. The Commonwealth of 
Virginia and the City of Norfolk are diligently working together in 
order to carry out the Virginia Natural Disaster Response Competition 
grant within the authorized timeline. The Commonwealth and city do not 
anticipate the need for an extension to meet the national objectives at 
this time, but will continue to monitor the timeline as the project 
progresses into full implementation.

    Question 2. How can we improve the Corps' project delivery process?
    Answer. Virginia values its relationship with the US Army Corps of 
Engineers and their ongoing work with State agencies and localities. 
There is, however, an urgent need to align Corps planning standards, 
Principles and Guidelines, Feasibility Study, and benefit-cost analysis 
processes to better serve Coastal States and their communities dealing 
with rising waters and recurrent flooding.
            prioritize agency missions and funding alignment
    The three primary missions of the US Army Corps of Engineers 
(USACE) Civil Works Division, Navigation, Environmental Restoration and 
Flood Control, often work against each other, as navigation projects 
are a nearer term priority, often overshadowing costlier and longer-
term flood control requirements. This results in navigation projects 
receiving funding at the expense of flood control, which further delays 
critical flood and water infrastructure projects. Navigation projects 
should be evaluated, and funded, separately from flood control 
projects. Navigation projects also need a comprehensive evaluation 
process to consider and determine potential for adverse effects, 
including flooding or negative impact to environmental restoration. The 
National Environmental Policy Act (NEPA) and Clean Water Act provide 
some protections in this regard; those must be maintained, and 
strengthened.
 fundamental review of usace principles, requirements and guidelines--
                  and benefit/cost analysis processes:
    The current BCA process deserves fundamental reconsideration, 
including (as previously stated) strong environmental review and NEPA 
process, quantification of green and natural and nature-based (NNBF) 
infrastructure benefits, and consideration of social and environmental 
equity and long-term regional climate adaptation solutions, given what 
we now know about costs and the longer-term nature of climate change as 
a threat.
    The 2007 Water Resources Development Act directed the Secretary of 
the Army to revise Principles and Guidelines for the Corps, which was 
completed and finalized in 2013, but not fully implemented.\1\ \2\ \3\
---------------------------------------------------------------------------
    \1\ Council on Environmental Quality, ``Updated Principles, 
Requirements and Guidelines for Water and Land Related Resources 
Implementation Studies,'' The White House, accessed December 19, 2019, 
https://obamawhitehouse.archives.gov/node/5321.
    \2\ ``Water Resources Development Act of 2007,'' Pub. L. No. 110-
114, Sec.  2031, 33 USC (2007), https://www.congress.gov/110/plaws/
publ114/PLAW-110publ114.pdf.
    \3\ ``DRAFT Water Resources Policies and Authorities IMPLEMENTATION 
OF EXECUTIVE ORDER 11988, FLOODPLAIN MANAGEMENT, AND EXECUTIVE ORDER 
13690, ESTABLISHING A FEDERAL FLOOD RISK MANAGEMENT STANDARD AND A 
PROCESS FOR FURTHER SOLICITING AND CONSIDERING STAKEHOLDER INPUT,'' 
DEPARTMENT OF THE ARMY EC 1165-2-217 (DRAFT 9 DEC 2016) (US Army Corp 
of Engineers, December 9, 2016), https://www.iwr.usace.army.mil/
Portals/70/docs/frmp/eo11988/EO11988EC_
Draft12Dec16.pdf.
---------------------------------------------------------------------------
    As a result, there remains a need to better balance economic, 
social and environmental goals and impacts across the process, and to 
include regional impact, as well as impact to federal facilities and in 
particular DOD facilities in the watersheds evaluated by the Corps, 
where applicable. Without this broader analytical perspective, 
preferred alternatives skew to grey/hardened solutions, with value 
driven by the value and content of structures protected, and with 
little to no quantified consideration of social, environmental, or 
regional economic long-term benefit or value.\4\
---------------------------------------------------------------------------
    \4\ ``Risk Assessment for Flood Risk Management Studies,'' Engineer 
Regulation (Washington, DC: U.S. Army Corp of Engineers, July 17, 
2017), https://www.publications.usace.army.mil/Portals/76/Publications/
EngineerRegulations/ER_1105-2-101.pdf.
---------------------------------------------------------------------------
                       prioritization of projects
    The U.S. Army Corps of Engineers (USACE) has a $96 billion backlog 
of authorized but unconstructed projects, while annual appropriations 
for the USACE Construction account under Energy and Water Development 
appropriations bills have averaged $2 billion in recent years. Congress 
has also limited the number of new studies and construction projects 
initiated with annual discretionary appropriations, with a limit of 
five new construction starts using FY2019 appropriations.\5\ Since only 
a few construction projects are funded each fiscal year, numerous 
projects authorized by previous Congresses remain backlogged. This 
problem has worsened in recent decades as Congress has authorized 
construction of new projects at a rate that exceeds USACE's annual 
construction appropriations. The Corps must evaluate the complete list 
of back-logged projects for currency and recommend to Congress which 
projects are not addressing current or future flooding needs, are 
otherwise unnecessary, or do not address resilience, pre-disaster 
mitigation, or infrastructure and flood plain actions. Congress must 
instruct the Corps to prioritize projects that provide the greatest 
flood risk reduction and assist regions with the greatest economic 
needs. This aggregation and prioritization will help reduce overlap in 
project and study areas and reduce gaps along jurisdictional lines.
---------------------------------------------------------------------------
    \5\ ``Army Corps of Engineers Annual and Supplemental 
Appropriations: Issues for Congress'' (Congressional Research Service, 
October 2018), https://crsreports.congress.gov/product/pdf/R/R45326.
---------------------------------------------------------------------------
    Given the limits placed on the Corps for new project starts, and 
Corps funding limitations, Congress should also ensure the Corps has a 
smooth process to accept and validate commercial and academic study 
work as the basis for, or in place of, a feasibility study. (For 
example, Virginia Beach's own Back Bay study and storm water study 
discussed in my testimony).
   emphasize green infrastructure, and develop expanded benefit/cost 
 analysis that quantifies green infrastructure and natural and nature-
based feature (nnbf) benefits, and the needs of underserved communities
    Again, the Corps must move from a grey infrastructure/ hardscape 
focus to one that emphasizes green infrastructure and natural and 
nature-based features and economic and social benefits wherever 
feasible. The U.S. Army Engineer Research and Development Center (ERDC) 
has plenty of capacity to address such infrastructure through its 
Engineering with Green Infrastructure Initiative, however, its work is 
rarely considered or included in the Coastal Storm Risk Management 
process.\6\
---------------------------------------------------------------------------
    \6\ ``EWN--Dr. Todd Bridges--Bio,'' 3, accessed November 12, 2019, 
https://ewn.el.erdc.dren.mil/bios/bio_bridges_todd.html.
---------------------------------------------------------------------------
    Green infrastructure and NNBF's buy time, and in many 
circumstances, are more effective, and more cost-effective through 
reducing the amount of water overall, and by absorbing, capturing and 
slowing down run-off and floodwaters while providing ecosystem services 
and co-benefits to communities. This is particularly valuable in the 
context of providing services to underserved communities, and ensuring 
environmental equity across communities.
    In summary, the Corps' project delivery process can be improved by 
a fundamental review of Principles and Requirements--and by 
implementing the Principles and Requirements for Federal Investments in 
Water Resources guidelines completed in March 2013.\7\ It can be 
further strengthened by a fundamental review of BCA processes, by 
including strong environmental review, quantification of green and NNBF 
infrastructure benefits, consideration of environmental equity, and 
regional economic benefits. Given what we now know about costs and the 
longer-term nature of climate change as a threat--we have no time or 
federal dollars to waste.
---------------------------------------------------------------------------
    \7\ Council on Environmental Quality, ``Updated Principles, 
Requirements and Guidelines for Water and Land Related Resources 
Implementation Studies.''
---------------------------------------------------------------------------

  Questions from Hon. Grace F. Napolitano to Ricardo S. Pineda, P.E., 
 C.F.M., Chair, Association of State Floodplain Managers, Supervising 
  Water Resources Engineer, California Department of Water Resources, 
  Division of Flood Management, on behalf of the Association of State 
                          Floodplain Managers

    Question 1. What do you see as the role of existing infrastructure 
in meeting future challenges and meeting future needs?
    Answer. Existing flood infrastructure includes, but is not limited 
to, urban drainage infrastructure including pumping plants, dams that 
provide dedicated flood storage and are controlled by USACE Water 
Control Manuals, and levees, floodwalls and bypasses. To meet future 
challenges due to larger flood events due to climate change (including 
hydrologic changes, changes in sea levels, and other changes within 
watersheds), the existing infrastructure needs to be assessed by 
operation entities to determine the level of flood protection the 
facilities or project works currently provide, and what levels of flood 
protection would likely be provided under expected future conditions. 
The infrastructure also needs to be operated and maintained to the 
highest standards possible. Operating entities and the communities they 
serve need to assess new protection standards and design hydrology they 
need and intend to achieve to reflect increased flood flows due to the 
expected future conditions. ASFPM recommends that, at a minimum, future 
conditions which extend for the full useful life of facilities or 
project designs must be considered.
    A gap analysis should be performed and studies undertaken to 
determine how and where the existing infrastructure should be improved 
to protect communities against larger and more frequent floods. Special 
attention should be paid to aging dams with dedicated flood control 
storage to examine the need for expanded outlet works, including the 
potential for new auxiliary spillways or modified spillways. Urban 
drainage systems need to be examined for the potential of additional 
storm water storage, and separating storm water drainage from sewage 
flows in existing combined storm and sewer water systems. Existing 
levee systems can be raised and strengthened via levee lifts, 
floodwalls, seepage cutoff walls and stability berms, and consideration 
should be made of levee setbacks to increase flow conveyance capacity, 
reduce erosion, improve groundwater recharge, and to provide open space 
for habitat restoration. Improvements and establishment of new 
floodways or expanded floodways which divert floodwaters from rivers 
need to be considered. To complement improvements to the existing flood 
infrastructure, communities should adopt a portfolio approach to flood 
risk reduction that includes risk-informed land use restrictions, 
increased purchase of NFIP flood insurance, and flood mitigation, 
including buyouts and structure elevation, where appropriate.
    Example projects of note along these lines:

    <bullet>  Corps' SELA Project (Southeast Louisiana Urban Drainage 
Project). This project is improving storm water drainage in the New 
Orleans for protection against the 10-year rainfall event.
    <bullet>  Providing Urban Level of Flood Protection (200-year 
protection) for California urban communities along the Sacramento and 
San Joaquin River Systems. Existing federal levees protecting urban 
areas of Yuba City, Sacramento, West Sacramento, Stockton, Lathrop and 
Manteca are being improved or planned to be improved to a 200-year 
level of flood protection. These projects have been funded by the State 
of California, regional flood control agencies, and some funding from 
the USACE through a variety of partnerships. They include the setback 
of federal levees and the planned widening of the Sacramento Weir, 
which diverts floodwaters into a flood bypass. The projects have been 
planned to provide multiple public benefits.
    <bullet>  Folsom Dam modifications. A new emergency spillway at 
Folsom Dam located upstream of Sacramento will allow the dam to safely 
pass the updated ``probable maximum flood'' and make larger reservoir 
releases with the reservoir at lower water levels to support Flood 
Informed Reservoir Operations (FIRO) and maintain flood flows in the 
American River below the maximum flow capacity. This project is 
referred to as the Folsom Dam Joint Federal Project was led by the 
USACE and supported by the U.S. Bureau of Reclamation, the State of 
California, and the Sacramento Area Flood Control Agency. The USACE 
Water Control Manual was updated to reflect the updated probable 
maximum flood and forecast informed reservoir operations.
    <bullet>  Existing dams that provide dedicated flood control 
storage should be examined for feasible improvements to their outlet 
works and spillways and updates to their USACE Water Control manuals to 
ensure that they can and will function at an optimum level for the 21st 
Century.

    Question 2. How do you see this playing out in California, 
especially with the need to balance water supply for communities?
    Answer. In California, post-Hurricane Katrina and after a Five-year 
Drought, the voters have been willing to approve multiple state bonds 
to fund flood risk reduction infrastructure and regional water supply 
projects. These funds have been used to improve flood protection along 
the existing Sacramento and San Joaquin Flood Control System to a 200-
year level of flood protection for six urban areas. The California 
Department of Water Resources and the California Central Valley Flood 
Protection Board have sought and continue seeking to maximize federal 
participation in each of our structural flood protection projects. Many 
urban flood protection projects have been started prior to the Corps' 
beginning construction and were classified as ``Early Implementation--
``No Regrets'' '' projects. Some of the State-funded projects focused 
on levee repairs that had been waiting for Corps repairs for many years 
and were delayed in part due to federal environmental permitting. Two 
existing federal dams have been improved to provide a greater level of 
flood protection through improvements of an existing floodwater 
spillway in one and the construction of a new spillway and Water 
Control Manual in another. Flood Control and seismic improvements are 
also being designed for a third dam.
    While California implements with its federal and local partners 
much needed improvements to its structural flood risk reduction system, 
it is has also maintained an active and essential floodplain management 
program, including carrying out FEMA NFIP mapping and extensive 
development of digital terrain models, and hydrologic and hydraulic 
studies that can be used by local, state, tribal, and federal partners. 
California maintains an active flood forecasting operation in 
cooperation with NOAA, reservoir operations units who've helped develop 
forecast-coordinated operations procedures and forecast-informed 
reservoir operations, and flood emergency response teams.
    None of California's flood risk reduction actions are seen as 
incompatible with existing water supply infrastructure; in fact, they 
are complimentary. Of course, each new flood risk reduction project 
needs to be evaluated for all its potential impacts on other property 
and the environment, including water supply impacts. California flood 
risk reduction project cost-sharing advocates for projects that provide 
multiple benefits, including environmental benefits, open-space/
recreation, and floodwater-managed aquifer recharge, when possible.
    The California Water Plan Update 2018 identifies a new water supply 
management strategy, referred to as ``FloodMAR,'' which advocates the 
use of floodwater for managed aquifer/groundwater recharge. Groundwater 
banks, large and small, are in place and under development in the South 
San Joaquin Valley and Southern California. Flood waters are being 
diverted as much as possible to the groundwater banks as a source for 
groundwater replenishment.
    The bottom line is, California's water infrastructure is extensive 
and complex and incrementally is being improved for the challenges we 
anticipate in the 21st Century. A key policy is to strive to ensure 
each project provides multiple benefits and improves/supports regional 
water management at the local level. The California Department of Water 
Resources works closely with its federal and local partners, including, 
but not limited to, the USACE, USBR, FEMA, USGS, NRCS, NOAA, NMFS and 
USFWS, to ensure water policy and environmental alignment resulting in 
well-coordinated projects to meet the needs of our state based on a 
changing climate.

    Question 3. What steps can the Corps take under existing 
authorities to factor resiliency into their projects, and what are the 
gaps with these authorities?
    Answer. These are a series of ASFPM recommendations for both 
actions under existing authorities and where authority gaps may exist 
to help the Corps of Engineers make progress toward building toward 
resilient communities and infrastructure:

    <bullet>  We need to have clearer direction and clear authorities 
and procedures to update Corps (and, where appropriate, USBR) 
reservoirs and their operations with dedicated federal flood control 
storage that should be reflected in regularly updated Corps of 
Engineers' Water Control Manuals.
    <bullet>  We must also leverage nature-based approaches, natural 
infrastructure design features and green infrastructure. This begins 
with removing every single barrier in statute and policy so that we 
automatically consider these approaches in part or in whole, in each 
situation where decisions must be made regarding the current and future 
resiliency of the water resources and their affected environments 
(i.e., mandate that nature-based approaches and natural infrastructure 
approaches be considered in conjunction with P.L. 84-99 repair and 
rehabilitation projects and in all flood risk reduction project 
feasibility or project modification studies).
    <bullet>  We should increase and broaden the implementation of the 
Corps of Engineers' Engineering With Nature Initiative.
    <bullet>  In ASFPM's testimony we have emphasized that Congress and 
the USACE should provide a significantly greater level of water 
resources management and flood damage reduction technical assistance 
through the Planning Assistance to States Program, the Floodplain 
Management Services Program, and the Silver Jackets program, or 
possibly a new, expanded continuing technical assistance authority or 
authorities. Currently, only a handful of Corps' District Offices 
regularly utilize these technical assistance authorities, partly 
because the scale of funding is so limited that it has not even been an 
option for many districts. The Corps needs a substantial initiative to 
expand its technical assistance to communities, states, and tribes, 
where the end results may not be new large Corps civil works projects, 
but in order to help communities and states develop some of their own 
projects to address flooding problems, with potential assistance from 
multiple federal, state, local and other sources contributing. 
Historically, the USACE produced Flood Information Studies and these 
studies were used by communities as a basis to develop alternatives for 
flood risk reduction, including the implementation of floodplain 
management measures and nonstructural flood risk reduction. Such 
assistance should be brought back in one form or another with greater 
focus on longer-term resiliency. In addition we urge that cost-sharing 
policies be harmonized and updated so as not to bias against utilizing 
nonstructural, nature-based, or natural infrastructure approaches where 
these approaches may make the greatest overall sense.
    <bullet>  We would also urge adoption of the Principles, 
Requirements, and Guidelines, and would urge movement toward greater 
identification of the multiple benefits associated with wise floodplain 
management and nonstructural approaches to flood risk reduction, as 
directed in WRDA 2007, Sec. 3021. We also would strongly support 
adoption of a National Economic Resilience Standard in planning for 
future flood risk reduction and improved floodplain management. This 
could be greatly assisted by implementation of the previously adopted 
Federal Flood Risk Management Standard, including the requirement that 
new critical infrastructure be protected against at least the 500-year 
flood event. In addition, we would support completion of the WRDA 2007, 
Sec. 3022 Water Resources Priorities study of flood risk, which would 
provide the Corps and Congress with critical information evaluating 
risks, costs, and options to address future resiliency challenges and 
opportunities. The study was begun, but never completed by the Corps.
    <bullet>  ASFPM also urges greater cooperation between FEMA and the 
USACE on flood risk assessment, including large-scale, full-risk 
mapping. FEMA should consult with the USACE Hydrologic Engineering 
Center on the methodology and potential to carry out large-scale, full-
risk mapping across the nation for advisory flood risk information.
    <bullet>  WRDA 2016 and 2018 both included direction for greater 
inclusion of nonstructural measures in project plan formulation, yet 
the Corps of Engineers WRDA guidance has thus far failed to implement 
and institutionalize this direction. We urge the Committee to continue 
considering ways to bring such planning into all flood risk management 
studies, and we would further urge the Committee to follow up and 
insist on completion of the WRDA 2014 authorized Sec. 3029 studies 
identifying data and program effectiveness in P.L. 84-99, and biases 
against and impediments to utilization of nonstructural approaches to 
flood risk reduction. An area for potential legislative focus for WRDA 
2020 could be improved coordination with other federal agencies to 
adopt a flood risk reduction portfolio that maximizes flood risk 
reduction utilizing nonstructural measures in some cases to be carried 
out or led by other federal agencies.
    <bullet>  As ASFPM has emphasized in our oral and written testimony 
to the Committee, we urge the Committee and Congress to authorize and 
carry out a Missouri River System Study that will examine the 
management and operation of the 6 Corps Dams on the mainstem of the 
Missouri River and the Missouri River federal and nonfederal levee 
system, in light of the long and growing history of repetitive levee 
breaches and failures, pinch points and road and bridge closings and 
repairs, rural and urban flood damages, and repetitive flooding where 
there are clear needs for greater floodwater conveyance than is now 
available in large flood events, going into the future. Besides the 
critical importance of such a study in Midwest states where enormous 
losses have already been experienced, and major challenges and costs 
for repairs and disaster damages and assistance will be faced for years 
to come, ASFPM believes such a general system review authority is 
needed for the Corps to identify and promote water resources community 
and infrastructure resiliency into the 21st Century.
    <bullet>  We urge the Committee to support adoption and utilization 
of the ANSI 2510 Standard for Flood barriers and to improve and upgrade 
the capability of barrier testing facilities at the Corps' ERDC 
facility. This was further discussed in our written testimony.
    <bullet>  We also would urge adopting standards to Protect Urban 
Areas to a level at least equal to the `Standard Project Flood' (this 
was a recommendation of the Galloway Committee report from 1994, and we 
believe makes even greater sense in light of current experience).
    <bullet>  Finally, I reemphasize our view at ASFPM that the 
Committee should ensure the Corps has authority to consider building 
acquisition/relocation and utilization of levee setbacks and/or 
realignment as alternatives in all flood loss reduction programs. These 
are and will be critically important tools for infrastructure and 
community resiliency going into the future, but they are currently far 
under-utilized approaches that could save the U.S. taxpayers huge sums 
going into the future.

 Question from Hon. Garret Graves to Ricardo S. Pineda, P.E., C.F.M., 
  Chair, Association of State Floodplain Managers, Supervising Water 
Resources Engineer, California Department of Water Resources, Division 
 of Flood Management, on behalf of the Association of State Floodplain 
                                Managers

    Question 1. How can we improve the Corps' project delivery process?
    Answer. Recognizing that one of the critical path actions in 
project delivery is funding: the Corps' needs to think about taking a 
fundamentally different approach to project formulation and technical 
assistance. Dr Gritzo who also testified during the hearing talked 
about FM Global model where FM Global engineers provide technical 
assistance to their insured clients--through risk assessments and 
identification of flood loss reduction alternatives. Then the business 
implements the mitigation. What would happen if the Corps took a more 
technical assistance-oriented approach with a foundational 
understanding that they may, or may not, be the entity actually funding 
and constructing the project, engage the community with a solution or 
range of solutions that could be implemented by the community, 
regardless of the Corps' participation?
    In so many cases, just by having feasible alternatives presented, 
communities can proceed with their own project, if it doesn't appear a 
Corps project will be funded by Congress. Isn't the goal to get 
protection in communities as quickly as possible? Who cares who is 
funding it? States and communities will step up and ASFPM has seen 
examples of this occur. The current model and expectation that the 
Corps will study, design, and build a project just doesn't line up with 
reality and the $100+ billion backlog of authorized, but unconstructed 
projects that exists. Not every USACE study needs to recommend an 
expensive structure-based project that is difficult to economically 
justify, pay for, and maintain. In a more flexible approach (which 
might also include looking at smaller flooding issues), the Corps could 
serve far more at-risk residents, communities, and businesses of our 
nation than they do now.

   Question from Hon. Garret Graves to Louis A. Gritzo, Ph.D., Vice 
                    President of Research, FM Global

    Question 1. How can we improve the Corps' project delivery process?
    Answer. Here, respectfully, are our suggestions:
    The U.S. Army Corps of Engineers is an essential partner to 
residents and businesses in communities affected by flood. We at FM 
Global, one of the world's largest commercial property insurers, 
recommend the following three-pronged approach to improving the Corps' 
project delivery process as it relates to protecting the value of 
companies doing business in the U.S.:

    1.  Reprioritization and allocation of funds: Federal 
appropriations for post-disaster recovery and pre-disaster risk 
mitigation should, to the extent possible, be thought of as a single 
combined resource. All non-emergency projects should be objectively 
analyzed, evaluated under current and expected future conditions, 
prioritized accordingly and funded on a comprehensive cost/benefit 
basis. Prioritization should be informed by the facts that it's far 
more cost-effective to prevent a flood loss than rebuild or recover 
afterwards.
          Funding priorities should also consider the value of flood-
related loss prevention not merely in terms of property value, but 
rather in terms of the overall contribution to a community's economy 
and quality of life.
    2.  Evaluate levee alternatives: Although levees are a proven 
defense against flooding, they are a somewhat blunt one. FM Global 
encourages the study and use of alternative flood mitigation 
approaches, including but not limited to expanded wetlands, permeable 
landscapes, and inland waterways. As part of this work, the Army Corps 
should deploy state-of-the-art hydrological models and implement 
technically sound standards for design, inspection, and maintenance 
developed through public-private-academic partnerships.
    3.  Strengthen research and testing capabilities: Implementing the 
aforementioned recommendations to improve decision-making and project 
delivery will require the Corps to expand its engineering services and 
support them with a strengthened research and testing capability, 
presumably at its U.S. Army Engineer Research and Development Center 
(ERDC) in Vicksburg, Mississippi. The ERDC has been a valuable partner 
in flood mitigation efforts and needs to be expanded and updated to 
meet evolving challenges. Of particular importance is providing 
laboratory improvements that enable certification testing of temporary 
flood barrier solutions to address higher floodwaters beyond the lab's 
current three-foot limit. Tested and certified temporary barriers 
provide solutions that protect structures from damage when permanent 
flood protection measures are not possible, or during times of 
excessive local precipitation.

    In summary, we urge improving the Corps project delivery through:

    <bullet>  the reprioritization and allocation of federal flood 
mitigation and recovery funds,
    <bullet>  a comprehensive evaluation of levee alternatives, and
    <bullet>  stronger research and testing capabilities at the ERDC.

    We hope these recommendations are helpful. Thank you again for your 
consideration. FM Global is eager to continue this dialogue for the 
benefit of American communities facing the growing and grave threat of 
flood loss.

    Question from Hon. Garret Graves to Melissa Samet, Senior Water 
            Resources Counsel, National Wildlife Federation

    Question 1. How can we improve the Corps' project delivery process?
    Answer. Thank you for the opportunity to share the National 
Wildlife Federation's views on improving the Corps' project delivery 
process. At the outset we wish to stress that efforts to improve the 
project delivery process should focus as much on producing more 
effective and ecologically sound water resources projects as it does on 
reducing the amount of time it takes to plan and construct those 
projects.
    To produce more effective and ecologically sound projects, the 
Corps must fully account for the vital importance of the nation's 
rivers, streams, floodplains, and wetlands. These natural 
infrastructure systems are essential for resilient communities, 
resilient populations of fish and wildlife, and a vibrant outdoor 
economy. The Corps should take full advantage of these natural systems 
to help absorb floodwaters and buffer communities, improve the 
effectiveness and resilience of levees and other structural water 
resources infrastructure, and reduce the need for new structural flood 
and storm damage reduction projects.
    The Corps' project delivery process has not been--and will not be--
improved by eliminating planning steps; curtailing, diminishing, or 
undermining robust review under the National Environmental Policy Act; 
or imposing arbitrary time limits on project planning and environmental 
review. We strongly urge Congress and the Administration to refrain 
from advancing any such changes.
    To help produce more effective and ecologically sound projects and 
improve the Corps' project delivery process, the National Wildlife 
Federation recommends the following changes.
    First, the Corps' planning process should be restructured to 
promote the development of innovative, ecologically sustainable 
solutions to water resources problems. Corps planning should begin with 
a comprehensive assessment of the root causes of the underlying 
problem. The Corps should then search for the most ecologically 
sustainable avenues for addressing those root causes. All projects 
should be designed to work with, and maintain, the integrity of natural 
systems (including a rivers' natural instream flow) to the maximum 
extent possible. Far too often, the Corps' current planning process is 
focused on attempting to justify pre-determined, structural solutions 
that often increase flooding in other locations and destroy vital 
wetlands that protect communities and allow wildlife to thrive.
    Project delivery for complex Corps projects can be improved by 
active coordination across federal agencies and this type of 
coordination should be encouraged. Such coordination can assist in 
efficiently sequencing appropriate reviews and in anticipating and 
working to resolve issues that may arise before they result in delay.
    The Corps must also meaningfully account for technical comments 
provided by other federal agencies, state agencies, independent 
experts, independent external peer review panels, and the public. The 
Corps often ignores many of the recommendations provided by others, 
even when they are highly informed and detailed. Using the information 
provided by others in a meaningful way would improve the quality of 
Corps projects (including in some cases, driving fundamental changes to 
the suite of alternatives being considered) and the timeliness of 
project delivery.
    To help implement these needed changes, Congress should:

    <bullet>  Mainstream the Corps' Use of Natural Infrastructure: 
Natural infrastructure is a critical, but underused, tool for reducing 
flood and storm damages while also increasing resilience. Congress 
should also create incentives for non-federal sponsors to increase 
consideration of natural infrastructure solutions by: (1) clarifying 
that natural infrastructure solutions are subject to the decade-old 
limitation on the total non-federal cost share for non-structural 
measures, which eliminates the potential for excessive land-related 
cost burdens on non-federal sponsors; and (2) facilitating full 
consideration of cost-effective flood and storm damage reduction 
solutions for at-risk communities by adopting targeted criteria for 
waiving the non-federal cost share for feasibility studies while also 
requiring that those studies fully evaluate natural infrastructure 
solutions that can provide sustainable and less expensive protections.
    <bullet>  Ensure Effective and Efficient Analysis of Fish and 
Wildlife Impacts: Federal and state fish and wildlife experts provide 
vital input into Corps projects through the Fish and Wildlife 
Coordination Act, but this input is often ignored or given short shrift 
by the Corps. To improve the project delivery process, Congress should 
direct the Corps to evaluate fish and wildlife impacts, and develop 
mitigation for fish and wildlife resources, in a manner that is 
consistent with recommendations provided pursuant to the Fish and 
Wildlife Coordination Act that derive from the special expertise of our 
state and federal fish and wildlife experts (e.g., methods and metrics 
for evaluating fish and wildlife impacts and needed mitigation).
    <bullet>  Ensure Mitigation in Accordance with Long-Standing Legal 
Requirements: Mitigation for adverse impacts caused by construction and 
operation of Corps projects is an important tool for increasing the 
resilience of communities and the nation's fish and wildlife resources. 
Currently the Corps is failing to comply with long-standing civil works 
mitigation requirements for many projects, including ongoing operation 
and maintenance of the Mississippi River navigation system and ongoing 
operation of the Apalachicola-Chattahoochee-Flint river system. 
Congress should clarify the types of project studies that trigger the 
long-standing civil works mitigation requirements to ensure application 
of those requirements as Congress unquestionably intended.

    Second, Congress should modernize the criteria used by the Corps to 
calculate project benefits and costs, including by requiring the Corps 
to account for increased ecosystem services as a project benefit and 
lost ecosystem services as a project cost. Fully accounting for costs 
and benefits is critical for making effective decisions regarding the 
planning, construction, budgeting, prioritization, and authorization of 
Corps projects to increase resilience. Ecosystem services are the 
direct and indirect contributions that ecosystems provide to our well-
being, including benefits like flood control, water purification, and 
habitat for wildlife.
    Third, Congress should increase the Corps' capacity to improve the 
resilience of the nation's water resources infrastructure by 
establishing a Directorate of Ecological Services within the Office of 
the Chief of Engineers. This Directorate should be tasked with ensuring 
that the Corps takes full advantage of existing programs, authorities, 
and operations to use natural systems to protect communities from 
floods, minimize expenditures for emergency response and rebuilding, 
improve wildlife habitat, and strengthen the outdoor-based economy. 
This Directorate should have significant budgeting authority. Corps 
planning is hampered by an organizational structure that prevents the 
agency from creating and taking advantage of critical opportunities to 
effectively utilize the extensive public safety and wildlife benefits 
provided by healthy natural systems.
    Fourth, Congress should direct the Corps to develop and apply 
modern planning tools, including particularly modern hydrologic models 
that allow for 21st Century project planning, and ensure adequate 
funding to support this effort. The Corps should work closely with the 
academic community in developing new models. Far too many Corps models 
are outdated relics from the past, and far too many Corps projects rely 
on models and management plans that are decades old and simply cannot 
account for modern conditions. Updated models would greatly facilitate 
improvement of the Corps' project delivery process.
    Fifth, Congress should carefully consider changes to the Corps' 
budgeting process. The long-standing practice of funding Corps staff 
through project-specific appropriations creates a perverse incentive 
to: drag-out project planning and project delivery; plan and recommend 
larger and costlier projects; and continue the status quo approach to 
managing navigation and other projects instead of looking for new, more 
innovative and ecologically sound approaches. All of these types of 
actions are rewarded with more funding under the Corps' current 
budgeting process.

   Questions from Hon. Bruce Westerman to Julie A. Ufner, President, 
                     National Waterways Conference

    Question 1. During the hearing, you mentioned the multiple benefits 
that can be accrued from Corps civil works projects, but you've also 
pointed out the challenges in incorporating these benefits, including 
natural infrastructure, into the traditional planning model. What 
recommendations do you have to address these concerns?
    Answer. Ranking Member Westerman, thank you for your question. The 
members of the National Waterways Conference (NWC) include non-federal 
sponsors who have significant financial responsibilities for water 
resource projects and are accountable to the residents who the projects 
benefit and protect. The Corps' planning program provides a structured 
approach to the formulation of projects responsive to local, state and 
national needs, premised upon the project's contribution to national 
economic development while protecting the environment. In addition to 
the complex, and often lengthy internal review process, Corps studies 
are also subject to extensive external reviews, including under NEPA. 
It is important to note that the Corps' study process is grounded upon 
solving problems raised at the local or basin-wide level, whether 
combatting a flooding issue or ensuring a competitive navigation 
channel.
    As non-federal sponsors seek to incorporate additional benefits in 
projects, the planning framework must provide for the flexibility to 
include those additional benefits. No doubt, there may be opportunities 
where multiple benefits--and a willing non-federal partner--will lead 
to a higher return on investment. An example below will further explain 
this concept. However, imposing requirements on a non-federal sponsor 
does not reflect the reality of project development, and could result 
in a waste of scarce resources. As this committee knows too well, we 
live in a resource-constrained environment, with significantly more 
demand for important water resource projects than funding available. As 
such, the process to modify and update the program must be open and 
transparent, accounting for the feedback and expertise from nonfederal 
sponsors, while not imposing unwanted burdens and obligations.
    In my testimony, I referenced an example from the Sacramento Area 
Flood Control Agency (SAFCA) as illustrative of the current constraints 
on the planning process and how additional benefits may be 
incorporated. SAFCA was formed in 1989 to address the Sacramento area's 
vulnerability to catastrophic flooding. An integral part of the system, 
the Yolo Bypass, encompasses 5,900 acres and extends 41 miles through 
both urban centers and one of the most productive farmlands in the 
world. Constructed by the Corps as a single-purpose flood control 
facility, the entire three-mile-wide bypass is in a floodplain and is 
75 percent privately owned. During the non-flood season, most of the 
bypass is used as farmland, such as rice farming, which contributes to 
the nation's agriculture output. But during rainy seasons, SAFCA has 
flood easement rights to the land.
    To address concerns with endangered species, recently SAFCA 
proposed an ecosystem restoration plan that allowed salmon to grow on 
the fallowed bypass farmland during flood season, which would 
complement the bypass's use as a flood control facility. Numerous 
studies have shown that salmon and other threatened and endangered 
species grow eight to ten times larger on bypass lands than on the main 
stem of the river. However, under the current Corps processes, the plan 
was not allowed since Corps administrative policy requires all bypass 
land to be purchased in a fee title. Since the cost to purchase the fee 
titles is much greater than the Corps' assigned benefits to raise the 
endangered fish, this made the benefits unattainable. So, while it was 
acceptable for the Corps to claim a primary flood control benefit using 
the easement, a secondary ecosystem benefit was not acceptable based on 
internal Corps decisions.
    Building upon the lessons learned from this example, we would 
recommend that the current Corps process for examining multiple benefit 
projects be reassessed, as well as internal decision-making that 
prevents the Corps from crediting other multipurpose benefits within 
projects. One approach would be to not require a fee title to claim 
ecosystem benefits. Instead, those additional benefits could be treated 
similar to the way current obligations for mitigation sites and the 
operations and maintenance are handled.
    We would recommend a rigorous, disciplined, scientific-based 
examination of the issue such that water resource planners have 
additional tools at their disposal to incorporate a full array of 
feasible alternatives, satisfying the basic objectives of economics, 
environmental protection, regional development and social well-being, 
which by definition can address resilience concerns at the local level.
    We would also recommend that in the next WRDA, Congress authorizes 
a study by the National Academy of Sciences. Typically, as part of such 
studies, the Academy's Water Science and Technology Board holds open 
meetings and invites non-federal sponsors to offer their views for 
consideration in the final study. The inclusion of the views of the 
non-federal sponsors, who are responsible for significant financial 
commitments for construction and maintenance, is imperative to the 
integrity of this process.

    Question 2. As you mentioned in your testimony, the Corps is still 
operating on cost-benefit principles from 1983, and their most-recent 
update was met with widespread resistance. Additionally, in WRDA 2018, 
Congress called on the Corps to contract with the National Academy of 
Sciences to review the Corps' economic principles and analytical 
methodologies when evaluating water resources projects. Central to the 
concerns we heard during the hearing is how the Corps must do better to 
quantify multiple project benefits, including establishing the value of 
nature-based alternatives, as well as how to quantify resilience.
    Question 2.a.  As we look towards WRDA 2020, how can we further 
lean on the Corps to properly update these principles and guidelines?
    Question 2.b.  Additionally, how do you recommend that the Corps 
properly update the Principles and Guidelines?
    Answer (2.a. and 2.b.). There has been an increased call for the 
use of nature-based and natural infrastructure alternatives to be 
included in the planning process. To be sure, the process should 
include consideration of a full array of feasible alternatives. Federal 
investment decisions are grounded upon the net economic benefits to the 
nation, using a cost-benefit analysis, as set forth in the 1983 
Principles and Guidelines (P&G) which governs project planning and 
development.
    WRDA 2007 (P.L. 110-114) included a requirement for the Corps to 
consider how they interface with the P&G. The Council on Environmental 
Quality (CEQ) took over the process that had been started by the Corps 
and eventually issued two documents--the Principles and Requirements 
and the Implementing Guidelines (collectively referred to as the PR&G). 
NWC has been a vocal critic of the attempted update. As we described in 
the testimony, those products are fundamentally flawed. They are 
undisciplined, and lack any degree of consistency and predictability 
needed for the development of proposals to guide federal investment 
decisions.
    A key area of concern is the inability to quantify multiple project 
benefits, including establishing the value of nature-based alternatives 
in that analysis. We would urge the Committee to not simply direct the 
Corps to dust off the PR&G, but instead to take a fresh look at this 
issue.
    We are encouraged by work currently ongoing at the Corps' Engineer 
Research and Development Center to develop methods for evaluating and 
quantifying benefits beyond the scope of the traditional planning 
model, including natural and nature-based infrastructure. When such 
information is developed to the point that public input is appropriate, 
we would urge the Corps to solicit stakeholder input, including 
providing the opportunity for notice and comment. This input will be 
critically important to discern what is workable and feasible on the 
ground.

Question from Hon. Garret Graves to Julie A. Ufner, President, National 
                          Waterways Conference

    Question 1. How can we improve the Corps' project delivery process?
    Answer. Thank you for your question Congressman Graves. Congress 
has already started this process when they enacted numerous changes in 
WRRDA 2014, WRDA 2016 and WRDA 2018, which the Corps is working to 
implement. Concurrently, the Corps has also been focusing on 
streamlining its project delivery process through its ``revolutionize 
civil works'' initiative. We are encouraged by the progress we have 
seen this far, including adopting milestones for the feasibility 
process, integrated review of planning documents, and the establishment 
of a single policy and legal team for planning studies or budget 
decisions, along with the implementation of risk-informed decision-
making. Additionally, the Corps has moved to better incorporate the 
input and expertise of non-federal project sponsors and partners. 
Furthermore, the Corps is considering alternative funding and financing 
opportunities, which opens up more opportunities for non-federal 
sponsors and their communities to move forward with projects. But, as 
with any complex project, this is an ongoing process, and it is going 
to take time and learned experience to determine which changes work on 
the ground. To that end, we would urge caution before enacting further 
legislative directives--the new approaches underway ought to be given a 
chance to work before we work to change them.
    At the end of the day, we all want the same thing--strong, 
resilient and affordable infrastructure that can protect residents and 
businesses as well as the environment and economy--while making sound 
fiscal decisions. We look forward to working with you, Congress and the 
Corps to achieve these goals.

                                    
				[all]
</pre></body></html>
